<html>
<title> - EXAMINING EQUITY IN TRANSPORTATION SAFETY ENFORCEMENT</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


         EXAMINING EQUITY IN TRANSPORTATION SAFETY ENFORCEMENT

=======================================================================

                                (117-4)

                             REMOTE HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 24, 2021
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
44-521 PDF                 WASHINGTON : 2021   







  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy


                  Subcommittee on Highways and Transit

ELEANOR HOLMES NORTON, District of 
          Columbia, Chair
RODNEY DAVIS, Illinois               EDDIE BERNICE JOHNSON, Texas
DON YOUNG, Alaska                    ALBIO SIRES, New Jersey
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
BOB GIBBS, Ohio                      HENRY C. ``HANK'' JOHNSON, Jr., 
THOMAS MASSIE, Kentucky              Georgia
SCOTT PERRY, Pennsylvania            SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 JULIA BROWNLEY, California
BRIAN BABIN, Texas                   FREDERICA S. WILSON, Florida
DAVID ROUZER, North Carolina         ALAN S. LOWENTHAL, California
MIKE BOST, Illinois                  MARK DeSAULNIER, California
DOUG LaMALFA, California             STEPHEN F. LYNCH, Massachusetts
BRUCE WESTERMAN, Arkansas            ANTHONY G. BROWN, Maryland
MIKE GALLAGHER, Wisconsin            GREG STANTON, Arizona
BRIAN K. FITZPATRICK, Pennsylvania   COLIN Z. ALLRED, Texas
JENNIFFER GONZALEZ-COLON,            JESUS G. ``CHUY'' GARCIA, Illinois
  Puerto Rico                        ANTONIO DELGADO, New York
TROY BALDERSON, Ohio                 CHRIS PAPPAS, New Hampshire
PETE STAUBER, Minnesota              CONOR LAMB, Pennsylvania
TIM BURCHETT, Tennessee              JAKE AUCHINCLOSS, Massachusetts
DUSTY JOHNSON, South Dakota          CAROLYN BOURDEAUX, Georgia
MICHAEL GUEST, Mississippi           MARILYN STRICKLAND, Washington
TROY E. NEHLS, Texas                 GRACE F. NAPOLITANO, California
NANCY MACE, South Carolina           JARED HUFFMAN, California
NICOLE MALLIOTAKIS, New York         SALUD O. CARBAJAL, California
BETH VAN DUYNE, Texas                SHARICE DAVIDS, Kansas
CARLOS A. GIMENEZ, Florida           SETH MOULTON, Massachusetts
MICHELLE STEEL, California           KAIALI`I KAHELE, Hawaii
SAM GRAVES, Missouri (Ex Officio)    NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     STEVE COHEN, Tennessee
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)




                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, and Chair, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Rodney Davis, a Representative in Congress from the State of 
  Illinois, and Ranking Member, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     6
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    58
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    95

                               WITNESSES

Larry Sandigo, Former Chair, Community Advisory Board for 
  Melendres v. Arpaio, Maricopa County, Arizona:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Lorraine M. Martin, President and Chief Executive Officer, 
  National Safety Council:

    Oral statement...............................................    14
    Prepared statement...........................................    15
Michelle Ramsey Hawkins, Victim, Survivor, and Volunteer, Mothers 
  Against Drunk Driving:

    Oral statement...............................................    31
    Prepared statement...........................................    33
Ken Barone, Project Manager, Institute for Municipal and Regional 
  Policy, Central Connecticut State University:

    Oral statement...............................................    38
    Prepared statement...........................................    39
Rashawn Ray, Ph.D., Professor of Sociology, University of 
  Maryland; Executive Director, Lab for Applied Social Science 
  Research, and Fellow, The Brookings Institution:

    Oral statement...............................................    44
    Prepared statement...........................................    46

                       SUBMISSIONS FOR THE RECORD

Letter of August 13, 2020, from Hon. Dusty Johnson, a 
  Representative in Congress from the State of South Dakota, 
  Submitted for the Record by Hon. Johnson.......................    61
Submissions for the Record by Hon. Eleanor Holmes Norton:

    Letter of February 23, 2021, from Catherine Chase, President, 
      Advocates for Highway and Auto Safety, and Dawn King, 
      President, Truck Safety Coalition..........................    95
    Red Light Camera Program--Checklist..........................   101
    Letter of February 23, 2021, from Chuck DeWeese, Chair, 
      Governors Highway Safety Association, and Assistant 
      Commissioner, New York Governor's Traffic Safety Committee.   102
    Letter of February 24, 2021, from Leah Shahum, Executive 
      Director, Vision Zero Network..............................   103
Article entitled, ``Nine key takeaways from the Globe's `Blind 
  Spot' investigation,'' by Matt Rocheleau, Vernal Coleman, Evan 
  Allen, Laura Crimaldi, and Brendan McCarthy, Boston Globe, 
  updated August 25, 2020, Submitted for the Record by Hon. Seth 
  Moulton........................................................   106
Letter of March 10, 2021, from Gary Biller, President and Chief 
  Executive Officer, National Motorists Association (NMA), and 
  Legislative Text of NMA's Driver Education Through Enforcement 
  Response (DETER) Act, Submitted for the Record by Hon. David 
  Rouzer.........................................................   108

                                APPENDIX

Question from Hon. Frederica S. Wilson to Larry Sandigo, Former 
  Chair, Community Advisory Board for Melendres v. Arpaio, 
  Maricopa County, Arizona.......................................   111
Questions to Lorraine M. Martin, President and Chief Executive 
  Officer, National Safety Council, from:

    Hon. Seth Moulton............................................   111
    Hon. Nikema Williams.........................................   112
    Hon. Steve Cohen.............................................   112
    Hon. Frederica S. Wilson.....................................   114
    Hon. Rodney Davis............................................   115
    Hon. Mike Gallagher..........................................   116
Question from Hon. Frederica S. Wilson to Michelle Ramsey 
  Hawkins, Victim, Survivor, and Volunteer, Mothers Against Drunk 
  Driving........................................................   117
Questions to Ken Barone, Project Manager, Institute for Municipal 
  and Regional Policy, Central Connecticut State University, 
  from:

    Hon. Peter A. DeFazio........................................   117
    Hon. Frederica S. Wilson.....................................   118
    Hon. Rodney Davis............................................   119
Questions to Rashawn Ray, Ph.D., Professor of Sociology, 
  University of Maryland; Executive Director, Lab for Applied 
  Social Science Research, and Fellow, The Brookings Institution, 
  from:

    Hon. Peter A. DeFazio........................................   120
    Hon. Frederica S. Wilson.....................................   120

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           February 24, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Highways and Transit
    FROM:  LStaff, Subcommittee on Highways and Transit
    RE:      LSubcommittee Hearing on ``Examining Equity in 
Transportation Safety Enforcement''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Highways and Transit will meet on 
Wednesday, February 24, 2021, at 11:00 a.m. in 2167 Rayburn 
House Office Building and virtually via Cisco WebEx to receive 
testimony related to the hearing entitled ``Examining Equity in 
Transportation Safety Enforcement.'' The purpose of this 
hearing is to examine the role of enforcement in supporting 
traffic safety, and associated equity implications. The 
Subcommittee will hear from representatives of the Community 
Advisory Board to the Maricopa County Sheriff's Office, The 
National Safety Council, Mothers Against Drunk Driving, Central 
Connecticut State University's Institute for Municipal and 
Regional Policy, and the University of Maryland.

                               BACKGROUND

    The National Highway Traffic Safety Administration's 
(NHTSA) mission is to save lives, prevent injuries, and reduce 
vehicle-related crashes on our nation's roadways.\1\ To help 
achieve this, NHTSA administers programs focused on deterring 
unsafe driving behaviors--speeding, intoxicated driving, 
distracted driving, etc.\2\ NHTSA's driver behavior programs 
fall under the jurisdiction of the Subcommittee on Highways and 
Transit.
---------------------------------------------------------------------------
    \1\ NHTSA's Core Values at https://www.nhtsa.gov/about-nhtsa/
nhtsas-core-values.
    \2\ About NHTSA at https://www.nhtsa.gov/about-nhtsa.
---------------------------------------------------------------------------
    NHTSA provides formula and incentive grants to State 
governments to develop and carry out effective highway safety 
programs. NHTSA also administers the Fatality Analysis 
Reporting System (FARS) which contains data on fatal traffic 
crashes within the 50 States, the District of Columbia, and 
Puerto Rico. FARS is vital to the mission of NHTSA and is 
critical to understanding the leading causes of motor vehicle 
crash fatalities. FARS data is also used to evaluate whether 
State efforts to improve traffic safety are effective. NHTSA 
obtains the data from each State via cooperative agreement.\3\
---------------------------------------------------------------------------
    \3\ Fatality Analysis Reporting System at https://www.nhtsa.gov/
crash-data-systems/fatality-analysis-reporting-system.
---------------------------------------------------------------------------
    In order to receive funding from NHTSA, States are required 
to develop an annual highway safety plan that is evidence-based 
and data driven, and that responds to the safety problems in 
that State.\4\ State governments must operate an effective 
highway safety program consistent with national highway safety 
goals and their highway safety plan.\5\ States administer the 
program through a state highway safety agency.\6\
---------------------------------------------------------------------------
    \4\ Sec. 402(k)(5)(b)(i)(1) of title 23 U.S.C.
    \5\ Id.
    \6\ Sec. 402(b)(1) of title 23 U.S.C.
---------------------------------------------------------------------------
    The authority to set and enforce traffic safety laws lies 
with the States. Although NHTSA has no authority or 
jurisdiction over law enforcement or State traffic safety laws, 
it encourages States, Tribes, and U.S. Territories to adopt 
strong traffic safety laws and pursue traffic safety 
initiatives through its formula and incentive grant programs.
    NHTSA research shows that one of the most effective means 
for deterring unsafe driving behaviors is through enforcement 
of traffic safety laws.\7\ Currently, many traffic safety laws 
are enforced by State and local law enforcement agencies. 
According to researchers at Stanford University, law 
enforcement makes approximately 50,000 traffic stops nationwide 
on an average day.\8\ More than 20 million drivers are pulled 
over each year, making traffic stops one of the primary 
interactions between the public and law enforcement. Funding 
for law enforcement is an eligible expense under NHTSA's 
highway safety programs.
---------------------------------------------------------------------------
    \7\ https://www.nhtsa.gov/sites/nhtsa.dot.gov/files/documents/
812478_v5_countermeasures-that-work-a-highway-safety-countermeasures-
guide-9thedition-2017.pdf.
    \8\ https://openpolicing.stanford.edu/findings/.
---------------------------------------------------------------------------

TRAFFIC CRASHES

DATA

    According to NHTSA analysis, motor vehicle crashes were the 
13th leading cause of death overall in the U.S. in recent years 
and the number one cause of death for teenagers and young 
adults.\9\ In 2019, there were 36,096 people killed in motor 
vehicle traffic crashes on U.S. roadways and an estimated 2.74 
million injured.\10\ The U.S. Department of Transportation 
(DOT) estimated motor vehicle crashes cost the U.S. economy 
$242 billion in direct costs and $836 billion in indirect costs 
in 2010.\11\
---------------------------------------------------------------------------
    \9\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812927.
    \10\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
813060.
    \11\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812013.
---------------------------------------------------------------------------
    The 2019 fatality total represents a two percent decrease 
from the 2018 total. While the 2019 fatality rate--the ratio of 
the number of fatalities to the number of vehicle miles 
traveled--was the lowest rate since 2014, total fatalities show 
a 10 percent increase from the 2014 total. Although traffic 
fatalities have declined over the last several years, NHTSA's 
preliminary data indicates that traffic crash fatalities 
increased in 2020.\12\
---------------------------------------------------------------------------
    \12\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
813004.
---------------------------------------------------------------------------

IMPACTS OF DANGEROUS DRIVING

    Unsafe driving practices (speeding, intoxicated driving, 
distracted driving, etc.) are the primary cause of traffic 
crashes.\13\ According to NHTSA analysis, one person was killed 
in a motor vehicle crash every 14 minutes in 2018.\14\ Another 
five people were injured every minute while one pedestrian was 
killed every 84 minutes that same year.\15\
---------------------------------------------------------------------------
    \13\ Top 7 Causes of Car Accidents--2020 Statistics at https://
www.after-car-accidents.com/car-accident-causes.html
    \14\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812961.
    \15\ Id.
---------------------------------------------------------------------------
    For more than two decades, speeding has been a contributing 
factor in approximately one-third of all motor vehicle 
fatalities making it one of the leading causes of roadway 
deaths.\16\ In 2019, 9,277 people died in speeding-related 
crashes accounting for roughly 25 percent of all traffic 
fatalities that year.\17\ According to NHTSA, there are more 
instances of speeding and reckless driving on the road now than 
in the past because there are more drivers driving more miles 
on the same roads today than ever before.\18\
---------------------------------------------------------------------------
    \16\ https://www.nhtsa.gov/risky-driving/speeding.
    \17\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
813060.
    \18\ https://www.nhtsa.gov/risky-driving/speeding.
---------------------------------------------------------------------------
    Alcohol-impaired driving remains a leading cause of roadway 
fatalities each year, accounting for approximately one-third of 
total motor vehicle traffic fatalities.\19\ Every day, almost 
30 people in the United States die in drunk-driving crashes 
which is an average of one person every 50 minutes.\20\ Drunk 
driving is illegal in every state, yet in the 10-year period 
from 2009-2018 more than 10,000 people died each year in drunk-
driving crashes.\21\
---------------------------------------------------------------------------
    \19\ https://www.nhtsa.gov/risky-driving/drunk-driving.
    \20\ Id.
    \21\ Id.
---------------------------------------------------------------------------
    Other major contributors to traffic fatalities and injuries 
include distracted driving, fatigued driving, drug-impaired 
driving, and incorrect or non-use of seat belts.\22\ Distracted 
driving alone claimed 2,841 lives in 2018.\23\ According to 
NHTSA, sending or reading a text takes your eyes off the road 
for five seconds. If a driver is travelling at 55 mph, those 
five seconds equate to driving the length of an entire football 
field with your eyes closed.\24\
---------------------------------------------------------------------------
    \22\ https://www.nhtsa.gov/risky-driving.
    \23\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812961.
    \24\ https://www.nhtsa.gov/risky-driving/distracted-driving.
---------------------------------------------------------------------------

ENFORCEMENT AND EQUITY

    There are many tools which help deter unsafe driving 
behavior, such as driver's education, but enforcement of 
traffic safety laws remains a key component of maintaining 
safety on our roads according to NHTSA research on the most 
effective countermeasures.\25\ However, the use of enforcement 
to promote traffic safety raises significant equity 
implications.
---------------------------------------------------------------------------
    \25\ https://www.nhtsa.gov/sites/nhtsa.dot.gov/files/documents/
812478_v5_countermeasures-that-work-a-highway-safety-countermeasures-
guide-9thedition-2017.pdf.
---------------------------------------------------------------------------
    Researchers analyzing traffic stop data from across the 
U.S. have confirmed that law enforcement pull over minority 
drivers at a higher rate than white drivers.\26\ In 2013, the 
National Institute of Justice stated that, ``research has 
verified that people of color are more often stopped than 
whites.'' \27\
---------------------------------------------------------------------------
    \26\ https://openpolicing.stanford.edu/findings/.
    \27\ Racial Profiling and Traffic Stops, National Institute of 
Justice (January 9, 2013) at https://nij.ojp.gov/topics/articles/
racial-profiling-and-traffic-stops.
---------------------------------------------------------------------------
    In 2007, a class action lawsuit was brought against the 
Sheriff of Maricopa County and the Maricopa County Sheriff's 
Office (MCSO) in Arizona claiming officers were discriminating 
against Latinos by targeting them for unlawful traffic 
stops.\28\ The plaintiffs claimed that MCSO officers were 
conducting ``saturation patrols'' in which officers would 
saturate a given area of the county and target Latino drivers 
for traffic stops as a way to check their immigration 
status.\29\ The court later affirmed the plaintiffs' case, 
finding that MCSO's use of race as a factor in deciding who to 
pull over violates the Equal Protection Clause of the 
Fourteenth Amendment and issued an order prohibiting officers 
from using race to decide whether or not to stop someone.\30\
---------------------------------------------------------------------------
    \28\ Manuel de Jesus ORTEGA-MELENDRES, et al., v. Joseph M. ARPAIO, 
836 F. Supp. 2d 959 (D. Ariz. 2011).
    \29\ Melendres v. Arpaio, 989 F. Supp. 2d 822 (D. Ariz. 2013).
    \30\ Id.
---------------------------------------------------------------------------
    The U.S. Department of Justice (DOJ) performed its own 
investigation into the accusations in Maricopa County and found 
that MCSO officers stopped Latinos in their vehicles, ``four to 
nine times more often,'' than similarly situated non-Latino 
drivers and that stops were made ``without the required legal 
justification.'' \31\ The DOJ later filed a lawsuit against the 
Sheriff and the MCSO and subsequently won.\32\
---------------------------------------------------------------------------
    \31\ https://www.justice.gov/opa/pr/department-justice-files-
lawsuit-arizona-against-maricopa-county-maricopa-county-sheriff-s.
    \32\ Melendres v. Arpaio, 989 F. Supp. 2d 822 (D. Ariz. 2013).
---------------------------------------------------------------------------
    There is little data on traffic stops nationally because 
traffic violations are issued by State and local governments. 
Last year, researchers at Stanford University published a first 
of its kind analysis of over 100 million traffic stops 
conducted nationwide.\33\ The study found that black drivers 
were less likely to be stopped after sunset, when a `veil of 
darkness' masks one's race, suggesting bias in stop decisions 
and that the bar for searching black and Hispanic drivers was 
lower than that for searching white drivers.\34\ According to 
the researchers' analysis, evidence shows, ``that the decisions 
about whom to stop and, subsequently, whom to search are biased 
against black and Hispanic drivers.'' \35\
---------------------------------------------------------------------------
    \33\ A large-scale analysis of racial disparities in police stops 
across the United States, Nature, Human Behavior (July 2020) at https:/
/5harad.com/papers/100M-stops.pdf.
    \34\ Id.
    \35\ Id.
---------------------------------------------------------------------------
    Not only is racial profiling unconstitutional, if an 
individual is stopped for reasons other than traffic safety 
problems law enforcement resources are not maximized to enhance 
safety. Existing and proposed NHTSA grant programs aimed at 
eliminating racial bias and improving the effectiveness of 
traffic safety enforcement are detailed below.

SUMMARY OF NHTSA GRANT PROGRAMS

    Congress authorizes funding for States, Tribes, and U.S. 
Territories to pursue traffic safety efforts. Funds are 
administered by NHTSA through the State and Community Highway 
Safety Program and the National Priority Safety Programs. These 
grant programs have been reauthorized and amended several 
times, including most recently in 2015 when Congress enacted 
H.R. 22, Fixing America's Surface Transportation (FAST) Act 
(P.L. 114-94) which authorized $2.7 billion in funding over 
five years for NHTSA traffic safety grants. Last year, the 
House passed a surface transportation reauthorization bill, 
H.R. 2 the Moving Forward Act, which would reauthorize and 
amend NHTSA's traffic safety programs to provide increased 
funding of $3.9 billion and enhance safety requirements.

SECTION 402

    The State and Community Highway Safety Program (23 U.S.C. 
402), commonly referred to as ``Section 402,'' provides Federal 
aid to States for carrying out traffic safety initiatives 
designed to reduce traffic crashes and resulting deaths and 
injuries. Section 402 funds are apportioned via a statutory 
formula based on population and roadway miles.
    To receive Section 402 grant funds, a State must develop 
and submit an annual Highway Safety Plan (HSP) to NHTSA for 
approval each July. The HSP establishes the State's goals, 
performance measures, targets, and strategies for improving 
highway safety for the year. A State's HSP must address broad 
safety objectives set by Congress, but States can distribute 
their Section 402 funds to a wide network of sub-grantees 
including local law enforcement agencies, municipalities, 
universities, health care organizations, and other local 
institutions.
    According to NHTSA estimates, of the $270.4 million 
authorized by Congress for Section 402 in fiscal year 2019 
approximately $125 million went to law enforcement agencies, 
while $38 million went to non-governmental organizations.\36\
---------------------------------------------------------------------------
    \36\ This information was provided to the Committee by NHTSA on 
October 30, 2020, via email.
---------------------------------------------------------------------------
    Additionally, as a condition of receiving Section 402 
funds, States must participate in three high visibility law 
enforcement mobilization campaigns each year. These national 
campaigns are coordinated by the Secretary of Transportation 
and targeted toward either alcohol or drug-impaired driving or 
occupant seat belt use. High visibility enforcement campaigns 
combine law enforcement efforts, increased visibility, and 
public education to promote voluntary compliance with impaired 
driving and seat belt laws.
    The most recent State HSPs are available at: https://
www.nhtsa.gov/highway-safety-grants-program/state-highway-
safety-plans-and-annual-reports.

SECTION 405

    The National Priority Safety Program (23 U.S.C. 405), 
commonly referred to as ``Section 405,'' provides tiered grants 
targeted at specific driving risks. While States enjoy the 
flexibility of Section 402 funds, Section 405 funds focus 
resources on specific driving behaviors, including leading 
causes of roadway fatalities and injuries. Section 405 grants 
are meant to incentivize States to adopt strong traffic safety 
laws (such as setting a maximum blood alcohol concentration of 
.08), improve performance outcomes (such as increasing seat 
belt usage rates), or to promote public awareness and educate 
drivers on the dangers of unsafe driving behaviors (such as 
including distracted driving questions on State driver's 
license examinations). Section 405 programs include:
<bullet> LOccupant protection (seat belts)
<bullet> LImprovements to state traffic safety information systems
<bullet> LImpaired driving countermeasures
<bullet> LDistracted driving
<bullet> LMotorcyclist safety
<bullet> LGraduated driver licensing laws
<bullet> LNonmotorized safety

    State application, approval, and denial information for 
Section 405 grants is available to the public. Grant 
determinations by State for fiscal year 2021 are available 
here: https://www.nhtsa.gov/highway-safety-grants-program/fy-
2021-grant-funding-table.

RACIAL PROFILING GRANT PROGRAM

    Section 1906 of the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU; P. 
L. 109-59) established an incentive grant program to prohibit 
racial profiling during traffic stops (Section 1906). The 
purpose of the grant program was to encourage States to enact 
and enforce laws that prohibit racial profiling and to maintain 
and allow public inspection of statistical information 
regarding the race and ethnicity of the driver and any 
passengers for each motor vehicle stop in the State. 
Authorization for the Section 1906 program lapsed in 2012, but 
the program was subsequently reauthorized in the FAST Act in 
2015.
    The FAST Act amended Section 1906 and shifted the program's 
focus to support data collection. To be eligible for Section 
1906 funds today, a State must maintain and make publicly 
available statistical information on each motor vehicle stop 
made by a law enforcement officer. Recipients can use their 
Section 1906 funds to cover the costs of collecting and 
analyzing traffic stop data.
    The FAST Act authorized up to $7.5 million from the Highway 
Trust Fund annually for the Section 1906 program and set a 
maximum award amount of no more than five percent of the 
program's total authorization for each State. Since its 
inception in 2006, twenty-three States have applied for and 
received Section 1906 grant funds:
<bullet> LAlaska
<bullet> LArizona
<bullet> LColorado
<bullet> LConnecticut
<bullet> LFlorida
<bullet> LIdaho
<bullet> LIndiana
<bullet> LKansas
<bullet> LMassachusetts
<bullet> LMinnesota
<bullet> LMissouri
<bullet> LMontana
<bullet> LNebraska
<bullet> LNew Jersey
<bullet> LOregon
<bullet> LRhode Island
<bullet> LSouth Carolina
<bullet> LTennessee
<bullet> LUtah
<bullet> LVermont
<bullet> LWashington
<bullet> LWest Virginia
<bullet> LWisconsin

    H.R. 2, the Moving Forward Act, would reauthorize the 
Section 1906 program at $7.5 million per year through FY 2025.

H.R. 2 ADDITIONAL PROVISIONS

    The Moving Forward Act contained two new grant programs 
aimed at improving equity in traffic safety enforcement:

IMPLICIT BIAS

    Section 3010 of H.R. 2 as passed by the House would 
establish a new discretionary grant program available to 
institutions of higher education for research and training in 
the operation or establishment of an implicit bias training 
program as it relates to racial profiling at traffic stops. The 
grant was authorized at $10 million per year from the General 
Fund.

DRIVER AND OFFICER EDUCATION

    Section 3007 would establish a new Section 405 grant 
program titled ``Driver and Officer Safety Education'' which 
was adapted from H.R. 169, the Driver and Officer Safety 
Education Act (116th). This new grant program would incentivize 
States to include, as part of any driver education and safety 
courses provided by the State, information on best practices 
during traffic stops. This information includes the role of law 
enforcement, individuals' legal rights, as well as how and 
where to file a complaint against or on behalf of law 
enforcement. States would also be required to provide similar 
training for law enforcement.

                              WITNESS LIST

    <bullet> LMr. Larry Sandigo, Former Chairman, Community 
Advisory Board (Maricopa County, AZ)
    <bullet> LMs. Lorraine Martin, President & CEO, The 
National Safety Council
    <bullet> LMs. Michelle Ramsey Hawkins, Victim/Survivor, 
Mothers Against Drunk Driving
    <bullet> LMr. Ken Barone, Project Manager, Institute for 
Municipal and Regional Policy, Central Connecticut State 
University
    <bullet> LMr. Rashawn Ray, Professor of Sociology, 
University of Maryland

 
         EXAMINING EQUITY IN TRANSPORTATION SAFETY ENFORCEMENT

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2021

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11 a.m., in room 
2167 Rayburn House Office Building and via Cisco Webex, Hon. 
Eleanor Holmes Norton (Chair of the subcommittee) presiding.
    Present in person: Ms. Norton, Mr. DeFazio, Mr. Garamendi, 
Mr. Lynch, Mr. Stanton, Mr. Auchincloss, Mr. Carbajal, Ms. 
Newman, Mr. Rodney Davis, Mr. Massie, Dr. Babin, Mr. Bost, Mr. 
Westerman, Mr. Balderson, Mr. Stauber, Mr. Burchett, Mr. 
Johnson of South Dakota, Mr. Guest, and Mr. Nehls.
    Present remotely: Ms. Johnson of Texas, Mr. Sires, Ms. 
Brownley, Ms. Wilson of Florida, Mr. Lowenthal, Mr. DeSaulnier, 
Mr. Brown, Mr. Garcia of Illinois, Mr. Delgado, Mr. Pappas, Mr. 
Lamb, Ms. Bourdeaux, Ms. Strickland, Mrs. Napolitano, Mr. 
Huffman, Ms. Davids, Ms. Williams of Georgia, Mr. Cohen, Mr. 
Carson, Mr. LaMalfa, Mr. Fitzpatrick, Miss Gonzalez-Colon, and 
Mrs. Steel.
    Ms. Norton. I want to welcome everyone to today's hearing. 
It is good to be back in person at the House with the new 
session of Congress.
    This morning we will be discussing the use of enforcement 
to promote traffic safety and the equity implications of it. 
Now, this is a subject we could take up, and probably would 
have taken up, at any time. But this is an appropriate time to 
take it up because this is Black History Month and where some 
of the issues have indeed come from.
    This is the first Subcommittee on Highways and Transit 
hearing. I ask unanimous consent that the chair be authorized 
to declare a recess at any time during today's hearing. Without 
objection, so ordered.
    I also ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing. Without objection, so ordered.
    For Members participating remotely, and it looks like most 
Members are, let me remind you of key regulations from the 
House Committee on Rules. Members must be visible on video to 
be considered in attendance and to participate, unless 
experiencing connectivity issues. Members must also continue to 
use the video function for the remainder of the time they are 
attending this meeting and hearing unless experiencing 
connectivity issues or other technical problems. And you know 
how to be in touch with us if you are experiencing technical 
problems.
    If a Member is experiencing any connectivity issues or 
other technical problems, please inform committee staff as soon 
as possible so you can receive assistance. Just go to the chat 
function available for Members on the Cisco Webex platform for 
this purpose, or you can call the committee's main phone line, 
(202) 225-4472, for technical assistance by phone.
    Members may not participate in more than one committee 
proceeding simultaneously. However, for security reasons, 
Members may maintain a connection to the software platform 
while not in attendance. And I am having to be in another 
committee doing precisely that at this moment.
    It is the responsibility of each Member seeking recognition 
to unmute their microphone prior to speaking, and to keep their 
microphone muted when not speaking to avoid inadvertent 
background noise.
    As the chair of today's meeting and hearing, I will make a 
good-faith effort to provide every Member experiencing 
connectivity issues an opportunity to participate fully in the 
hearing.
    If you have any documents that you want submitted to the 
record, please have your staff email your document to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6f2d9d5c3dbd3d8c2c5e290fff6dbd7dfda98ded9c3c5d398d1d9c098">[email&#160;protected]</a>
    Now, proceeding with my statement about why we are having 
this hearing, a hearing we could have at any time, but it 
seemed that Black History Month was a good time for the 
hearing. The first subcommittee hearing of the 117th Congress 
does show the importance of this issue and our commitment to 
make highways and roadways safer and free from discrimination 
for all users.
    This subcommittee authorizes funding for States, Tribes and 
U.S. Territories to pursue traffic safety efforts through the 
State and Community Highway Safety Program, commonly referred 
to as ``section 402.'' We also authorize tiered grants aimed at 
addressing national traffic safety priorities, commonly 
referred to as ``section 405.''
    States can spend their traffic safety funds on a variety of 
activities, such as community education and outreach on the 
importance of using seatbelts or improvements to State traffic 
record databases. States can also spend their funds on 
enforcement of traffic safety laws. A large portion of traffic 
safety grants go to law enforcement agencies. In fiscal year 
2018, States spent over $200 million of their section 402 and 
section 405 funds on law enforcement.
    It is estimated that more than 20 million drivers are 
pulled over each year, making traffic stops one of the primary 
interactions between the public and law enforcement, so it is 
crucial we understand how, and against whom, traffic safety 
laws are enforced. Parenthetically, I have read of increased 
traffic speed during this pandemic. Apparently people think you 
can go fast because there are not many people on the road, and 
as a result, there are an increasing number of accidents on the 
road.
    Today, we will hear witnesses describe not only the impacts 
of traffic safety enforcement, which disproportionately affect 
people of color, but methods to improve trust between 
communities and law enforcement to bring about safe, equitable, 
and just outcomes in these interactions.
    We will also hear about the importance of using traffic 
safety resources to address problems that lead to injuries and 
deaths--such as impaired driving--rather than for traffic stops 
that are used as a sweeping tool to interact with communities. 
Targeting resources is necessary to ensure that we actually 
move the needle on traffic safety.
    I am especially interested to hear testimony from Ken 
Barone of Central Connecticut State University. The reason I am 
interested is he is program manager of the State of 
Connecticut's Racial Profiling Prohibition Project, which is 
supported by a grant program I championed to prohibit racial 
profiling, known as section 1906, that has been a great 
success. It is my understanding that other States are seeking 
to replicate the Connecticut model, so I very much look forward 
to hearing more about that program.
    Thank you all for participating in today's hearing. I look 
forward to learning more about what the committee can do to 
ensure that traffic safety enforcement is fair as well as safe 
for all Americans.
    [Ms. Norton's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Eleanor Holmes Norton, a Delegate in 
  Congress from the District of Columbia, and Chair, Subcommittee on 
                          Highways and Transit
    Welcome to today's hearing. We will be discussing the use of 
enforcement to promote traffic safety and the equity implications of 
it. This is the first Subcommittee on Highways and Transit hearing of 
the 117th Congress, which shows the importance of this issue and my 
commitment to making our highways and roadways safer and free from 
discrimination for all users.
    This Subcommittee authorizes funding for States, Tribes and U.S. 
Territories to pursue traffic safety efforts through the State and 
Community Highway Safety Program, commonly referred to as ``Section 
402.'' We also authorize tiered grants aimed at addressing national 
traffic safety priorities, commonly referred to as ``Section 405.'' 
States can spend their traffic safety funds on a variety of activities, 
such as community education and outreach on the importance of using 
seat belts or improvements to State traffic record databases. States 
can also spend their funds on enforcement of traffic safety laws. A 
large portion of State traffic safety grants go to law enforcement 
agencies. In fiscal year 2018, States spent over $200 million of their 
Section 402 and Section 405 funds on law enforcement.
    It is estimated that more than 20 million drivers are pulled over 
each year, making traffic stops one of the primary interactions between 
the public and law enforcement, so it is crucial we understand how, and 
against whom, traffic safety laws are enforced. Today, we will hear 
witnesses describe not only the impacts of traffic safety enforcement, 
which disproportionately affect people of color, but methods to improve 
trust between communities and law enforcement to bring about safe, 
equitable and just outcomes in these interactions.
    We will also hear about the importance of using traffic safety 
resources to address problems that lead to injuries and deaths--such as 
impaired driving--rather than for traffic stops that are used as a 
sweeping tool to interact with communities. Targeting resources is 
necessary to ensure that we actually move the needle on traffic safety.
    I am especially interested to hear testimony from Ken Barone of 
Central Connecticut State University. He is the Program Manager of the 
State of Connecticut's Racial Profiling Prohibition Project, which is 
supported by a grant program I championed to prohibit racial profiling, 
known as Section 1906, that has been a great success. It is my 
understanding that other States are seeking to replicate the 
Connecticut model, so I am very much looking forward to hearing more 
about that program.
    Thank you all for participating in today's hearing, and I look 
forward to learning more about what this Committee can do to ensure 
that traffic safety enforcement is both fair and safe for all 
Americans.

    Ms. Norton. I would now like to call on my good friend, our 
ranking member, Mr. Davis, for his opening statement.
    Mr. Davis. Well, thank you, Madam Chair. I appreciate the 
opportunity. And thanks to all of our witnesses here today to 
discuss how the National Highway Traffic Safety Administration 
programs contribute to highway safety and implications related 
to equity.
    NHTSA has an important mission: to save lives, prevent 
injuries, and reduce vehicle-related crashes. To help achieve 
this, NHTSA administers grant programs focused on deterring 
unsafe driver behaviors such as speeding and impaired or 
distracted driving, which are the primary causes of traffic 
crashes.
    States receive the NHTSA grants and are charged with 
overseeing their State safety program. NHTSA has a successful 
record, and has significantly reduced highway fatalities since 
their high in 1973: 2019 traffic fatalities totaled 36,096, 
which represents a 34-percent reduction from the 1973 fatality 
level and a 2-percent reduction from the 2018 level.
    Sadly, based on preliminary data, NHTSA estimates that 
traffic fatalities increased in the first 9 months of 2020. 
NHTSA and the Governors Highway Safety Association point to 
increases in risky driving and reductions in enforcement 
activities, just another deadly consequence from the COVID-19 
pandemic.
    NHTSA's research indicates that enforcement is one of the 
most effective ways to combat unsafe driving behavior. Because 
of this, States have decided to expend some NHTSA grant funds 
on law enforcement activities. I believe that eliminating 
enforcement activities would lead to more dangerous roads and 
more fatalities and injuries.
    However, I also know that since the early days of this 
great Nation, this country has had problems with discrimination 
and bias based on race, ethnicity, gender, religion, and 
socioeconomic factors. Look no further than my own district and 
the site of the 1908 Springfield race riots, one of those parts 
of our Nation's history that is unfortunately credited with 
being one of the birthplaces of the NAACP.
    For the past few years, I have been working to designate 
this site as a National Historic Monument within the National 
Park Service, and I will take this as an opportunity today to 
say I cannot wait to work with our colleague, Deb Haaland, when 
she is hopefully confirmed, as I would support, as the next 
Secretary of the United States Department of the Interior.
    While Deb and I do not always agree on issues regarding 
energy independence, it will be great to have a friend that we 
can call to address issues that are important to our great 
Nation and righting the wrongs of things that happened in our 
Nation's history, and highlighting those instances where we can 
come together and we can actually make sure that we learn about 
biases that have happened decades and centuries before we are 
here today.
    While more work needs to be done on this front, we were 
successful last year in getting the Trump administration to 
actually include this site on the African American Civil Rights 
Network, created by our former colleague and my good friend, 
Lacy Clay. We need to acknowledge that these issues continue to 
exist and must learn from past mistakes so that we can address 
them in a holistic way.
    I recognize NHTSA has no authority or jurisdiction over law 
enforcement or law enforcement activities. But the House 
Judiciary Committee has been focusing on this since 1997, when 
it passed H.R. 118, the Traffic Stops Statistics Study Act of 
1998. This is important work.
    I pledge to assist the Judiciary Committee in examining 
these issues, and Chair Norton, thank you for the opportunity 
to be here today. Thanks again to our witnesses. I yield back 
the balance of my time.
    [Mr. Davis' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
    from the State of Illinois, and Ranking Member, Subcommittee on 
                          Highways and Transit
    Thank you, Chair Norton, and thank you to our witnesses for being 
here today to discuss how the National Highway Traffic Safety 
Administration programs contribute to highway safety and implications 
related to equity.
    NHTSA has an important mission--to save lives, prevent injuries, 
and reduce vehicle-related crashes. To help achieve this, NHTSA 
administers grant programs focused on deterring unsafe driver behaviors 
(such as speeding, and impaired or distracted driving), which are the 
primary causes of traffic crashes. States receive the NHTSA grants and 
are charged with overseeing their state safety program.
    NHTSA has had a successful record and has significantly reduced 
highway fatalities since their high in 1973. 2019 traffic fatalities 
totaled 36,096--which represents a 34 percent reduction from the 1973 
fatality level, and a 2 percent reduction from the 2018 level. Sadly, 
based on preliminary data, NHTSA estimates that traffic fatalities 
increased in the first nine months of 2020.
    NHTSA and the Governors Highway Safety Association point to 
increases in risky driving and reductions in enforcement activities--
just another deadly consequence from the COVID-19 pandemic.
    NHTSA's research indicates that enforcement is one of the most 
effective ways to combat unsafe driving behavior. Because of this, 
states have decided to expend some NHTSA grant funds on law enforcement 
activities.
    I believe that eliminating enforcement activities would lead to 
more dangerous roads and more fatalities and injuries.
    However, I also know that, since the early days of this great 
nation, this country has had problems with discrimination and bias 
based on race, ethnicity, gender, religion, and socio-economic factors. 
Look no further than my own district and the site of the 1908 
Springfield Race Riot. For the past few years, I've been working to 
designate the site as a National Historic Monument within the National 
Park Service. While more work needs to be done on that front, we were 
successful last year in getting the Trump Administration to include it 
in the Department of Interior's African American Civil Rights Network.
    We need to acknowledge that these issues continue to exist and must 
learn from past mistakes so that we can address them in a holistic way.
    I recognize that NHTSA has no authority or jurisdiction over law 
enforcement or law enforcement activities. But the House Judiciary 
Committee has been focusing on this since 1997 when it passed H.R. 118, 
the Traffic Stops Statistics Study Act of 1998. This is important work, 
and I pledge to assist the Judiciary Committee in examining these 
issues.

    Ms. Norton. Thank you very much, Mr. Davis, for those 
opening remarks.
    I would like to recognize the chairman of the full 
committee, Mr. DeFazio of Oregon.
    Mr. DeFazio. Thanks, Madam Chair. This is an important 
hearing, and I expect we will get direction today and help from 
our witnesses in how we can deal with this long-term, 
persistent problem with traffic stops. It is clear the intent 
of the law is safety. Distracted driving, drunk driving, 
speeding--those are the principal causes of highway deaths.
    And the slaughter goes on. We say, oh, we made progress 
because, gee, the rate, the percentage, given miles traveled, 
is down. Forty thousand seven hundred sixteen people lost in 
1994. But still, in 2019--36,096. And we know that distracted 
driving is growing as a problem.
    In fact, many States, including my State, now prohibit use 
of cell phones that are not hands-free. But there are myriad 
things being added to cars that are distracting, including 
startup companies that want to be able to display your email in 
a heads-up display right in front of you while you are driving. 
Great idea. Yeah, sure.
    So we need to deal with these safety issues. And that is 
what this money is supposed to be spent on. But we find that a 
number of States, many States, have been using this for law 
enforcement in ways that are not meaningfully dealing with the 
major problems that cause traffic fatalities. In fact, they are 
being used in ways that really reflect the systemic racism in 
the United States of America, conscious or unconscious bias in 
terms of the stops that are being made.
    Meanwhile, we are not making the progress we want to make 
on lowering the fatality rate. In H.R. 2, we had several 
provisions that were aimed at addressing disparities and 
increasing transparency in traffic safety enforcement. As the 
chair discussed, H.R. 2 reauthorized and made improvements to 
the section 1906 grant program to provide grants to States that 
were collecting data on racial profiling during traffic stops.
    Twenty-three States have applied for and received these 
funds, including my State. In fact, we found we have 
extraordinary problems of disparities in our largest city, in 
Portland, Oregon, something that was not obvious before. We 
need to root this out.
    H.R. 2 included an implicit bias research and training 
grant program to provide funds to universities for research and 
training of law enforcement to identify implicit bias during 
traffic stops. Today we will hear testimony on how both of 
these tools can be used to address racial disparities in 
traffic safety enforcement, and hopefully we will get some 
other ideas that we could put into H.R. 2 as we rewrite the 
bill as part of a major infrastructure package in this 
Congress.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Madam Chair, for holding today's hearing to examine the 
equity implications of the most prevalent methods to enforce traffic 
safety laws.
    This is a complex and important issue that we cannot ignore. With 
this hearing, the Committee is raising awareness of the need to improve 
accountability in transportation safety enforcement and taking the 
first steps to ensure that Federal transportation safety funds elevate 
safety while maintaining the rights of every American.
    The Highways and Transit Subcommittee authorizes hundreds of 
millions of Federal dollars on an annual basis to help States and 
communities make roads safer. We measure the success of safety 
programs, in large part, by how many traffic-related fatalities occur 
each year. As the former Chairman of this Subcommittee, I can tell you 
that number has been too high for too long.
    Some may point to the fact that the rate of traffic fatalities per 
vehicle miles traveled has decreased during our lifetime and say we've 
done our job. I say that's unacceptable. To put it in context for you--
in 1994 we lost 40,716 lives on our roadways. In 2019, we lost 36,096. 
I'd say we have a lot more work to do.
    We still lose an average of 100 lives per day due to motor vehicle 
crashes. What's worse, the majority of these crashes are entirely 
preventable. Year after year the leading cause of car crashes is human 
behavior: excessive speed, drunk driving, and distraction.
    For decades, enforcement of safety laws through traffic stops has 
been a cornerstone of traffic safety. This Committee provides over $600 
million annually for traffic safety grants to States, a portion of 
which is spent on law enforcement activities. These funds are intended 
to be spent deterring dangerous driving behaviors such as speeding or 
not wearing a seat belt.
    However, we know that far too often individuals are stopped for 
reasons other than traffic safety violations. Not only is this a misuse 
of law enforcement resources that are meant to enhance safety, it's 
unconstitutional. As we will hear from witnesses today, the misuse of 
traffic stops--due to conscious or unconscious bias, or worse, racial 
profiling--has to be addressed head on.
    There is no doubt that systemic racism exists in this country. It 
is a cancer that has been ignored and allowed to grow and divide out of 
control. Systemic racism has excused the criminality of the wealthy, 
white, and well-connected, while being overly punitive toward people of 
color and the marginalized. We must recognize that ensuring safety on 
our roadways means not only protecting people from dangerous drivers 
but protecting people of color from enforcement abuses as well.
    Last year, this Committee advanced H.R. 2 the Moving Forward Act, 
which included several provisions aimed at addressing disparities and 
increasing transparency in traffic safety enforcement.
    First, as Chair Norton discussed, H.R. 2 reauthorized and made 
improvements to the Section 1906 grant program to provide grants to 
States for collecting data on racial profiling during traffic stops. 
Twenty-three States have applied for and received these funds since the 
program's inception in 2006, including my own State of Oregon.
    Further, H.R. 2 included an implicit bias research and training 
grant program which would provide funds to universities for research 
and training of law enforcement to identify implicit bias during 
traffic stops. Today we will hear testimony on how both of these tools 
can be used to address racial disparities in traffic safety 
enforcement.
    I thank our witnesses for being here and look forward to hearing 
additional steps we can take to improve equity and transparency in 
traffic safety enforcement.

    Mr. DeFazio. So with that, I yield back the balance of my 
time.
    Ms. Norton. I thank the chairman for his remarks, and I am 
pleased that we got so far in perhaps the only full committee 
bill that got through last year in the Congress ushered by our 
chairman.
    I would like to welcome our witnesses on our panel: Mr. 
Larry Sandigo, who is the former chair of the Community 
Advisory Board of Maricopa County, Arizona; Ms. Lorraine 
Martin, president and CEO of the National Safety Council; Ms. 
Michelle Ramsey Hawkins, victim and survivor, Mothers Against 
Drunk Driving; Mr. Ken Barone, project manager, Institute for 
Municipal and Regional Policy, Central Connecticut State 
University; and Mr. Rashawn Ray, professor of sociology, 
University of Maryland.
    I thank all of you for being here and look forward to your 
testimony. Before we begin, I would like to recognize 
Representative Stanton to say a few words about Mr. Sandigo. 
Representative Stanton.
    Mr. Stanton. Thank you very much, Madam Chair. I am pleased 
to welcome to the subcommittee Larry Sandigo, a native 
Arizonan, a first-generation American, and a former member of 
my congressional staff. Throughout his career as an immigration 
attorney, Mr. Sandigo has fought to provide important legal 
services to individuals of all ages, including children in 
immigration detention in Arizona, and has been recognized by 
his fellow practitioners for his exceptional advocacy.
    In 2017 to 2020, Mr. Sandigo served as the chairman of the 
Community Advisory Board that was established by the Federal 
court following a class action lawsuit against then-Maricopa 
County sheriff, Joe Arpaio, and his office for violating the 
constitutional rights of Latinos in Maricopa County in traffic 
enforcement decisions.
    As chairman of the Community Advisory Board, Mr. Sandigo 
worked to foster an important and open dialogue between the 
community and the sheriff's office to improve mutual trust and 
respect. During his tenure, the board advanced some specific 
reforms and recommendations to improve how the sheriff's office 
interacts with the Latino community to ensure equal protection 
under the law in traffic enforcement.
    Thank you for being here, Mr. Sandigo. I yield back.
    Ms. Norton. Thank you very much, Mr. Stanton.
    I would now like to recognize Representative Brown to say a 
few words about Mr. Ray. Representative Brown.
    Mr. Brown. Thank you, Madam Chair, and thank you for 
hosting or convening this very important hearing today. It is 
an honor to introduce Dr. Rashawn Ray, a David M. Rubenstein 
Fellow in Governance Studies at the Brookings Institution.
    A proud constituent of Maryland's Fourth Congressional 
District, Dr. Ray is also a professor of sociology at the 
University of Maryland, and the executive director of the Lab 
for Applied Social Science Research. In 2016, Dr. Ray and his 
colleagues at the University of Maryland conducted research 
focused on the Prince George's County police department to 
understand differences in policing of individuals depending on 
their race, gender, or sexual orientation.
    That research is the foundation of a program developed to 
help police officers identify and address implicit and 
unconscious bias. The training program uses 3D virtual reality 
to immerse officers in various situations while stress levels 
are measured. Virtual reality training has been critical to 
providing officers a risk-free setting to understand their own 
biases and practice use of force and verbal de-escalation.
    It is important to note that in his research, Dr. Ray 
stresses that implicit bias training is not a one-size-fits-all 
solution. It is because of the work that Dr. Ray has done at 
the University of Maryland that I introduced the Bias in 
Automobile Stops Act. This bill that I introduced was also 
included in H.R. 2, the Moving Forward Act, and it would 
establish a new discretionary grant program for institutions of 
higher education for research and training on implicit bias 
training programs as it relates to racial profiling at traffic 
stops.
    I look forward to hearing Dr. Ray's testimony. I believe 
the committee will find it very informative and valuable in our 
deliberations. I look forward to continuing to work together 
with the committee, with Dr. Ray, and his colleagues to better 
address implicit bias and racial profiling in policing.
    Thank you, Madam Chair. I yield back.
    Ms. Norton. Thank you, Mr. Brown.
    Without objection, our witnesses' full statements will be 
included in the record. Since your full testimony has been made 
a part of the record, the subcommittee requests that you limit 
your oral testimony to 5 minutes.
    Let's begin with Mr. Sandigo. You may proceed, sir.

 TESTIMONY OF LARRY SANDIGO, FORMER CHAIR, COMMUNITY ADVISORY 
   BOARD FOR MELENDRES v. ARPAIO, MARICOPA COUNTY, ARIZONA; 
  LORRAINE M. MARTIN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
   NATIONAL SAFETY COUNCIL; MICHELLE RAMSEY HAWKINS, VICTIM, 
  SURVIVOR, AND VOLUNTEER, MOTHERS AGAINST DRUNK DRIVING; KEN 
 BARONE, PROJECT MANAGER, INSTITUTE FOR MUNICIPAL AND REGIONAL 
POLICY, CENTRAL CONNECTICUT STATE UNIVERSITY; AND RASHAWN RAY, 
    Ph.D., PROFESSOR OF SOCIOLOGY, UNIVERSITY OF MARYLAND; 
 EXECUTIVE DIRECTOR, LAB FOR APPLIED SOCIAL SCIENCE RESEARCH, 
             AND FELLOW, THE BROOKINGS INSTITUTION

    Mr. Sandigo. Chair Norton, Ranking Member Davis, members of 
the subcommittee, thank you for inviting me to testify today in 
my capacity as the former chairman of the Community Advisory 
Board in Melendres v. Arpaio, a Federal case at Maricopa 
County, Arizona. The Community Advisory Board was created by 
the court after it found that the sheriff's office had engaged 
in racial profiling and unlawful traffic stops of Latino 
drivers.
    Long before there was a trial or statistical data attesting 
to these facts, Latino families in Maricopa County knew that 
race, and not criminality, was the basis of traffic 
enforcement. If you were a Latino driver in Maricopa County, 
you were four to nine times more likely to be pulled over by 
the sheriff's office. You were also more likely to be searched, 
detained, or arrested. This discriminatory practice applied to 
Latinos across the board regardless of education, community 
stature, or citizenship.
    Under the guise of transportation safety, Sheriff Joe 
Arpaio was doing what he really wanted to do, which was 
immigration enforcement. Traffic stops became a pretext to 
investigate Latinos for immigration violations. It did not 
matter that the considerable majority of Latinos living in 
Maricopa County are in fact American citizens or here lawfully.
    These traffic stops evolved into a systematic and 
specialized traffic enforcement scheme known as saturation 
patrols. Sheriff's deputies would descend upon Latino 
neighborhoods or places where Latinos gathered, saturating the 
neighborhood, and would detain people based on alleged traffic 
concerns or equipment failures. This happened for years.
    No place seemed off limits. In one case, the sheriff's 
deputies conducted a raid at a church that was helping Latino 
workers. Their justification was that people were gathering on 
the side of the street and causing transportation safety 
concerns. At trial, this was found to be demonstrably not true, 
as the officer's note said that the workers had been inside the 
church parking lot. Imagine the effect on a community when you 
are hunted at a house of worship, when seeking work is 
dangerous, when your neighborhood has been marked.
    Individual harm was compounded into community trauma. In a 
different case, officers boarded a schoolbus and threatened the 
children that they would deport their parents if they did not 
behave. The fear was so intense that some of the children wet 
themselves. That kind of pain does not just go away.
    Behind every data point of a prolonged and unjustified stop 
is a real person with a story and a family. The named plaintiff 
in the case, Mr. Melendres, is a retired schoolteacher with 
three children. He was a passenger in a car and was taken to 
jail for hours. When he was finally let go, he was not cited or 
charged with anything. I spoke with him yesterday, and Mr. 
Melendres, like many others, talks about his experience in 
terms of shame and humiliation. His dignity had been run over.
    For children, the trauma was profound. For 9-year-old 
Katherine, it was seeing her father arrested on TV. For 10-
year-old Heidi, it was having her mother taken away. But this 
is not just a story of victimization. It is also a story of 
resilience. The community rose up, organized itself, and began 
to fight back. The fear of retaliation was real, but the 
strength of character to say ``basta,'' or ``no more,'' was 
even greater.
    The lawsuit was lengthy and complex, but in sum, the 
community won. The court found that the sheriff's policies and 
procedures institutionalized the illegal consideration of race 
as a factor in traffic enforcement practices. A few years after 
the court ruling, the community won again, this time at the 
ballot box, and Sheriff Joe was voted out of office.
    Among the many reforms that the court ordered was the 
creation of the Community Advisory Board, which facilitates 
dialogue between the community and the sheriff's office, and 
advises on recommendations to increase community trust. When 
the new sheriff took office, I was jointly selected by him and 
the plaintiff's representatives to help with this effort. I 
would like to highlight two court-ordered reforms that the 
community found particularly helpful.
    One: The power of data, its collection, analysis, and 
publication, soon became apparent. After the court ordered data 
reports, clear patterns emerged. Not only were Latinos being 
treated differently, but so were other communities of color. 
This data allowed the community to keep track of progress and 
offer specific recommendations for reform. As the data became 
more and more of what I call ``community-friendly,'' or easy to 
access and easy to understand, the community was able to 
provide more effective recommendations.
    The second reform that resonated with the community was the 
use of body-worn cameras. Community members consistently asked 
us about their use and policies. It was a reform that was 
easily understood both in practice and in benefit.
    Although I am no longer the chairman of the Community 
Advisory Board, it continues the crucial work of rebuilding 
trust and ensuring equitable traffic enforcement and dignity 
for everyone.
    Thank you for your time, and I welcome your questions.
    [Mr. Sandigo's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Larry Sandigo, Former Chair, Community Advisory 
        Board for Melendres v. Arpaio, Maricopa County, Arizona
    Chair Norton, Ranking Member Davis, Members of the Committee, thank 
you for giving me the opportunity to testify today. My name is Larry 
Sandigo and I am here in my capacity as former chairman of the 
Community Advisory Board for Melendres v. Arpaio, a federal 
constitutional case arising out of Maricopa County, Arizona. I am here 
to bear witness to the impact racially discriminatory traffic 
enforcement can have on communities of color.
    I am a proud first-generation American whose parents fled Central 
America to start a new life in the United States. Before I was even 
born, the system had already marked my life. When my older brother was 
still a baby, both of my parents became ensnared in the immigration 
system. My mother spent a month detained, separated from my brother.
    We were not unique. For immigrant families across Maricopa County, 
a traffic stop was not just a traffic stop. A broken taillight could 
lead to detention or deportation. The truth was, though, that you 
didn't need a broken taillight to be pulled over because Latino 
families in Maricopa County lived under a regime where race, and not 
criminality, was the basis of traffic enforcement.
                      Case Background and Context
    Long before there was a federal trial or statistical data attesting 
to these facts, Latino families knew the Maricopa County Sheriff's 
Office (MCSO) under Sheriff Joe Arpaio engaged in racially 
discriminatory traffic enforcement. We knew that if we were pulled 
over, we would be treated differently because we were Latino. Under the 
guise of transportation safety, the Sheriff was doing what he really 
wanted to do, which was immigration enforcement.\1\
---------------------------------------------------------------------------
    \1\ See Melendres v. Arpaio, 989 F. Supp. 2d 822 (D. Ariz. 2013).
---------------------------------------------------------------------------
    The authority to conduct traffic enforcement gave MCSO officers 
wide latitude to pull over vehicles to investigate the immigration 
status of the driver and any passengers. Because MCSO first needed a 
basis in state law to actually stop and detain persons, it began using 
the traffic safety context as a pretext to investigate Latinos.\2\ It 
did not matter that the considerable majority of Latinos living in 
Maricopa County are in fact American citizens or are here lawfully.\3\ 
If you were a Latino driver in Maricopa County, you were four to nine 
times more likely to be pulled over by the Sheriff's deputies.\4\ These 
targeted traffic stops were scaled and were part of a systematic and 
specialized attempt to enforce federal immigration law.
---------------------------------------------------------------------------
    \2\ See id. at 860.
    \3\ See id. at 828.
    \4\ https://www.justice.gov/opa/pr/department-justice-files-
lawsuit-arizona-against-maricopa-county-maricopa-county-sheriff-s
---------------------------------------------------------------------------
                           Saturation Patrols
    MCSO began conducting large-scale traffic operations, known as 
``saturation patrols,'' in Latino neighborhoods or places where Latinos 
congregated. MCSO even established a hotline so that people could 
report suspected undocumented immigrants and/or Latino workers to 
MCSO.\5\ The distinction between Latino and undocumented immigrant 
seemed to vanish, and all of us became fair game.
---------------------------------------------------------------------------
    \5\ See Melendres v. Arpaio, 989 F. Supp. 2d 822, 850 (D. Ariz. 
2013).
---------------------------------------------------------------------------
    In the type of saturation patrol that targeted day laborers, 
undercover MCSO officers would station themselves at locations where 
Latino day laborers gathered and identify vehicles that would pick up 
the workers.\6\ To be clear, it is not illegal to be a day laborer.\7\ 
Once a vehicle was identified, the undercover officers notified traffic 
patrol units that were waiting in the area.\8\ The traffic patrol units 
located the vehicle, followed it, and then established probable cause 
for a traffic stop.\9\ By and large, Latino drivers and passengers were 
questioned; white drivers and passengers were not.\10\ These were not 
split-second safety decisions that the officers were making--these were 
sustained and systematic policies. Transportation safety had been 
effectively co-opted for race-based enforcement.
---------------------------------------------------------------------------
    \6\ See id. at 831.
    \7\ See id. at 850.
    \8\ See id. at 831.
    \9\ See id.
    \10\ See id. at 851.
---------------------------------------------------------------------------
    Saturation patrols created a climate of fear in Latino 
neighborhoods and the pretense of transportation safety was used to 
cover all types of illegal enforcement. In one instance, MCSO received 
a tip on its hotline that a church was providing assistance to Latino 
workers.\11\ MCSO sent Latino undercover officers to investigate; they 
signed up for work and verified that Latino workers were gathering 
inside the church parking lot.\12\ There was no evidence of forced 
labor or human smuggling, and no evidence of any traffic safety 
concerns.\13\ A few days later, MCSO officers descended upon the church 
and began arresting people. MCSO claimed in a press release that these 
workers were causing transportation safety issues along the road.\14\ 
This was demonstrably not true, as the undercover officers' reports 
detailed that people were gathering inside the church parking lot, not 
along the road, and no arrests or citations were made on the basis of 
traffic safety issues.\15\
---------------------------------------------------------------------------
    \11\ See id. at 852.
    \12\ See id.
    \13\ See id.
    \14\ See id.
    \15\ See id.
---------------------------------------------------------------------------
                            Community Impact
    Imagine the terror in a community when you are hunted at a house of 
worship. Consider what happens when simply seeking work becomes 
dangerous. Each of these people had a name and a story, and a family. 
Each person who ended up detained or deported left a wake of 
devastation behind them--individual harm compounded into a family harm 
compounded into a community one. The loss of a parent ended in deep 
psychological damage, and the simultaneous loss of a breadwinner 
resulted in financial ruin for many families. Ten-year-old Heidi's 
mother was taken by MCSO and she suddenly had to grow up. She now had 
to get her little brother Miguel ready for kindergarten in the 
mornings, and she had to teach her baby brother how to drink milk, for 
he had been breastfeeding. In another case, Katherine was nine years 
old, when while playing a game, her dad suddenly appeared on live 
television, in handcuffs. Her mother was close behind him, also 
arrested in an MCSO raid. Those images sear into a young child's mind, 
and that kind of pain doesn't just go away. And for those Latinos who 
were American citizens or here lawfully, where being stopped didn't 
lead to immigration consequences, what remained was the humiliation and 
degradation, the knowledge that your skin color had determined your 
treatment.
    There is not one right way to respond to this kind of trauma. Some 
families moved away. Others tried to stay under the radar whenever 
possible. Children wrote to the president, asking him to have mercy on 
their broken families. Others rose up and faced the bully directly.
                            Victory at Trial
    The Latino community began organizing itself and fighting back. 
Experienced civil rights leaders teamed up with young people to start 
collecting stories that would later serve as evidence. People started 
filming the interactions. It required considerable courage for these 
community members to go up against a machine that was intent on taking 
them out. The fear of retaliation was real, but the strength of 
character to say ``basta'', or ``no more,'' was even greater. Because 
Sheriff was an elected position, people and community organizations 
also began organizing politically.\16\ Eventually, a class action 
lawsuit was filed in federal court, with the judge ruling that MCSO had 
violated the constitutional rights of Latinos in Maricopa County by, 
among other things, institutionalizing the illegal systematic 
consideration of race in making traffic enforcement decisions.\17\ This 
was a community victory. The judge ordered sweeping reforms, including 
the creation of the Community Advisory Board (CAB).
---------------------------------------------------------------------------
    \16\ Sheriff Joe Arpaio was voted out of office in 2016. The case 
continues under his successor.
    \17\ Melendres v. Arpaio, 989 F. Supp. 2d 822, 898 (D. Ariz. 2013).
---------------------------------------------------------------------------
                      The Community Advisory Board
    The Community Advisory Board serves to facilitate dialogue between 
the community and the MCSO, to provide recommendations for specific 
reforms that will increase community trust and ensure that reforms are 
being implemented. The task is herculean. One key factor about the 
five-member CAB is independence--the CAB reports to the Court Monitor 
and to the judge. Simply telling community members that the CAB does 
not work for the MCSO removes barriers of trust. Another element is 
that all CAB members must be from the affected community, elevating the 
role of lived experience. Two members are appointed by the ACLU, two 
members appointed by the Sheriff, and one member is a joint selection.
    During my tenure as Chair, we held numerous community meetings, in 
English and Spanish, to hear directly from those most affected. Almost 
inherently, law enforcement and the community have different outlooks 
and perspectives. We grappled with the dissonance, we dialogued, we 
learned, we pushed MCSO to be better. We also witnessed the 
generational impact created by racially based enforcement. At one 
community meeting, community members reported that just blocks from 
where we had gathered, officers had boarded a school bus and threatened 
to deport parents if the children didn't behave. This scared the 
children so much that some of them wet themselves. That kind of pain 
and humiliation doesn't just go away. We fiercely believe, then and 
now, that our constitutional rights as Latinos are not to be sacrificed 
in the name of safety. Although the CAB members did not agree on 
everything, there are a couple of reforms that particularly resonated 
with us and the community at large, including the proper use of data 
and body-worn cameras.
                           The Power of Data
    The power of data--its collection, analysis, and publication--
became apparent and the community wanted more of it. If you don't know 
what's happening, then it can be easy to pretend that all is well. If 
you do know what's happening, then it allows you to pinpoint additional 
areas for reform. The court ordered the collection and analysis of data 
to analyze racial disparities in traffic stops, including stop length, 
search rates, citation rates, arrest rates, and seizure rates. The 
judge's order also required deputies to document the reasons for 
stopping drivers.
    One key element in data transparency is making it ``community 
friendly''--data is more useful if it is easily understood by those 
feeling the impact of policies and practices on the ground. We had 
numerous ongoing conversations with MCSO to make the data more 
accessible--this ranged from where it was placed on the website to 
using more charts and graphics to using plain language to describe the 
data. Once the data become more community friendly, the community could 
ask harder questions, could compare the data to their experiences, and 
engage at a higher level.
    But not everything will be easily measured by data. Harm isn't just 
data, and neither is dignity or respect. Behind every data point that 
shows a ``disparate outcome'' in a traffic stop is a real person, a 
person who is a member of a family and community. As each of those 
disparate data points becomes a graph and a chart, in the community it 
manifests itself as mistrust and fear. It is hard to measure 
humiliation and it takes an investment to attempt to understand whether 
trust has been rebuilt. Anecdotal evidence, such as community stories, 
continue to be important.
    Because data cannot accurately measure community or generational 
harm, or is limited in its scope of collection and analysis, law 
enforcement and institutions should continue listening to community 
experiences and believing what they hear. Community members should not 
have to ``prove'' something for law enforcement or institutions to take 
their concerns seriously. Those affected will many times not have the 
right language or terminology, or they will frame interactions in terms 
of their feelings and sentiments. The more I learned about how MCSO 
operated, the more I was able to ``translate'' community experiences 
into terms the agency understood. Often times it took a series of 
conversations to build the sufficient trust for a community member to 
open up.
    As data continues to be compiled and analyzed, the community will 
continue monitoring the reforms and responding to long-standing issues 
as well as ones that newly arise. My hope is that the data will be 
compiled and disseminated at a more frequent rate and that decisions 
will continue to be made on the basis of that data.
                           Body-Worn Cameras
    Another key reform was the use of body-worn cameras. The community 
easily understood the concept, and benefit, of them. With multiple 
national examples of misconduct coming to light via camera recordings, 
the community asked for specific updates on body-worn cameras--how many 
deputies had them, when did they have to use them, what did they 
actually look like, etc. And with that understanding came progressively 
sophisticated questions, for example, inquiries about when a deputy was 
allowed to mute their camera, or when they were allowed to turn it off. 
Body-worn cameras also helped supervisors check the data and validate 
it. If the data was showing an outlier for one or more measurements, 
then the body camera footage could be reviewed. If there was a 
misconduct complaint, then the footage was helpful to the 
investigation.
                               Conclusion
    The story of Maricopa County has not ended. Until the MCSO reaches 
a sustained level of compliance, the CAB will continue to exist and 
provide recommendations toward rebuilding community trust and ensuring 
compliance with the court's orders. My hope and expectation is that the 
Latino community will continue to demand equal protection under the 
law, and that compliance, reform, and a new way of doing transportation 
safety will emerge.
    Thank you for your time and I welcome your questions.

    Mr. DeFazio [presiding]. I thank the gentleman.
    Ms. Lorraine Martin.
    Ms. Martin. Chairman DeFazio and Norton, Ranking Members 
Graves and Davis, and members of the subcommittee, thank you 
for inviting me here today to testify. It is truly an honor to 
be here.
    The National Safety Council has been America's leading 
nonprofit safety advocate for over a century. Our mission is to 
save lives, from the workplace to anyplace, and that includes 
the roads. Our roadways became more dangerous last year, even 
as the number of miles driven significantly decreased due to 
the pandemic.
    Preliminary NSC estimates show that the first 11 months of 
last year, 38,370 Americans died on our roads. This represents 
an outstanding 7-percent increase over the same period just a 
year prior. It also represents a tragic reversal in the pre-
pandemic safety trends when our roads were becoming safer for 
our drivers. I refer to the subcommittee in my written 
statement for a State-by-State breakdown of these lives lost. 
But suffice it to say, those 38,370 Americans are your 
constituents. We can and must do better.
    As we work to improve safety, it is essential that we also 
address inequity in our Nation's transportation system because 
too often, safety is the privilege of a few, not a right 
enjoyed equitably by all. The National Safety Council 
encourages the subcommittee to consider four points in any 
future legislation, most of which we are pleased to see 
included in the Moving Forward Act, which did pass the House 
last year.
    First, we need better demographic data for crashes and 
traffic stops, and for that data to be shared more quickly than 
it is now. This can be accomplished through increased funding 
for agencies like NHTSA.
    Second, we must consider alternatives to traditional 
enforcement. This can include adoption of safe system 
approaches with self-enforcing roads, automated enforcement, 
and community policing, among other strategies.
    Third, we believe Congress should expand section 1906 grant 
program to ensure racial profiling does not occur in traffic 
law enforcement. Fair and equitable application of roadway 
safety laws is the only way to keep all users safe.
    And finally, community members must be involved in the 
development of traffic laws and safety programs, means for 
enforcement, and roadway design to ensure that their needs are 
being met.
    There are several steps taken towards these goals in the 
reauthorization passed by the House last year. We look forward 
to supporting the reintroduction of this bill and working 
together to incorporate today's learnings.
    In closing, we applaud the subcommittee for holding today's 
hearing. This conversation is an important step towards 
achieving our shared goal, which is a transportation system 
that prioritizes safety equitably for all. NSC pledges to work 
alongside you to make this vision a reality. Thank you.
    [Ms. Martin's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Lorraine M. Martin, President and Chief Executive 
                    Officer, National Safety Council
    Chair DeFazio, Chair Norton, Ranking Member Graves, Ranking Member 
Davis and members of the Subcommittee: Thank you for inviting me to 
testify today on behalf of the National Safety Council (NSC) on equity 
in roadway safety. It is an honor to be with you today.
    NSC is America's leading nonprofit safety advocate and has been for 
over 100 years. As a mission-based organization, we work to eliminate 
the leading causes of preventable death and injury, focusing our 
efforts on the workplace, roadway and impairment. We create a culture 
of safety to not only keep people safer at work, but also beyond the 
workplace so they can live their fullest lives. Our more than 15,000 
member companies and Federal agencies represent employees at nearly 
50,000 U.S. worksites.
    As I address you today, NSC is preparing to release the roadway 
fatality estimates for calendar year 2020, an annual exercise NSC has 
done for decades. While this early release does not contain certain 
details--for example, the number of pedestrian crashes or crashes 
involving large trucks--we see value in publishing this preview so that 
decisionmakers can understand the state of safety on U.S. roadways.
    In short: 2020 was a deadly year on our roads.
    While much of the Nation was under stay-at-home orders during the 
early stages of the coronavirus pandemic and therefore not traveling in 
vehicles, the motor vehicle fatality rate increased by double digits in 
March and April 2020 over 2019 levels. It did not improve as the year 
progressed. Preliminary NSC estimates show a 24.2% fatality rate 
increase and a 7% increase in the number of deaths in the first 11 
months of 2020, as compared to the same period of 2019.\1\ The data 
demonstrate that fatalities remained high once most states re-opened by 
June. Fatalities increased by 17% in June, 14% in July, 13% in August, 
13% in September, 19% in October, and 9% in November compared to 
2019.\2\ A state-by-state breakdown of these fatalities through the end 
of November 2020 is attached to this statement.
---------------------------------------------------------------------------
    \1\ https://injuryfacts.nsc.org/motor-vehicle/overview/preliminary-
monthly-estimates/
    \2\ Ibid.
---------------------------------------------------------------------------
    Of the drivers who remained on the roads during the pandemic, some 
engaged in riskier behaviors, such as speeding, failing to wear seat 
belts and driving under the influence of alcohol and drugs \3\--three 
persistent causes of death on our roadways. During the first months of 
the public health emergency, there was an initial reduction in seat 
belt use among seriously and fatally injured passengers, according to 
the National Highway Traffic Safety Administration (NHTSA).\4\ 
According to Federal Highway Administration (FHWA) data, speeds 
observed in 2020 were higher than those observed in 2019 across roadway 
classifications.\5\ Additionally, alcohol, cannabinoid and opioid 
prevalence increased among seriously and fatally injured road users 
during the second quarter of 2020, as compared to the months before the 
public health emergency.\6\
---------------------------------------------------------------------------
    \3\ ``Update to Special Reports on Traffic Safety During the COVID-
19 Public Health Emergency: Third Quarter Data,'' NHTSA, January 2021, 
accessed on 2/10/21 at: https://handouts-
live.s3.amazonaws.com/5c2eaa050d2b4e819f13a04ba27e0999?X-Amz-
Algorithm=AWS4-HMAC-
SHA256&X-Amz-Date=20210210T160309Z&X-Amz-SignedHeaders=host&X-Amz-
Expires=
86399&X-Amz-Credential=AKIAJICNIQWVMWBRIUMQ%2F20210210%2Fus-east-
1%2Fs3%
2Faws4_request&X-Amz-
Signature=7b366adf02b90ab6eeef792694d6d50752686049a20d3c
2218203daf1d15f2a1
    \4\ Ibid.
    \5\ Ibid.
    \6\ Thomas,et al. (2020, October). Drug and alcohol prevalence in 
seriously and fatally injured road users before and during the COVID-19 
public health emergency (Report No. DOT HS 813 018). National Highway 
Traffic Safety Administration. https://rosap.ntl.bts.gov/view/dot/50941
---------------------------------------------------------------------------
    Clearly, we have not conquered the persistent problems of impaired 
driving, speeding and lack of seat belt use. NSC believes we can and 
must do better; we can reach zero roadway fatalities through a 
multifaceted approach that includes education, strong laws, multiple 
approaches to safety law enforcement, incorporation of new technology 
and system design change.
    As we work to improve safety, it is critical that we also address 
equity in our nation's transportation system. We must pay attention not 
only to our methods of improving safety, but also the manner in which 
we address longstanding disparities that result from historical 
imbalances in infrastructure investment,\7\ policy implementation and 
decisionmaking.\8\ \9\ The House of Representatives took important 
steps in this direction through several provisions in the Moving 
Forward Act (H.R. 2), which passed the House last year. We were 
particularly pleased to see the following provisions:
---------------------------------------------------------------------------
    \7\ https://www.cbcfinc.org/wp-content/uploads/2016/10/
CBCFTransportationBriefing.pdf
    \8\ https://journals.sagepub.com/doi/10.1177/0739456X02238441
    \9\ https://www.lincolninst.edu/publications/articles/2020-03-
deconstruction-ahead-urban-highway-removal-changing-cities
---------------------------------------------------------------------------
    <bullet>  Grant program to prohibit racial profiling and allow for 
data collected during traffic stops to be publicly available.\10\
---------------------------------------------------------------------------
    \10\ See H.R. 2 (116), Sec. 3005
---------------------------------------------------------------------------
    <bullet>  Grant program to fund institutions of higher education to 
research racial profiling at traffic stops and develop training 
programs to combat implicit bias.
    <bullet>  NHTSA Section 405 grant program for states to include 
training for not only police officers, but also drivers about their 
rights, responsibilities and best practices during traffic stops.
    <bullet>  Government Accountability Office (GAO) study regarding 
the impact of transportation policies on people based on race, 
ethnicity, nationality, age, disability status and gender identity.\11\
---------------------------------------------------------------------------
    \11\ See H.R. 2 (116), Sec. 40006
---------------------------------------------------------------------------
                                 Equity
    Enforcement of traffic laws has been a primary strategy for 
improving road safety for decades--and for good reason. Thousands of 
lives have been saved by high-visibility enforcement campaigns such as 
Click It or Ticket and Drive Sober or Get Pulled Over. These safety 
programs continue to be important. We should also look carefully at how 
traffic enforcement affects individuals and communities across the 
country and make serious steps toward sustainable alternative safety 
strategies as needed.
    Each year, law enforcement officers stop 20 million people for 
traffic violations. Traffic stops are the most common reason for 
contact between people and the police.\12\ While there are proven 
safety benefits from these stops, data show that some of these stops 
are a result of racial profiling.\13\ NSC acknowledges that communities 
with repeated and publicized negative interactions with law enforcement 
can experience personal trauma, even when these interactions end 
without incident, creating a lack of perceived safety.\14\
---------------------------------------------------------------------------
    \12\ Davis, E., Whyde, A.& Langton, L. Contacts between Police and 
the Public, 2015 (Bureau of Justice Statistics, 2018)
    \13\ Pierson, Emma, et al. A large-scale analysis of racial 
disparities in police stops across the United States (Nature Human 
Behavior, Vol 4, July 2020).
    \14\ https://fbaum.unc.edu/papers/OreyBaumgartnerSoroka-APSA-
2017.pdf
---------------------------------------------------------------------------
    Research shows that people of color suffer higher rates of 
pedestrian fatalities and severe injuries \15\ than their white 
counterparts and that, frequently, programs and policies that aim to 
support safety--such as those around jaywalking \16\--
disproportionately burden communities of color. Data show that people 
of color, older adults and low-income communities are over-represented 
in pedestrian fatalities \17\ and under-represented in the investments 
made in transportation improvements.\18\ \19\ The chart below shows 
that American Indian or Alaskan Native people run the highest risk of 
being killed while walking along the roadside; other data show that 
drivers are less likely to yield to Black people walking and 
biking.\20\
---------------------------------------------------------------------------
    \15\ https://smartgrowthamerica.org/resources/dangerous-by-design-
2014
    \16\ https://www.propublica.org/series/walking-while-black
    \17\ https://smartgrowthamerica.org/dangerous-by-design/
    \18\ https://www.cbcfinc.org/wp-content/uploads/2016/10/
CBCFTransportationBriefing.pdf
    \19\ https://www.apha.org//media/files/pdf/topics/environment/
built_environment/srtsnp_equitytransp_factsheet2015.ashx
    \20\ https://pdxscholar.library.pdx.edu/cgi/
viewcontent.cgi?referer=https://www.google.com/
&httpsredir=1&article=1009&context=psy_fac

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    One reason these disparities exist is that not all streets are 
created equally. Roads in low-income communities lack basic safety 
features that are common in wealthier communities and have higher crash 
rates as a result.\21\ \22\ This leads to so-called high-crash 
corridors or high-injury networks. For example, Vision Zero SF in San 
Francisco, CA found that 75% of the city's severe and fatal injuries 
occur on just 13% of the city's street miles (see graphic below).
---------------------------------------------------------------------------
    \21\ Morency, P., Gauvin, L., Plante, C., Fournier, M., & Morency, 
C. (2012). Neighborhood social inequalities in road traffic injuries: 
the influence of traffic volume and road design. American journal of 
public health, 102(6), 1112-1119. https://doi.org/10.2105/
AJPH.2011.300528
    \22\ https://www.transportation.gov/sites/dot.gov/files/docs/
BeyondTraffic_tagged_508_final.pdf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Data like these are available in every community that chooses to 
collect it. Such information can empower policymakers, city planners 
and engineers to direct limited resources to the areas in greatest need 
of safety improvements to have the biggest impact.
    Another mobility-related area that Congress should address is 
driver license suspension. Over the past decades, non-driving-related 
offenses, such as unpaid court fees and child support, littering, and 
other infractions, have become cause for some states to suspend driver 
licenses. NSC believes that driving-related offenses should be the only 
cause for license suspension because such an action can lead to 
detrimental impacts on a person, including loss of access to employment 
opportunities and healthcare as well as overall mobility in communities 
where no other transit options exist.
    We supported the Driving for Opportunity Act in the 116th Congress 
(S. 4186/H.R. 8881), which would have provided grants to states that do 
not suspend or revoke a driver's license for failure to pay a non-
traffic-related civil or criminal fines or fees. Removing sanctions for 
non-traffic safety violations rightly restores the focus on safety and 
more accurately reflects each state's challenges related to speeding, 
impaired driving and other high-risk driving behaviors. We also 
appreciated that the bill required a GAO study on alternatives to 
driver's license suspension for certain kinds of unsafe driving, 
including models that allow drivers to continue to drive legally while 
pursuing other driver-improvement opportunities. We understand 
Representatives Scanlon and Fitzpatrick will soon reintroduce this 
legislation in the House; NSC looks forward to working with you to 
support the bill.
    There is much work to be done, and we applaud the subcommittee for 
holding this hearing today to discuss what we can do as a Nation. As 
mentioned, it will take a multifaceted approach to change the systemic 
ways our transportation system has perpetuated bias. It will also take 
time. NSC pledges to work alongside you because safe mobility is a 
right for all Americans and, indeed, all people.
                                 Safety
    Data from the National Center for Health Statistics (NCHS) show 
that 39,107 people were killed in motor vehicle incidents in 2019.\23\ 
We believe these crashes--which have a tremendous human toll and cost 
the American economy over $463 billion a year \24\--are entirely 
preventable.
---------------------------------------------------------------------------
    \23\ https://www.nhtsa.gov/press-releases/roadway-fatalities-2019-
fars
    \24\ https://injuryfacts.nsc.org/motor-vehicle/overview/
introduction/

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Chart shows total motor vehicle data, source NSC estimates and National 
                      Center for Health Statistics

    Included below are the number of people killed in motor vehicle 
crashes in the Chairs' and Ranking Members' states through November 
2020, as well as the year-over-year percent increase: \25\
---------------------------------------------------------------------------
    \25\ https://www-fars.nhtsa.dot.gov/States/
StatesCrashesAndAllVictims.aspx

  Oregon..................................  468 deaths (5% increase from
                                             2019)
  Washington, DC..........................  36 deaths (44% increase from
                                             2019)
  Missouri................................  908 deaths (13% increase
                                             from 2019)
  Illinois................................  1,010 deaths (10% increase
                                             from 2019)
 

    These are the lives of your constituents. These mothers, fathers, 
sisters, brothers, aunts, uncles, friends and colleagues contributed to 
the communities in which they lived. Yet, our national outrage at these 
losses is conspicuously absent, particularly when compared to deaths in 
other forms of transportation, such as aviation.
    The United States has consistently avoided the hard choices needed 
to save lives on the roadways. The reauthorization of the Fixing 
America's Surface Transportation (FAST) Act is an opportunity for us to 
make the right choices. The Moving Forward Act (H.R. 2) that passed the 
House of Representatives last Congress provides a framework for making 
changes to improve safety and equity.
    The main behavioral causes of motor vehicle fatalities--lack of 
seat belt use, alcohol-impaired driving, and speeding--have remained 
the same for decades.

       47% of Passenger vehicle occupants who die in motor vehicle 
crashes are unbelted
       28% of People who die in crashes are involved in alcohol-
impaired wrecks
       26% of Motor vehicle fatalities are speed-related \26\
---------------------------------------------------------------------------
    \26\ NSC analysis of 2019 NHTSA data using the NHTSA query tool: 
https://cdan.dot.gov/query
---------------------------------------------------------------------------
                    Education, Laws and Enforcement
    NSC believes that the ``three-legged stool'' of roadway safety--
education, strong laws and enforcement--will remain important as we 
work toward a Safe Systems approach and reach our ultimate goal of zero 
roadway deaths. Education programs must reflect the communities they 
serve and the laws must be written and applied fairly and enforced 
equitably.
    Education includes programs, communications and campaigns to 
educate road users, community members, planners, and engineers to raise 
awareness and provide information with the goal of changing an attitude 
or behavior that will improve safety. An equitable approach to 
education must consider and should include, but is not limited to:
    <bullet>  Developing, executing and implementing programming with 
community voices included in the process, particularly those 
representing disadvantaged and/or highly impacted communities.
    <bullet>  Using images, language and media that is reflective of 
the community and audience.
    <bullet>  Working with the community to identify issues to be 
addressed, assessing what is needed and defining what implementation 
and, ultimately, success would look like.
    <bullet>  Working with trusted Ambassadors, spokespeople and 
community leaders to help execute any campaigns or programs.

    NSC supports enforcement of traffic safety laws as a mechanism to 
support safe transportation and believes there are ways to address bias 
and other equity problems found within enforcement. This includes 
efforts to educate and promote compliance with laws and regulations 
related to traffic safety. An equitable approach to enforcement must 
consider and should include, but is not limited to:
    <bullet>  Working with partners and stakeholders to create a plan 
to ensure engagement with representatives of the community and 
government in the development and drafting of any law or regulation. 
This includes discussing effective means of enforcement within the 
community.
    <bullet>  Understanding whether and how enforcement of traffic 
safety laws or regulations can exacerbate existing racial, 
socioeconomic or accessibility issues and subsequently working with 
stakeholders to identify solutions.
    <bullet>  Assessing whether new or alternative forms of enforcement 
can be deployed to effectively address the issue at hand, including but 
not limited to: adoption of the Safe Systems approach with self-
enforcing roads, automated enforcement, community policing and other 
strategies.
    <bullet>  Advocating for data collection and assessment tools that 
measure whether traffic safety enforcement unjustly burdens specific 
communities or populations and providing appropriate solutions.
    <bullet>  Educating and training those working on enforcement on 
current best practices and techniques. To this end, NSC supports 
evidence-based diversity, equity and inclusion training and other 
appropriate training for law enforcement officers. Additionally, we 
support the NHTSA grant program advanced by Representative Brown in 
H.R. 2 that would provide resources to higher education institutions to 
research and develop implicit bias training programs related to racial 
profiling at traffic stops.\27\
---------------------------------------------------------------------------
    \27\ See H.R. 2 (116), Sec. 3010

    Traffic enforcement can be conducted effectively in a variety of 
ways and cities across the U.S. are exploring how to use new and 
existing techniques to improve roadway safety while reducing equity 
concerns, ensuring that people are safe in every sense of the word.
    Automated enforcement is an evidence-based countermeasure that 
changes driver behavior when used to monitor for speeding and red-light 
enforcement. If applied equitably, it does not discriminate, and, when 
used with a data-driven approach to target dangerous corridors, it 
saves lives. NSC has worked with other safety stakeholders to create 
checklists \28\ for communities installing automated enforcement that 
encourages transparency to ensure this countermeasure is used in the 
best way.
---------------------------------------------------------------------------
    \28\ Available at: https://www.iihs.org/media/1c936880-1816-44fe-
ab57-df603ad15714/ZjmPNA/News/2018/072418/RLC-program-checklist.pdf
---------------------------------------------------------------------------
    Federal restrictions on automated enforcement should be eliminated. 
Additionally, Federal funding should be allowed to support automated 
enforcement. H.R. 2 allowed for the use of Federal funds for automated 
enforcement in work zones; NSC urges the inclusion of this provision, 
as well as expanding uses for automated enforcement, in the 
reauthorization this Congress.
    The Centers for Disease Control and Prevention provide the Motor 
Vehicle Prioritizing Interventions and Cost Calculator for States (MV 
PICCS) \29\ to help policymakers determine the lives saved and costs of 
implementation of 14 different evidence-based motor vehicle laws. While 
many of these laws require state action, Congress should support 
incentives to accelerate state adoption.
---------------------------------------------------------------------------
    \29\ https://www.cdc.gov/motorvehiclesafety/calculator/index.html
---------------------------------------------------------------------------
Speeding
    Excessive speed is a problem in this country. When speeding 
vehicles collide with pedestrians, cyclists and other vulnerable road 
users (VRU), the results are deadly. In 2019, 6,205 pedestrians were 
killed in traffic crashes in the U.S.\30\ Pedestrians are 1.5 times 
more likely than occupants of passenger vehicles to be killed in a car 
crash. From 2009 to 2018, the number of pedestrian fatalities increased 
by 53%.\31\ As illustrated, at 20 miles per hour (mph), 9 out of 10 
pedestrians would survive being struck by a vehicle, while 9 out of 10 
pedestrians would be killed at double that speed (at 40 mph).\32\
---------------------------------------------------------------------------
    \30\ https://www.cdc.gov/motorvehiclesafety/pedestrian_safety/
index.html
    \31\ https://injuryfacts.nsc.org/motor-vehicle/road-users/
pedestrians/data-details/
    \32\ Image: Seattle Department of Transportation
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
---------------------------------------------------------------------------
              Image: Seattle Department of Transportation

    The data bear out the same case for vehicle crashes involving 
speed. The Insurance Institute for Highway Safety (IIHS) estimated that 
increasing speed limits over the past 25 years have led to 37,000 
additional deaths and that 26% of all crash fatalities in 2018 occurred 
in speed-related crashes.\33\ IIHS collaborated with the AAA Foundation 
for Traffic Safety to conduct high-speed crash tests, which 
demonstrated that higher speeds cancel out the safety benefits of 
improved vehicle design.\34\ For example, during a test crash at 40 
mph, the driver's space was minimally impacted. But at 50 mph, the 
impact to the driver's space was much more pronounced. At 56 mph, the 
interior of the vehicle was significantly compromised, most likely 
leading to significant injuries to the driver and occupants.
---------------------------------------------------------------------------
    \33\ https://www.iihs.org/topics/speed
    \34\ https://www.iihs.org/topics/bibliography/ref/2218
---------------------------------------------------------------------------
    NSC recommends the following actions to address speeding:
    <bullet>  Expand the scope of factors used to determine speeds, 
such as crash history and roadway design and de-emphasize the 85th 
percentile approach.
    <bullet>  Expand the use of automated enforcement.
    <bullet>  Allow for local control over speed limits.
Seat Belts
    There is no question that seat belts play an important role in 
keeping passengers safe. Seat belts save lives and reduce serious 
injuries by half.\35\ In 2017, seat belts saved almost 15,000 
lives.\36\
---------------------------------------------------------------------------
    \35\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812691
    \36\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812691
---------------------------------------------------------------------------
    Despite being one of the most successful safety inventions, too 
many people still choose not to use a seat belt. Regardless of other 
causal factors, the lack of proper occupant restraint continues to 
increase the severity and lethality of motor vehicle crashes. While 
90.7% of American drivers and vehicle occupants used seat belts in 
2019,\37\ one in 10 continued to put their lives at unnecessary risk by 
opting out of seat belt use--with tragic consequences. Almost half 
(47%) of people killed in motor vehicle crashes in 2019 were 
unbelted.\38\
---------------------------------------------------------------------------
    \37\ Occupant Restraint Use In 2019: Results From the NOPUS 
Controlled Intersection Study, NHTSA, October 2020, https://
crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/812992
    \38\ NSC analysis of 2019 NHTSA data https://cdan.dot.gov/query
---------------------------------------------------------------------------
    Yet, despite these compelling data, only 34 states, the District of 
Columbia, Guam, the Northern Mariana Islands, Puerto Rico and the 
Virgin Islands have primary enforcement of their seat belt laws \39\--
meaning law enforcement may stop vehicles solely for belt law 
violations. Of the other 16 states, 15 have secondary laws, which 
require police to have another reason for a traffic stop; New Hampshire 
has no belt law for adults aged 18 and up. In 2018, 90.6% of passenger 
vehicle occupants were belted in states with primary laws, while only 
86.4% of occupants were belted in states with secondary or no seat belt 
laws.\40\ Public education and high-visibility enforcement campaigns, 
such as Click It or Ticket, have increased public awareness of the 
dangers of driving unrestrained.
---------------------------------------------------------------------------
    \39\ https://www.iihs.org/topics/seat-belts#laws
    \40\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812662
---------------------------------------------------------------------------
    Additionally, our seat belt messaging remains inconsistent: young 
children are required to ride in 5-point restraint child seats unless 
they are on a school bus. Most school buses operating today only 
include a seat belt for the driver--not for the passengers. However, 
since 2002, lap and shoulder belts have been made available on school 
buses, and some school systems do, in fact, use passenger seat 
belts.\41\ Congress should act to require this important protection on 
all school buses.
---------------------------------------------------------------------------
    \41\ http://www.nasdpts.org/Documents/NASDPTS%20POSITION%20PAPER
%20PASSENGER%20LAP%20SHOULDER%20BELTS%20FINAL%20FEB%202014.pdf
---------------------------------------------------------------------------
    NSC believes the lack of belts on buses delivers a mixed message 
that is at best confusing to children and at worst leads to lack of 
seat belt use down the road, especially as teen drivers and passengers. 
To this end, NSC supports Representative Cohen's bill, H.R. 3959 (in 
the 116th Congress), the School Bus Safety Act, to require new buses to 
have three-point belts so that children are appropriately protected 
each and every ride.
            Child Passenger Safety (CPS)
    Correct use of a child-restraint system appropriate for a child's 
age and size saves lives. NHTSA estimates that car seats reduce the 
risk of fatal injury by 71% for infants and 54% for toddlers.\42\ 
Unfortunately, there are equity challenges with CPS as well, with data 
showing that Black children are less likely to be restrained 
appropriately.\43\
---------------------------------------------------------------------------
    \42\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812719
    \43\ Lee, G., Pope, C. N., Nwosu, A., McKenzie, L. B., & Zhu, M. 
(2019). Child passenger fatality: Child restraint system usage and 
contributing factors among the youngest passengers from 2011 to 2015. 
Journal of safety research, 70, 33-38. https://doi.org/10.1016/
j.jsr.2019.04.001
---------------------------------------------------------------------------
    NSC supports the expansion of programs that recruit and train CPS 
technicians from all communities and educate on the importance of CPS 
for caregivers. These technicians conduct critical work by providing 
one-on-one instruction to parents to learn how to install and use their 
child's car seat properly. NSC supported Representative Titus's 
amendment \44\ to H.R. 2 that expands NHTSA funding to allow states to 
recruit and train CPS technicians and educate parents and caregivers 
about proper use of CPS in low-income and underserved populations, 
something hope will remain in any new legislation.
---------------------------------------------------------------------------
    \44\ See: https://transportation.house.gov/imo/media/doc/
Titus%20041.pdf
---------------------------------------------------------------------------
Impairment
    Another leading cause of roadway deaths is impairment. Every day, 
almost 30 people die in alcohol-impaired crashes in the United States--
one every 50 minutes.\45\ In 2018, nearly 140 million Americans aged 12 
or older consumed alcohol in the past month, with 16.6 million being 
heavy users and 2.2 million between the ages of 12-17.\46\ Despite 
these data, our culture does not prioritize safety on the roads: more 
than 1 in 10 drivers admit to driving when they thought they were close 
to or over the legal blood alcohol content (BAC) limit in the prior 
year.\47\ NHTSA estimates 10,142 lives were lost in 2019 from alcohol-
impaired driving motor-vehicle crashes.\48\
---------------------------------------------------------------------------
    \45\ https://www.nhtsa.gov/risky-driving/drunk-driving
    \46\ https://www.samhsa.gov/data/sites/default/files/cbhsq-reports/
NSDUHNationalFindingsReport2018/NSDUHNationalFindingsReport2018.pdf
    \47\ http://tirf.us/wp-content/uploads/2018/12/RSM-TIRF-USA-2018-
Alcohol-Impaired-Driving-in-the-United-States-3.pdf
    \48\ https://www.iii.org/fact-statistic/facts-statistics-alcohol-
impaired-driving
---------------------------------------------------------------------------
    The science on alcohol impairment is clear: drivers are four times 
more likely to crash at .05 than if they had nothing to drink.\49\ Most 
other industrialized countries have implemented a BAC of .05 or lower, 
a change that has been followed by a decrease in the number of 
fatalities from alcohol-impaired crashes. Lowering the BAC limit from 
.08 to .05 is a proven method to save lives on the roadways that could 
save as many as 1,500 American lives each year if implemented 
nationally.\50\ Utah is the first state to pass a law lowering the BAC 
to .05. NSC supports other states' efforts to implement such 
legislation and hopes to see Federal legislation introduced to support 
this goal as well.
---------------------------------------------------------------------------
    \49\ Blomberg RD, Peck RC, Moskowitz H, Burns M, Fiorentino D: The 
Long Beach/Fort Lauderdale relative risk study; J Safety Res 40:285; 
2009.
    \50\ Fell, J. C., and M. Scherer. 2017. Estimation of the potential 
effectiveness of lowering the blood alcohol concentration (BAC) limit 
for driving from 0.08 to 0.05 grams per deciliter in the United States. 
Alcoholism, Clinical and Experimental Research. doi: 10.1111/
acer.13501.
---------------------------------------------------------------------------
    Drug-impaired driving is also a problem. Too many of our fellow 
Americans suffer from substance use disorders involving both legal and 
illegal drugs. Drug overdoses, led by opioids, are the leading cause of 
preventable death in the U.S.\51\ In 2018, 1 in 5 people aged 12 or 
older used an illicit drug in the past year. Marijuana is the most 
commonly used impairing drug, followed by prescription pain 
relievers.\52\ The Centers for Disease Control and Prevention report 
that 12 million people aged 16 and older reported driving under the 
influence of marijuana in the past year, and 2.3 million people aged 16 
and older reported driving under the influence of illicit drugs other 
than marijuana.\53\
---------------------------------------------------------------------------
    \51\ https://injuryfacts.nsc.org/home-and-community/safety-topics/
drugoverdoses/data-details/
    \52\ https://www.samhsa.gov/data/sites/default/files/cbhsq-reports/
NSDUHNationalFindingsReport2018/NSDUHNationalFindingsReport2018.pdf
    \53\ https://www.cdc.gov/mmwr/volumes/68/wr/mm6850a1.htm
---------------------------------------------------------------------------
    Substance abuse is a complex problem, and good data are needed to 
develop effective solutions. During the last national roadside survey 
conducted by NHTSA in 2013-2014, the percentages of weekend nighttime 
drivers who tested positive for alcohol, marijuana and illicit drugs 
were 8.3%, 12.6% and 15.1%, respectively.\54\ These results are the 
most comprehensive, national data available on impaired driving. The 
national roadside survey has been a key tool to understanding impaired 
driving on U.S. roads. NSC implores Congress to remove barriers to 
conducting this survey because it is hard to stop deadly driving when 
policymakers do not fully understand where and how it is happening.
---------------------------------------------------------------------------
    \54\ https://www.nhtsa.gov/behavioral-research/2013-14-national-
roadside-study-alcohol-and-drug-use-drivers
---------------------------------------------------------------------------
    Another key factor to establishing impaired driving data is the 
creation of standards for driver drug testing. Beginning in 2007, the 
Alcohol Drugs and Impairment Division (ADID) of the National Safety 
Council has created and maintained a series of recommendations for the 
appropriate scope and level of sensitivity of testing for drugs in 
suspected drug-impaired-driving and motor-vehicle fatality 
investigations. The process involves surveying of 70-100 laboratories 
throughout the United States performing this work to determine the most 
frequently encountered drugs, documenting trends in positive test 
results and identifying the emergence of new impairing drugs in driving 
populations. The survey also captures information about laboratory 
capacity and capability as well as the available technology for routine 
drug testing.\55\
---------------------------------------------------------------------------
    \55\ See https://www.forensicscienceeducation.org/forensic-
research/toxicology/duid/duid-survey/
---------------------------------------------------------------------------
    This data has been used to generate a consensus document \56\ based 
on diverse input from large and small, academic, public and private 
laboratories, and from multiple states, containing two tiers of drugs 
with identified involvement in impaired driving arrests and traffic 
deaths. The first tier includes the most common, readily detectable 
drugs that account for the greatest number of impaired driving cases 
within the analytical capabilities of most laboratories. The second 
tier are emerging drugs, which are less frequently detected or require 
special testing equipment or technology, that should be considered in 
cases where testing for tier 1 drugs is negative.
---------------------------------------------------------------------------
    \56\ See https://pubmed.ncbi.nlm.nih.gov/29186455/
---------------------------------------------------------------------------
    These recommendations have been voluntarily adopted by more than 50 
of the most active laboratories in the country and the toxicology 
community is working toward fuller adoption as a way to provide more 
uniform and comprehensive testing and more reliable epidemiological 
data on the severity of the drug-impaired driving problem. The fourth 
iteration of these recommendations is being prepared and will be 
published in early 2021. ADID work is being further developed into an 
American National Standard by the American Academy of Forensic Sciences 
(AAFS) Standards Board (ASB), an accredited standards-development 
organization serving the forensic community. This is expected to be 
published in 2021.\57\
---------------------------------------------------------------------------
    \57\ For more information see https://www.asbstandardsboard.org/
---------------------------------------------------------------------------
    Given the widespread use, adoption and support of these 
recommendations among the toxicology community, NSC recommends that 
compliance with these standards be incorporated into Federal 
legislation, with the goal of improving drug testing and impaired-
driving data collection. Additionally, NSC recommends that NHTSA use 
these recommended standards to provide national guidance for driver 
testing to all toxicology labs in the U.S.
    Additionally, drug recognition experts (DREs) are a key enforcement 
tool for many localities, especially as data show an increase in drug-
impaired driving. DREs are specially trained law enforcement officers 
who can evaluate the signs of impairment from drugs and assist in 
identifying and convicting drug-impaired drivers. This is especially 
important because some drug tests only detect presence of the drug and 
not impairment. Advanced Roadside Impaired Driving Enforcement (ARIDE) 
training is the first step in becoming a DRE.
    According to data from the International Association of Chiefs of 
Police, more DREs are needed to effectively address the drug-impaired 
driving problem. In the Chair's state of Oregon, there are 207 DREs, 
and 3.1 million licensed drivers. Illinois has 109 DREs and 8.5 million 
licensed drivers and a new marijuana decriminalization law.\58\ NSC 
supports the use of NHTSA and other Federal funding to pay for DRE and 
ARIDE training to stop drug-impaired driving.
---------------------------------------------------------------------------
    \58\ https://www.theiacp.org/states-and-countries-with-dres
---------------------------------------------------------------------------
                                  Data
    Good data are foundational to making sound decisions about safety 
interventions and are especially important to address equity concerns. 
Congress authorizes funding for ``Section 1906'' grants to states to 
encourage the collection of data to ensure racial profiling does not 
occur in traffic law enforcement. Fair and equitable application of 
roadway safety laws is the only way to keep all users safe. Mr. Barone 
from Connecticut will testify today about his state's successful 
program using these funds.
    Despite the program being available to all 50 states, only six have 
received funding in most recent rounds. Many states have not even 
applied for the funding, even though some jurisdictions within them may 
wish to gather this data. If states will not apply for funding, 
Congress should explore allowing jurisdictions to apply for Section 
1906 funding to support these programs. NSC believes public access to 
traffic enforcement data is important and supports providing funding to 
facilitate this data collection.
    Additionally, other data tools at NHTSA should be fully evaluated 
for effectiveness and updated. The fatality analysis reporting system 
(FARS) is the national data collection tool for fatal roadway crashes, 
and it needs updating. Currently, race and ethnicity are only reported 
for fatalities. NSC recommends that race and ethnicity be reported for 
all drivers involved in crashes so that we can gain a better picture of 
the equity challenges we face on our roadways. Additionally, for a more 
complete picture of fatal crashes, FARS should include events on non-
public roadways, such as driveways and parking lots. On a monthly 
basis, NHTSA should use the state data it receives to release 
preliminary fatality estimates. This data can provide important 
insights to identify trends in a more timely manner; currently, a full 
evaluation of FARS data usually occurs in October or November of the 
following year.
    Traffic data improvements across states are imperative too. The 
longstanding reliance on local law enforcement officers is and 
continues to be the foundation for understanding conditions that 
contribute to crashes, such as roadway design, driver impairment and 
weather, to name a few. In addition, emergency medical services (EMS) 
data adds critical understanding of deaths and serious injuries from 
motor vehicle-related crashes. EMS includes ambulance services and 
other 911 medical response organizations that provide assessment and 
medical care on scene, as well as during transportation to the 
hospital.
    The EMS data is a missing link to provide a more complete picture 
of the health outcomes of crashes. Medical evaluation of the condition 
of the victim and documented clinical measurements, such as vital signs 
and other indicators, like the Glasgow Coma Scale, can be used to 
calculate and approximate injury severity. EMS personnel contribute 
this data to the National EMS Information System (NEMSIS), which is a 
uniform standard for data collection and electronic record submission 
about patient care on-scene and during transport to the hospital. 
States with fully developed NEMSIS databases can upload records in near 
real-time, linking crash and EMS records and, ultimately, trauma 
registry data that is also available to most state EMS offices. This 
data provides a clearer picture of the health impacts and outcomes of 
crashes.
    States regulate ambulance services, and, for nearly 50 years, state 
licensure has required all ambulance services that respond to 911 calls 
to submit EMS response and patient care data to the state. As of last 
week, over 42 million patient care reports from over 11,000 local EMS 
agencies had been voluntarily submitted to NHTSA's NEMSIS database by 
state EMS offices for calendar year 2020. The rapid submission of 
records to the national repository has allowed for weekly evaluation of 
conditions of interest during the COVID pandemic to include not only 
influenza-like illness, but also opioid overdoses and naloxone use, 
motor vehicle crashes and behavioral emergencies. NHTSA's Office of EMS 
has supported the creation and management of this national repository 
for NEMSIS-compliant records since the late 1990's, but state EMS 
offices do not receive Federal funds to aid in this data collection. 
NSC supports allowing full integration of EMS offices in the highway 
safety program development and use of NHTSA grant funds to bring all 
states' NEMSIS databases up to date.
    NHTSA also operates the Crash Reporting Sampling System (CRSS), 
which is a national sample of fatal and non-fatal crashes. Since the 
sample design does not allow for state-level estimates, users are 
unable to evaluate non-fatal crash trends on a state-by-state basis. 
Having more granularity by requiring more reporting of non-fatal crash 
reports would allow for greater insight into roadway safety and help 
identify dangerous roadways and other problems. As more states use 
electronic reporting to share crash report data, NSC believes a more 
robust CRSS is possible and more easily achievable.
    Supporting states' purchasing of technology to allow near real-time 
crash reporting improves safety and allows for a faster response by 
planners, engineers and law enforcement. The House of Representatives 
should support the ability to use both NHTSA 405 and 402 grant funding 
to purchase technology and upgrade systems for faster reporting. 
Congress should also support and explore efforts in collecting near-
miss data. This data can be used to proactively determine where to use 
resources to address potential safety issues.
    Information from show that the Regional Transportation Planning 
Organization in Knoxville, TN used a combination of hospital data and 
survey responses to identify near misses that were then shared with 
planners and engineers. While these data have not been traditionally 
collected and will require that we think creatively, it has the 
potential to save lives without waiting for devastating crashes to 
occur.
                          NHTSA Safety Grants
    The NHTSA mission is roadway safety, and one of the most effective 
tools to that end are the national grant programs that NHTSA operates, 
providing funding to states for safety programs. States outline how 
they will use these funds through their annual Highway Safety Plans 
(HSP), which are developed by the transportation leaders in the states 
including the Departments of Transportation, state highway safety 
offices, law enforcement, EMS and others. It is key that each of these 
offices fully participates in development of the HSP as each has a 
unique and shared commitment to saving lives on the roadways, whether 
it is to prevent the crash from occurring or to ensure an appropriate 
response.
    Section 402 grants--named for the section of statute in which the 
program is located--are apportioned to states by a population and road 
miles-based formula, and states have flexibility on how these funds are 
used for behavior programs. The 405 grants--also named for the section 
of statute in which the program is located--are dedicated to priority 
programs listed below and have requirements that states must meet to 
qualify for funding and incentives attached for meeting these 
requirements.
        Priority grant programs include:
          405(b) Occupant protection grants (13% of funding).
          405(c) Traffic Safety information systems (14.5% of funding).
          405(d) Impaired driving, including 24-7 and ignition 
interlock programs (52.5% of funding).
          405(e) Distracted driving (8.5% of funding).
          405(f) Motorcycle safety (1.5% of funding).
          405(g) Graduated driver licensing (GDL) (5% of funding).
          405(h) Nonmotorized safety (5% of funding).

    The Section 405 provisions may require state laws be passed to 
qualify for funding, and, in these cases, NHTSA must make a 
determination whether these laws meet the goals as outlined. When NHTSA 
has determined states do not qualify for funding, the decision process 
and reasoning has not been clear. Without clear direction from NHTSA, 
state legislators may not try to strengthen their laws again. NSC 
supports the Committee requiring greater transparency by NHTSA on its 
decisions when grant applications are rejected and increased engagement 
of NHTSA with states to provide technical assistance to correct 
eligibility gaps in laws. NSC supports authorizing additional resources 
to support this assistance.
    H.R. 2 appropriately continued and increased the Section 405 
funding. Of particular note, NSC and the Governors Highway Safety 
Association (GHSA) worked together to amend the FAST Act section 405 
GDL provisions into a tiered system. We hope you will retain this 
proposal in any new legislation, as drivers 21 and younger have the 
highest fatal crash rates of any age group.\59\
---------------------------------------------------------------------------
    \59\ https://injuryfacts.nsc.org/motor-vehicle/overview/age-of-
driver/
---------------------------------------------------------------------------
    NSC also supported a new Section 405 grant program in H.R. 2 \60\ 
that would have encouraged states to include training for drivers (in 
addition to police officers) about their rights, responsibilities and 
best practices during traffic stops. This training would be completed 
through State department of motor vehicles (DMVs). Ensuring that all 
drivers understand their rights and responsibilities during traffic 
stops would help address some concerns about equitable enforcement.
---------------------------------------------------------------------------
    \60\ See H.R. 2 (116), Sec. 3007
---------------------------------------------------------------------------
    Additionally, NSC supports the States Afforded Funding Extensions 
to Oppose Driving Recklessly in Vehicular Engagements (SAFE TO DRIVE) 
Act, H.R. 762, bipartisan legislation introduced by Representatives 
Krishnamoorthi, Cohen and Gallagher, as well as Senators Klobuchar and 
Blumenthal, to curb distracted driving. H.R. 762 would allow part of 
distracted driving grant funding to be used if a state enacts primary-
enforced laws prohibiting texting and non-navigational use of cell 
phones.
Workplace-Focused Safety
    NHTSA grants are important tools to help improve roadway safety 
through a variety of mechanisms. One successful, federally funded 
opportunity focuses on the employer as an influencer. The Our Driving 
Concern (ODC) Program is offered by NSC with funding from the Texas 
Department of Transportation (TxDOT) through Section 405 NHTSA grant 
funds.
    Transportation incidents are the leading cause of occupational 
fatalities in Texas and across the country.\61\ ODC was created to 
provide states with a resource targeted at employers to reduce motor 
vehicle related incidents on and off the job. ODC provides free 
training, education and resources to employers on the biggest risk 
areas in occupational transportation, including distracted driving, 
aggressive driving, speeding, passenger restraint, impaired driving and 
other transportation and driver safety topics. Many of these resources 
are also provided in Spanish.
---------------------------------------------------------------------------
    \61\ https://injuryfacts.nsc.org/state-data/at-work/work-deaths-by-
state/
---------------------------------------------------------------------------
    In addition to the traditional ODC program, in 2018 the Drug 
Impairment Training for Texas Employers (DITTE) program launched. This 
course trains safety leaders to identify impairment in the workplace, 
explores the effects of alcohol and other drugs on driving and 
workplace performance and highlights costs and lifestyle impacts of 
driving impaired with the goal of reducing impairment on the roads both 
on and off the job.
    The ODC program provides continuous engagement in order to improve 
the safety of Texas roads. This includes providing new resources and 
new opportunities to engage safety managers regularly with the 
understanding that improving roadway safety is not achieved with a 
``one and done'' approach.
    With funding from NHTSA through TxDOT, all of these trainings and 
resources are provided free to Texas employers. Texas employers can 
request a training for its employees, which can be done in person or 
virtually. There are many opportunities to engage online, through both 
live and on-demand webinars. Employers who have taken advantage of this 
program have seen sustained reductions in traffic incidents. For 
example, as part of its comprehensive employee traffic safety program, 
Texas Mutual committed to a stricter phone-free driving policy, 
shifting the culture from one of constant connectivity to one that 
allows employees to safely disconnect if they are behind the wheel. 
Since implementing ODC, Texas Mutual has seen a 61% decrease in 
preventable crashes.\62\
---------------------------------------------------------------------------
    \62\ https://txdrivingconcern.org/wp-content/uploads/2019/04/Our-
Driving-Concern-White-Paper.pdf
---------------------------------------------------------------------------
                              Safe Systems
    While roadway design is not a focus of this hearing, I would like 
to raise the role of prioritizing safety and improving infrastructure 
design as essential components to improve safety for all roadway users. 
By prioritizing safety, we commit to changing our nation's safety 
culture. This means we have to accept that any life lost is one too 
many. Once we accept that one death is too many, we will begin thinking 
about how to take a ``Safe Systems'' approach to our roadways.\63\ 
Fully adopted by other modes of transportation, this means building 
fail-safe features that anticipate human error and developing 
infrastructure with safety margins.
---------------------------------------------------------------------------
    \63\ Safe systems approach is a holistic roadway strategy that 
focuses on five action areas: safe roads, safe speeds, safe road use, 
safe vehicles and effective post-crash care. The approach requires the 
participation of all participants in the roadway transportation system 
in safety efforts, and seeks to strengthen safety in all aspects of the 
roadway transportation system so that if one part fails, the others 
will still protect people from death or serious injury. https://
www.nsc.org/getattachment/cbffc278-6c2b-4c16-ad11-959201b2755e/t-safe-
systems-149
---------------------------------------------------------------------------
    The Safe Systems approach, a central emphasis of the Road to Zero 
coalition, offers an alternative to dependence on law enforcement for 
safety and, implemented equitably, could address historic problems in 
safety investment. The Safe Systems approach reduces the need for law 
enforcement by making roads and vehicles self-enforcing. It also 
protects against human error, lessening the dependency on individual 
behavior.
    H.R. 2 takes important new steps in defining the Safe Systems 
approach and encouraging its widespread adoption. Building a Safe 
System will take time; we must get started. We will need active traffic 
law enforcement until we build that system, so we need to take a hard 
look at how enforcement is conducted to address equity concerns. In the 
longer term, police could serve an essential role in facilitating the 
Safe Systems approach, using their familiarity with traffic to diagnose 
system problems and help designers find solutions.
    With the understanding that people inevitably will make mistakes, 
the built environment or infrastructure can be more forgiving to 
eliminate fatalities. Some of these changes may include engineering 
greater safety into a design. For example, in the pictures below, a 
multi-lane intersection with a red light in Scottsdale, AZ was replaced 
with a roundabout. With the intersection, there are 32 potential points 
of failure but, with a roundabout, that is engineered down to only 
8.\64\ Speeds are decreased, and if crashes do occur, they occur at 
angles that are not as violent. Crosswalk length is also reduced, 
reducing the amount of time pedestrians are exposed to cross-traffic.
---------------------------------------------------------------------------
    \64\ https://safety.fhwa.dot.gov/intersection/innovative/
roundabouts/presentations/safety_aspects/long.cfm

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Successful infrastructure redesign can also look like the picture 
below from New York City. The picture on the left shows two roads 
merging without an area for pedestrians and the lane lines are non-
existent. However, the reworked merge incorporates clearly marked lanes 
of travel, large sidewalks and areas for pedestrians with less exposure 
to vehicles.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    These infrastructure changes are just as important in rural areas. 
Rumble strips on the center line or edge of roadways can prevent the 
roadway departure crashes that account for 51% of roadway fatalities in 
the U.S.\65\ Cable median barriers can also provide a margin of safety 
to redirect people to their lane of travel and high-friction surface 
treatments can decrease vehicle stopping distance on roadways. These 
are all tools we have available today.
---------------------------------------------------------------------------
    \65\ https://safety.fhwa.dot.gov/roadway_dept/
---------------------------------------------------------------------------
    Engineering is another lens through which to consider equity in 
transportation. NSC believes that an equitable approach to engineering 
must consider:
    <bullet>  Addressing existing or historic bias, disenfranchisement 
or overburdening of a specific group or population in any planning or 
proposal considerations.
    <bullet>  Creating contextually sensitive plans and solutions and 
avoiding one-size-fits-all solutions. Changes or improvements must be 
context-sensitive and meet the needs and desires of the individual 
communities they purport to serve.
    <bullet>  Identifying and assessing unintended consequences that 
might result from well-intentioned efforts.
    <bullet>  Engaging from the outset community members, stakeholders 
and users to ensure the solution is having the intended effect.
    <bullet>  Involving a diversity of people in testing and design to 
increase safety.
    <bullet>  Supporting the design of vehicle technology to improve 
safety outcomes for all roadway users.
    <bullet>  Supporting efforts to improve transportation and, 
ultimately, enhance access and mobility independence.

    Infrastructure changes can be expensive, but they do not have to 
be. Through the Road to Zero Coalition, NSC has awarded millions in 
grants to groups across the country working in communities of all 
sizes. In the first year of grants, the National Complete Streets 
Coalition, worked with three communities: Lexington, KY, Orlando, FL, 
and South Bend, IN. Each city was provided only $8,000 dollars from the 
grant for temporary infrastructure changes and each city had measurable 
improvements to safety, even with a small-dollar investment.
    Allowing for flexibility to implement local safety measures is key 
to reflect local priorities. NSC encourages this Committee to explore 
options for cities, counties and metropolitan planning organizations to 
prioritize safety for their residents. This may allow for lowering 
speed limits, instituting automated enforcement, collecting data, 
accessing safety funds and other items. Local decisionmakers often have 
better data and information from community members about areas in 
severe need of transportation improvements and should be encouraged to 
address disparities they see within their crash data.
    The toughest change is the shift to truly prioritize safety by 
changing safety culture on the roads. We are complacent when it comes 
to losing so many people each and every day on our roads; we must 
remember that these are not accidents, but crashes. We need strong and 
passionate leaders committed to doing so. I can think of none better 
than the members of this Committee and Subcommittee using the 
reauthorization as the vehicle to accomplish it. We have successfully 
changed safety culture in workplaces, around child passenger safety and 
in other areas. We can do it here, too, but only with your help. NSC 
looks forward to working with this Committee to develop these 
provisions fully.
                              Road to Zero
    More states and localities have adopted ``zero'' language into the 
goals on our roadways. This language has been commonplace in other 
settings, like workplaces, where NSC has focused since our founding, 
with meaningful results. NSC also leads the Road to Zero Coalition, a 
diverse group of over 1,600 organizational members committed to 
eliminating roadway fatalities by 2050. The coalition represents 
transportation organizations, businesses, academia, safety advocates 
and others--the first time so many organizations and individuals have 
collaborated to put forth a plan to address fatalities on our roads. To 
these members and to NSC, ``zero'' is not just a catchphrase but an 
attainable and necessary goal.
    The Road to Zero Coalition, in its efforts to begin addressing 
equity in transportation safety, hosted a series of well-received 
discussions in fall of 2020. These sessions aimed to provide 
information on the topic, engage partners on specific issues related to 
the intersection of equity and roadway safety and begin the Coalition's 
engagement on the topic. As a convener and voice for roadway safety, 
the Coalition feels that it is important to use its platform to begin 
these conversations with its partners and their networks. There were 
four sessions held in total: Enforcement and Equity in Transportation 
Safety, The Safety Premium: Designing for Equity in Vehicles and 
Beyond, Connecting Prioritizing Safety with Transportation Equity, and 
Road to Zero and Transportation Equity: An Opportunity to Learn, 
Engage, and Act.
    Last month, the Road to Zero coalition collaborated with Toward 
Zero Deaths, Vision Zero and Families for Safe Streets to call on 
President Biden and Secretary Buttigieg to set a goal of zero 
fatalities by 2050. Over 1,500 organizations and individuals have 
joined this call.\66\ We urge the House of Representatives, and 
especially this Subcommittee, to echo these sentiments. We can no 
longer stand by while 100 people die every day on our roadways.
---------------------------------------------------------------------------
    \66\ https://www.nsc.org/getmedia/95d17f6b-14e6-4737-b648-
3d5992158826/rtz-biden-coalition-letter-formatted.pdf
---------------------------------------------------------------------------
                               Conclusion
    Earlier this month, NSC approved an equity in transportation policy 
position and a Diversity, Equity and Inclusion statement.\67\ \68\ In 
these documents, NSC recognizes and celebrates differences that may be 
due to ancestry, color, national origin, race, gender identity, sex, 
sexual orientation, age, religion, physical or mental disability, or 
veteran status.
---------------------------------------------------------------------------
    \67\ https://www.nsc.org/getattachment/757d2d64-8b77-4997-8fb4-
97d004188acf/t%20equity%20in%20transportation%20165
    \68\ https://www.nsc.org/our-impact
---------------------------------------------------------------------------
    The transportation policy position states: ``When achieved, 
transportation equity can have a profound impact on communities, 
enabling safe access to school, work, healthy food, parks, and more, as 
well as empowering community members to become stakeholders in roadway 
safety. Mobility independence for all road users becomes a reality.'' 
These goals should be priorities for this discussion today and our 
actions going forward, and we must take time to listen, learn and 
reflect on how we can all be part of the solution to address 
disparities in transportation safety.

                                 State motor-vehicle deaths and percent changes
----------------------------------------------------------------------------------------------------------------
                                                                     Deaths Identical Periods         Percent
                                                                ---------------------------------     Changes
                                                      Number of                                  ---------------
                       State                           Months                                      2019    2018
                                                      Reported     2020       2019       2018       to      to
                                                                                                   2020    2020
----------------------------------------------------------------------------------------------------------------
TOTAL U.S..........................................          11    38,370     35,879      36,223      7%      6%
Alabama............................................          11       839        834         838      1%      0%
Alaska.............................................          11        61         61          76      0%    -20%
Arizona............................................          11       939        911         928      3%      1%
Arkansas...........................................          11       598        463         451     29%     33%
California.........................................          11     3,348      3,161       3,199      6%      5%
Colorado...........................................          11       558        555         560      1%      0%
Connecticut........................................          11       286        242         276     18%      4%
Delaware...........................................          11       109        123          99    -11%     10%
Dist. of Columbia..................................          11        36         25          27     44%     33%
Florida............................................          11     3,202      3,052       2,987      5%      7%
Georgia............................................          10     1,298      1,223       1,228      6%      6%
Hawaii.............................................          11        75        101         107    -26%    -30%
Idaho..............................................          11       180        208         216    -13%    -17%
Illinois...........................................          11     1,010        918         978     10%      3%
Indiana............................................          11       814        737         773     10%      5%
Iowa...............................................          11       300        306         293     -2%      2%
Kansas.............................................          11       382        385         376     -1%      2%
Kentucky...........................................          11       721        680         663      6%      9%
Louisiana..........................................          11       750        660         699     14%      7%
Maine..............................................          11       158        160         116     -1%     36%
Maryland...........................................          11       536        465         451     15%     19%
Massachusetts......................................          11       321        318         327      1%     -2%
Michigan...........................................          11       964        896         901      8%      7%
Minnesota..........................................          11       365        340         346      7%      5%
Mississippi........................................          11       680        567         606     20%     12%
Missouri...........................................          11       908        805         843     13%      8%
Montana............................................          11       190        173         165     10%     15%
Nebraska...........................................          11       215        229         216     -6%      0%
Nevada.............................................          11       280        248         309     13%     -9%
New Hampshire......................................          11       115         98         132     17%    -13%
New Jersey.........................................          11       538        509         514      6%      5%
New Mexico.........................................          11       350        373         360     -6%     -3%
New York...........................................          11       865        778         809     11%      7%
North Carolina.....................................          11     1,514      1,353       1,366     12%     11%
North Dakota.......................................          11        94         91          96      3%     -2%
Ohio...............................................          11     1,134      1,057         984      7%     15%
Oklahoma...........................................          11       577        553         584      4%     -1%
Oregon.............................................          11       468        446         425      5%     10%
Pennsylvania.......................................          11     1,070      1,025       1,152      4%     -7%
Rhode Island.......................................          11        70         55          54     27%     30%
South Carolina.....................................          11       954        904         920      6%      4%
South Dakota.......................................          11       128         96         117     33%      9%
Tennessee..........................................          11     1,115      1,029         960      8%     16%
Texas..............................................          11     3,496      3,253       3,322      7%      5%
Utah...............................................          11       259        217         249     19%      4%
Vermont............................................          11        61         41          57     49%      7%
Virginia...........................................          11       762        756         754      1%      1%
Washington.........................................          11       499        456         499      9%      0%
West Virginia......................................          11       232        242         272     -4%    -15%
Wisconsin..........................................          11       555        511         537      9%      3%
Wyoming............................................          11       110        141         106    -22%      4%
----------------------------------------------------------------------------------------------------------------
NOTE: Deaths are reported by state traffic authorities. ALL FIGURES ARE PRELIMINARY. To ensure proper
  comparisons, 2018 and 2019 figures are preliminary figures covering the same reporting period as those for
  2020. The total for 2018 is from the National Center for Health Statistics.
States in bold: States with a decrease in deaths from 2019 to 2020.


    Mr. DeFazio. Thanks, Ms. Martin.
    Ms. Michelle Ramsey Hawkins.
    Ms. Ramsey Hawkins. Good morning. Thank you, Chairman 
DeFazio, Chair Norton, Ranking Member Graves, Ranking Member 
Davis, members of the subcommittee, for the invitation. My name 
is Michelle Ramsey Hawkins, and I am honored to be here on 
behalf of Mothers Against Drunk Driving, representing millions 
of victims and survivors.
    I am a MADD volunteer from Baton Rouge, Louisiana. I am 
also a social worker at IDEA Innovation Academy, where our 
students are primarily from low-income communities of color. 
One hundred percent of our students go on to college, and as a 
Black woman and social worker and a mother who has suffered a 
traumatic loss, I appreciate being heard.
    Fair and just enforcement is crucial, and it is also 
achievable. More than 10,000 people are killed every year in an 
alcohol-related traffic crash, and hundreds of thousands more 
are injured. MADD will not rest until drunk driving is a thing 
of the past.
    MADD works closely with law enforcement, supporting 
officers' efforts to make our roads safer. Without traffic 
safety enforcement and the deduction of police officers, 
traffic fatalities and injuries increase sharply. Not one--but 
two--drunk drivers changed my family's lives forever. On April 
10, 2016, my children, 15-year-old Kaylee, 6-year-old Khaiden, 
and 4-year-old Samuel, and I attended a party at my son 
Khaiden's godfather's house.
    Before we left, one of the guests promised Samuel a ride on 
his motorbike the following weekend. Samuel was thrilled. As we 
drove along the dark highway, Khaiden and Samuel chatted away 
in the back seat, excited about being up past their bedtime. I 
was unaware that up ahead, a trash compactor fell out of the 
back seat of a pickup truck.
    The driver had previous DUI convictions. On this night, he 
was driving drunk yet again. He did not even bother to stop to 
retrieve the trash compactor, which we later crashed into. I 
pulled to the side of the road, I called police, and then my 
parents, asking them to come pick up my kids while I waited for 
help. I wanted my kids to be safe.
    Meanwhile, two Good Samaritans set up orange safety 
triangles to divert traffic. I remember the boys wrestling in 
the grass. I remember asking my daughter to help her brothers, 
instructing the boys to hold hands and stand in the grass away 
from the road.
    One minute, my children and I were waiting. The next 
minute, I was lying on the ground, unable to move or see. I 
heard my daughter's cries, but I heard nothing from my sons. I 
knew they were gone. The drunk driver who plowed into the 
safety triangles struck a car that struck me before running off 
the road, slamming into my children and one of the Good 
Samaritans.
    In the ambulance, the EMT, an old high school friend, tried 
to keep me from hearing that my boys had died on the scene. 
Kaylee learned of the terrible truth while watching the news 
from a hospital bed. The crash left her with back injuries and 
nerve damage. None of us would ever be the same.
    The impact of the crash damaged my sons' bodies so badly 
that I never got to hold them again. Samuel's face had to be 
reconstructed with clay for the funeral. While Sam never got 
his motorbike ride, the sheriff's office sent out a whole fleet 
for the funeral. Motorcycles could be seen for what seemed like 
miles. For that, I was grateful.
    For 2 years I watched the man who killed my sons and 
injured three others walk free. For 2 years I went to court and 
faced him. Finally, a judge sentenced him to 19 years in 
prison. The repeat drunk driver who dropped the trash compactor 
and set into motion the events of that night is already out of 
jail.
    It would be naive for my family to think that my family's 
race and the race of the offenders did not play a role in what 
happened after the crash. My children were Black boys. The 
offenders were White men. What if it was the other way around? 
Would I have been crucified in the media, accused of having my 
children in the street, of being a negligent mother and somehow 
responsible for their deaths?
    As a Black mother, this is what I endured during the worst 
moments of my life. What if I were White and the drunk drivers 
were Black? Would we have had to fight so hard for so-called 
justice? Would I have felt the need to explain to the world 
that my beautiful boys were not just nameless statistics, but 
somebodies, that Khaiden was a champion chess player who 
excelled academically, and that Sam loved painting, and if you 
got a picture from him, you got a Picasso? Two boys who saw no 
race and everyone was their cousin.
    Would I have felt the need to explain that their father is 
a staff sergeant who is currently serving in the Army in 
Afghanistan, or that their uncle was the first Black district 
attorney for the city of Clinton, Louisiana? I should not have 
to prove why my Black sons mattered, or how it feels to live 
daily with inequity.
    My family had the resources to work within the justice 
system. We also had the support of MADD. MADD's concerned 
Victims Services Specialist Valerie Cox stood with us at every 
court appearance. I think about other families from communities 
of color who may not have had the resources we had. How would 
the system have treated them? What resources would they have 
had at their disposal?
    MADD understands my pain, not only as a mother who lost her 
sons to drunk drivers, but as a mother of color who had to 
fight extra-hard for some justice. MADD understands that 
traffic safety enforcement is critical to keep drunk drivers 
off the road. MADD understands and commends this committee for 
support of highly visible enforcement. MADD also continues to 
support law enforcement in their efforts to deter what would be 
drunk drivers.
    Simultaneously, MADD recognizes the need for efforts to 
ensure enforcement is fair and just, and it must be paramount. 
We know that there is racial and ethnic disparities in traffic 
stops, and MADD commends this committee for its efforts to 
address these disparities.
    Fair and just enforcement is achievable but is not being 
used to identify problems and solutions. Implicit bias is now 
part of the dialogue. We all carry biases, normally or not, 
regardless of our race and ethnicity. We are also positioned 
today to eliminate drunk driving using technology.
    While fair and just traffic safety enforcement remains 
vital, advanced drunk driving prevention technology also 
exists, and this technology has no bias. MADD is grateful for 
the committee for including language in H.R. 2 last year that 
calls for this technology to be standard equipment on all new 
vehicles.
    The promise of a day where drunk driving is----
    Mr. DeFazio. Ms. Hawkins, if you could summarize.
    Ms. Ramsey Hawkins. No problem. On behalf of drunk driving 
victims, on behalf of my boys, allow me to leave you with two 
simple messages.
    First, fair and just traffic safety enforcement is 
essential in every community across this Nation.
    Second, drunk driving prevention technology must be adapted 
as rapidly as possible.
    And third, always remember victims and survivors. Thank 
you.
    [Ms. Ramsey Hawkins' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Michelle Ramsey Hawkins, Victim, Survivor, and 
                Volunteer, Mothers Against Drunk Driving
    Good morning. Thank you Chair DeFazio, Chair Norton, Ranking Member 
Graves, Ranking Member Davis and Members of the Subcommittee for the 
invitation to appear before you today on an issue that is so personally 
important to me and my family. My name is Michelle Ramsey Hawkins. I am 
honored to be here on behalf of Mothers Against Drunk Driving (MADD), 
representing millions of victims and survivors of drunk driving 
crashes. I am an active MADD volunteer in Baton Rouge, Louisiana, 
sharing my story through public speaking engagements across the state. 
I am also a Social Worker at IDEA Innovation Academy with the IDEA 
Public School System. Our k-12 students are primarily from low-income 
communities of color. I am proud to say that one hundred percent of our 
graduating seniors go on to college. As a Black woman, a Social Worker, 
and as a mother who has suffered traumatic loss, I appreciate being 
heard and look forward to continued collaboration with the Committee 
and other stakeholders in the coming weeks and months. Fair and just 
traffic safety enforcement is crucial, and as we will hear from other 
witnesses today, it is also achievable.
    In 2019, 10,142 people were killed in alcohol-related traffic 
crashes, and hundreds of thousands more were seriously injured. For 
forty years MADD has given a voice to mullions of crash victims and 
their families. We have taken our collective pain and turned it into 
action, with the goal of no more victims. From passage of the 21 
Minimum Drinking Age Law, to the national .08 BAC standard, high 
visibility enforcement campaigns, all-offender ignition interlock laws, 
and the development of advanced drunk driving prevention technologies, 
MADD will not rest until drunk driving is a thing of the past. We have 
made tremendous progress in forty years, reducing drunk driving deaths 
by over 52 percent. But the job is not done. According to the National 
Academies of Sciences, Engineering and Medicine, ``Alcohol-impaired 
driving remains the deadliest and costliest danger on U.S. roads 
today.'' And this profound human loss is 100 percent preventable.
    I would also like to convey that MADD works closely with law 
enforcement officers around the country, supporting enforcement efforts 
to ensure that our roads are safe. Without traffic safety enforcement, 
and the dedication of police officers, traffic fatalities and injuries 
would increase exponentially.
                      My Story: Khaiden and Samuel
    Not one--but two--drunk drivers changed my family's life forever. 
On April 10, 2016, my three children--15-year-old Kaylee, 6-year-old 
Khaiden, 4-year-old Samuel, and I--attended a housewarming party for 
Khaiden's godbrother. Before we left that evening, one of the guests 
promised Samuel a ride on his motorbike the following weekend. Samuel 
was thrilled; he loved motorcycles. We said goodbye, not imagining that 
for Samuel and Khaiden, there would be no next weekend.
    As we drove home along a dark highway, Khaiden and Samuel chattered 
away in the backseat, excited to be up past their bedtime. Their 
father, a U.S. soldier, called on a flight home; he'd be back in time 
to pick them up from school the next day.
    The events of that night were already beginning to unfold. Up 
ahead, a trash compactor fell from the back of a pickup. The driver, 
who had two previous DUI convictions, was driving drunk that night, 
too. He didn't bother to stop.
    A minute later, we crashed into the trash compactor. I pulled to 
the side of the road and got my children out of the car. I called law 
enforcement and then my parents, asking them to pick up the kids while 
I waited for the tow truck. I wanted them to be safe. Meanwhile, two 
good Samaritans, a father and his teenage son who'd heard the initial 
crash from their home, set up orange safety triangles to divert 
traffic. I remember digging in my wallet for my roadside assistance 
information. I remember the boys wrestling in the grass, and Samuel 
complaining that Khaiden was blowing spit bubbles at him. I asked my 
daughter to help with her brothers, instructing the boys to hold hands 
in the grass, away from the road.
    I have no memory of the second drunk driver--a man with a blood 
alcohol content nearly three times the legal limit--crashing through 
the safety triangles in his SUV. When I came to, I was lying on the 
ground. I couldn't move or see. But I heard my daughter's cries--and 
understood the absence of my sons'. They were already gone.
    My daughter, Kaylee, was 10 by the time my second child, Khaiden, 
came along. Kaylee was the first person to hold him, a fact she never 
forgot, and she adjusted quickly to life with a baby in the house. When 
Samuel--my bonus baby--arrived two years later, it was another story. 
Samuel was just a few days old when I went into the kitchen to fix a 
bottle. When I came back, I couldn't find him. Kaylee and Khaiden had 
set him out on the patio, car seat and all. I explained to them that 
they had to take care of one another. From then on, they did. Khaiden 
and Samuel called each other ``brother.'' Kaylee and the boy's other 
sister Haleigh were ``Sister.'' In the mornings, I sometimes found 
Samuel tucked at the bottom of one of his sisters' beds. They were 
incredibly close, while Kaylee, Khaiden and Sam shared a love of 
basketball, Haleigh simply loved hanging out with her brothers. Khaiden 
and Samuel never met a stranger. It didn't matter who you were--you 
were their cousin. They were blessed with real-life superheroes: their 
dad, a U.S. soldier, and my father, a veteran, who taught them how to 
fish and took them on road trips.
    Both boys attended the Baton Rouge Foreign Language Academic 
Immersion program. After just three months, Khaiden spoke fluent 
Spanish. Unbeknownst to me, my 6-year-old joined the chess club in his 
afterschool program. We spent many weekends traveling to chess 
tournaments; I was so proud when Khaiden placed second in his age group 
in the entire state of Louisiana.
    Samuel was my gentleman who always tucked in his shirt and wore a 
belt. He said his glasses made him look cool like his Dad. He loved 
painting and drawing. If you got a picture from Sam, you got a Picasso. 
He always had a wad of bubblegum in his mouth. He was the smallest and 
also the feistiest, trying to make himself louder and bigger. Samuel 
wanted to play football--tackle football, not flag football. I told him 
he had to wait until he turned 5. I didn't want anyone hitting my baby.
    Authorities would reconstruct the events of that night: The drunk 
driver who plowed through the safety triangles struck a car that then 
struck me before running off the road and slamming into my 3 children 
and the teenage neighbor. In the ambulance, the EMT, an old high school 
friend, tried to keep me from hearing that my boys had died on the 
scene. I told him I already knew. Kaylee learned the terrible truth 
from the TV news that played in her hospital room. The crash had left 
her with back injuries and nerve damage in her left foot. The emotional 
injuries went deeper; she never played basketball again. She couldn't. 
Not without her brothers. The teenager who'd come outside to help after 
the crash endured more than 20 surgeries. He couldn't get his driver's 
license at age 16 because he had fragments of his skull behind his 
eyelids. To this day, he is not the same. None of us are.
    My boys weren't nameless boys or statistics. They were Khaiden and 
Samuel. They were my sons. They had just started their lives. They had 
everything to live for. They were going to be somebody. Two drunk 
drivers robbed them of their futures and robbed me of the closure I 
needed as a mother. The impact of the crash caused so much trauma that 
I never got the chance to hold them or touch them. Samuel's face had to 
be reconstructed with clay; at the funeral, I could only look at their 
caskets from a distance.
    While Sam never got that ride on a motorbike, the sheriff's 
department sent out a whole fleet for his funeral--motorcycles for what 
seemed like miles. They escorted us everywhere we needed to go, and I 
was so grateful for that, and for the outpouring of love for my boys. A 
month after the funeral, I did what I had long promised my children--
and what doctors told me I couldn't do because of the severity of my 
injuries. I walked across the stage to accept my master's degree in 
social work, and I did it in heels. There was a walker waiting on the 
other side, but I did it. I'd missed a lot of games and recitals 
because I was in school. I owed it to Kaylee, Khaiden and Sam to see it 
through.
    For two years, the man who killed my sons and injured three others 
walked free. For two years, I went to court and faced him and his 
family. Finally, on July 26, 2018, a judge sentenced him to 19 years in 
prison. The drunk driver who dropped the trash compactor and set into 
motion the events of that night is already out of jail.
                      Racial Bias: After the Crash
    It would be naive to think that my family's race, and the race of 
the offenders, did not play a role in what happened after the crash.
    My children were Black boys, the offenders White men. What if it 
was the other way around? If I were white and my boys were white, and 
the drunk drivers were Black, would I have been crucified in the 
media--accused of having my children in the street that night, of being 
a negligent mother and somehow responsible for their deaths? As a black 
mother, that's what I endured during the worst moments of my life. The 
loss and the judgement felt too much to bear.
    If I were white and my boys were white, and the drunk drivers were 
Black, would we have had to fight so hard for the so-called justice we 
received?
    Would I have felt the need to explain to the world that my 
beautiful boys were somebodies? That I needed to prove their worth? To 
explain that Khaiden and Samuel's father, currently serving in 
Afghanistan, is a Staff Sergeant in the U.S. Army? That Khaiden and 
Samuel's Uncle was the first black district attorney for the City of 
Clinton, Louisiana? That another Uncle is a Senior Chief in the U.S. 
Navy? That their grandfather served in Vietnam? My black boys mattered. 
When my boys were taken from me, in such a senseless manner, it felt 
like they didn't matter. And it felt like I had to prove that they did. 
I understand what it feels like to live daily with inequities.
    My family had resources to help us work within the justice system. 
We also had the support of Mothers Against Drunk Driving. MADD Victims 
Services Specialist Valerie Cox stood with us at every court 
appearance.
    I think about other families--from communities of color--who may 
not have the resources we have. How would the system have treated them? 
What resources would they have had at their disposal?
    MADD understands my pain, both as a mother who lost her sons to 
drunk driving, and as a mother of color who had to fight extra hard for 
some semblance of justice.
 High Visibility Enforcement: The Most Proven Countermeasure to Combat 
                             Drunk Driving
    MADD also understands that traffic safety enforcement is critical 
to keeping drunk drivers off the roads. And MADD is committed to fair 
and just enforcement. MADD commends this Committee for its leadership 
in creating and authorizing the National Highway Traffic Safety 
Administration's (NHTSA's) high visibility enforcement program. The 
program combines law enforcement efforts with efforts to publicize the 
enforcement as a way to promote awareness and compliance with the law. 
These efforts are proven to reduce crashes, death and injuries on our 
roads. Sobriety checkpoints, saturation patrols and other high 
visibility enforcement efforts should include increased publicity and 
warnings to the public. Warning the public about upcoming enforcement 
waves may seem counterintuitive, but in fact the purpose of the high 
visibility enforcement effort is to stop people from engaging in risky 
behavior in the first place. This is known as the ``general 
deterrence'' effect, and it is one of the most effective 
countermeasures we have in the fight against drunk driving. The more 
obvious enforcement efforts are to the public, the less likely drivers 
are to take illegal risks.
    High visibility enforcement is designed to be conducted in 
locations that are chosen based on data, sometimes identifying high-
volume and high-crash traffic areas. High-volume traffic areas assist 
with the visibility of enforcement efforts, with more people seeing 
these efforts--and, as a result, drivers are more likely to voluntarily 
comply with traffic safety laws. Identifying ``hot spots,'' or high-
crash rate locations, is a tried and true approach to target 
enforcement resources.
    High visibility enforcement campaigns, such as ``Drive Sober or Get 
Pulled Over'' and ``You Drink. You Drive. You Lose.'' are conducted at 
the national, state and local level, and are proven to be very 
effective when combined with enforcement efforts on the ground. A 
significant portion of Section 402 funding is used to fund enforcement 
countermeasures, including activities to support national high 
visibility enforcement mobilizations. These efforts are key to saving 
lives and preventing injuries on our nation's roads.
         Fair and Just Traffic Safety Enforcement is Achievable
    MADD will continue to support law enforcement in their efforts to 
deter would-be drunk drivers. Officers are on the front lines of 
traffic safety every single day. Victims and survivors have the utmost 
respect for those who put their lives on the line so that others are 
protected. And, tragically, the leading cause of death for police 
officers killed in the line of duty is traffic crashes.
    Simultaneously, MADD recognizes the need for reform. Efforts to 
ensure that enforcement is fair and just must be paramount. We know 
from witness testimony today that there are racial and ethnic 
disparities in traffic stops. We know that Black and Hispanic drivers 
are disproportionately stopped and disproportionately searched compared 
to white drivers. We know that Black and Hispanic drivers are stopped 
at a greater rate for equipment violations and administrative offenses 
compared to white drivers. But there is little evidence to support a 
claim that Black and Hispanic drivers more frequently commit these 
offenses. And what is very compelling to me, a Black woman who has lost 
her two Black sons in a violent, preventable traffic crash due to 
illegal, deadly driving: racial and ethnic disparities are 
significantly decreased when traffic enforcement is primarily focused 
on hazardous driving behaviors.
    We must do what we can to help foster a higher level of trust 
between police agencies and the communities they serve. The stakes are 
too important--the cost is too high.
    The good news? Fair and just enforcement is achievable. Our 
national conversation surrounding racial inequity is bringing more 
stakeholders to the table. Research and hard data are now being used to 
identify what the problems are, where problems exist, and what 
solutions can be employed to do better. Best practices are being 
identified and implemented. Organizations and individuals are 
recognizing that we all must be a part of the solution. Implicit bias 
is now a part of the dialogue, understanding perceptions we have as 
individuals, and how we respond to the world around us based on our own 
experiences. We all carry bias, whether we are aware of it or not, 
regardless of our race and ethnicity. I would like to commend the 
groundbreaking work of hearing witnesses Dr. Rashawn Ray and Ken 
Barone. Thank you both for helping to frame these discussions, based on 
research and real-world experience.
    MADD commends this Committee for its leadership to address 
disparities in enforcement practices. The Moving Forward Act (H.R. 2) 
that passed the House in the last Congress contained numerous important 
provisions to address these issues, including:
    1.  Section 3005: Grant program to prohibit racial profiling. These 
funds go to research and implementation of research-based programs 
focused on implicit bias training as it relates to racial profiling at 
traffic stops. The program encourages institutions of higher education 
to work collaboratively with State and local police departments. MADD 
is very encouraged by results of the work Ken Barone has led in 
Connecticut, with Central Connecticut State University working closely 
with law enforcement agencies across the state. MADD encourages the 
Committee to provide additional resources to implement best practices 
across the country.
    2.  Section 3010: Implicit bias research and training grants. MADD 
supports efforts to fund research in this area, such as the work 
currently conducted by Dr. Rashawn Ray at the University of Maryland. 
Dr. Ray's research is now incorporated into training police recruits, 
using interactive programs to help bring about better interactions 
between citizens and police officers.
    3.  Section 3007: National priority safety programs. Under this 
section, a new component is added to the established Section 405 
program called ``Driver and Officer Safety Education.'' This program 
encourages States to include training for police officers and also 
drivers (through DMVs) on rights, responsibilities, and best practices 
during traffic stops.

    MADD fully supports the above provisions, and is encouraged by the 
Committee's commitment to address equity in traffic safety enforcement. 
We look forward to working with Members of the Subcommittee to advance 
these efforts. Traffic crash victims and survivors have a vested 
interest in ensuring traffic enforcement is fair and just--because it's 
the right thing to do, and so that essential traffic enforcement can 
continue. A social worker, like myself, is not able to ride as a 
passenger in every drunk driver's vehicle. A social worker was not able 
to talk reason into the man who killed my boys, and injured me, my 
daughter, and the good Samaritans who helped us. Some drivers make 
illegal decisions that put others at grave risk on the roads, and law 
enforcement officers are needed on the front lines, to serve and 
protect the public.
     Advanced Drunk Driving Prevention Technology Is Here . . . Now
    We are better positioned today than ever before to eliminate risk 
posed by drunk drivers. While traffic safety enforcement is the most 
effective way to currently mitigate risk, advanced drunk driving 
prevention technology exists now and will one day solve this public 
health problem.
    What if we could reduce the need for traffic safety enforcement? 
What if drunk drivers were no longer able to get behind the wheel and 
operate a vehicle as though it were a weapon? These questions are no 
longer based on fantasy, but are now firmly rooted in reality. And 
advanced drunk driving prevention technology does not notice a person's 
race or ethnicity. Impairment prevention technology has no implicit 
bias.
    MADD is grateful to the Committee for inclusion of language modeled 
after the Honoring Abbas Family Legacy to Terminate Drunk Driving 
(HALT) Act in the House passed H.R. 2. Representative Debbie Dingell 
led the way by proposing the groundbreaking legislation after a 
devastating wrong-way drunk driving crash killed a family of five--
Isaam and Rima Abbas and their young children Ali, Isabella and 
Giselle. House Energy and Commerce Chair Frank Pallone and Consumer 
Protection Subcommittee Chair Jan Schakowsky helped lead efforts to 
ensure passage, along with leadership of this Committee. The 
legislation calls for a process that will lead to drunk driving 
prevention technology as standard equipment in new vehicles.
    Advanced drunk driving prevention technology is a game-changer for 
MADD, giving victims and survivors a tangible, realistic expectation 
for a future without drunk driving. This lifesaving technology must be 
made standard equipment in all vehicles through adoption of a motor 
vehicle safety standard.
    A recent study from the Insurance Institute for Highway Safety 
estimates that more than 9,400 lives--about one-fourth of the current 
traffic crash death total--will be saved each year when all vehicles 
have advanced drunk driving prevention systems.
    MADD submitted comments to a NHTSA Request for Information (RFI) on 
advanced drunk driving prevention technology. We found more than 180 
technologies that are currently deployed, in development, or soon to be 
on the market that NHTSA must consider as part of a rulemaking process. 
There are two types of passive automotive technologies that exist to 
prevent drunk driving--driver monitoring and alcohol detection. These 
are passive technologies that automatically gauge driver impairment, as 
opposed to ignition interlocks that are installed in drunk driving 
offenders' vehicles that require the motorist to actively blow into the 
device. Driver monitoring can detect signs of distracted, impaired or 
fatigued driving. Alcohol detection uses sensors to determine whether a 
driver is under the influence of alcohol, and then prevent the vehicle 
from moving.
    In March 2019, Volvo announced technology that monitors for alcohol 
or distracted driving impairment would be a feature on new vehicles in 
the early 2020s. The Volvo system uses ``in-car cameras and other 
sensors that monitor the driver and all the car to intervene if a 
clearly intoxicated or distracted driver does not respond to warning 
signals and is risking an accident involving serious injury or death.'' 
The Volvo systems detect impaired driving using the same technology 
that more than 100 other driver monitoring systems use. These systems 
determine a driver's state using one or a combination of the following 
features: optical or infrared camera to look at the face or eyes of the 
driver; seat to monitor body movement, breathing, heart rate or brain 
waves; and steering wheel sensors. A video of Volvo's website describes 
the technology, and various actions taken by the vehicle when 
impairment is detected.

Volvo Video: https://www.media.volvocars.com/global/en-gb/media/videos/
250162/in-car-cameras-and-intervention-against-intoxication-
distraction-animation1

Volvo Press Release: https://www.media.volvocars.com/global/en-gb/
media/pressreleases/250015/volvo-cars-to-deploy-in-car-cameras-and-
intervention-against-intoxication-distraction

Additionally, Nissan had drunk driving prevention concept cars a decade 
ago.
Nissan Drunk Driving Prevention Concept Car: https://www.nissan-
global.com/EN/TECHNOLOGY/OVERVIEW/dpcc.html

Toyota announced a drunk driving prevention system in 2007 with hopes 
of having it in cars by the end of 2009. https://www.nbcnews.com/id/
wbna16449687
        The Road Ahead: Dialogue, Collaboration, Growth, Action
    The promise of a day without drunk driving is exciting for crash 
victims and survivors. Our loved ones, however, are gone, and they 
aren't coming back. MADD victims and survivors speak out and push for 
change so that other families don't have to endure what we endure.
    People ask me how I do it. How do you go on living after losing the 
children who should have buried you? How do you stand up and talk about 
it, over and over again? I went to therapy every single day. Without 
it, I would have lost my mind. I cried a lot. I prayed a lot. I got 
tired of people giving me a sad face, or rubbing my shoulders and my 
back every time I was around them. I got tired of feeling sad and 
depressed all the time. I would watch my daughter. ``Mom,'' she would 
say, ``you're not going to be sad today.'' At first, I didn't 
understand it. Now I do. I want to be a survivor. Not a victim. I want 
to fight back. For Khaiden and Samuel. If not their mother, then who?
    On behalf of drunk driving victims and survivors, on behalf of my 
boys: traffic safety enforcement is essential to ensuring safety on our 
roads, AND enforcement must be fair and just. Identifying best 
practices and providing resources to encourage growth and change in 
every community across the country, will serve us all.
    I thank the Committee for inviting me to speak on behalf of crash 
victims and survivors. It is my hope that by sharing my story I can 
help to prevent other senseless tragedies from happening to other 
families. I stand with MADD and the Committee in full support of 
continued research and effective program development to end racial 
inequities in enforcement. These crucial efforts, while challenging for 
all involved, encourage essential dialogue and collaboration--with the 
promise and hope of healing for communities of color and law 
enforcement, and us all.

    Mr. DeFazio. Thank you for that testimony. I know it is not 
easy to talk about such a tragedy, so thank you.
    Mr. Ken Barone.
    Mr. Barone. Good morning. Chair DeFazio, Chair Norton, 
Ranking Member Davis, and members of the subcommittee, thank 
you for the opportunity to appear before you today. My name is 
Ken Barone, and I am the manager of the State of Connecticut's 
Racial Profiling Prohibition Project.
    My testimony today will focus on the benefits that the 
section 1906 racial profiling prohibition grant program has had 
on Connecticut's ability to address both equity and safety in 
traffic enforcement, and the value of expanding the funding to 
allow for even greater progress in eliminating racial profiling 
in traffic enforcement while also working to improve the safety 
of our roadways.
    Traffic stops are the most common encounter between law 
enforcement and the public. Understanding these routine 
interactions requires States to move beyond anecdotal 
conversations and to develop robust data collection and 
analysis programs.
    Connecticut first enacted an antiracial profiling law in 
1999. However, until resources were provided through the 
section 1906 program, Connecticut struggled to properly 
implement the law. With the support of the section 1906 grant 
program, we have developed a state-of-the-art data collection 
and analysis system. To date, we have collected over 91 million 
data points from more than 3\1/2\ million traffic stops.
    Beyond simply collecting data, we have also conducted 
meaningful statewide and departmental analysis over the last 6 
years. Our analysis is designed to identify both statewide 
trends and those departments with the most significant racial 
and ethnic disparities. Rather than treating the analysis as 
evidence of wrongdoing, we utilize the analysis as an early 
intervention system. This approach allows us to focus our 
limited resources on those departments that have the most 
significant racial and ethnic disparities.
    Departmental interventions are designed to be a 
collaboration between researchers, the law enforcement agency, 
and community stakeholders. These departmental interventions 
have produced important, actionable findings that departments 
have used to enact positive change. Since 2015, Connecticut's 
statewide analysis has consistently identified some of the 
trends.
    Black and Hispanic drivers are disproportionally stopped 
and disproportionally searched when compared to White drivers.
    Police are significantly less likely to find contraband 
resulting from a search involving a Black or Hispanic driver.
    Black and Hispanic drivers are stopped at a greater rate 
for equipment violations and other administrative offenses when 
compared to White drivers. However, there is little evidence to 
support a claim that Black and Hispanic drivers more frequently 
commit these offenses.
    Racial and ethnic disparities are significantly decreased 
when traffic enforcement is primarily focused on hazardous 
driving behaviors.
    Although the primary motivation behind our work has been to 
identify and address racial and ethnic disparities in traffic 
enforcement, an added benefit to the program has been the 
accumulation of a rich data set that can inform researchers, 
practitioners, and transportation and law enforcement 
administrators about the enforcement techniques that are most 
effective in improving roadway safety.
    I want to be very clear. Our program has consistently shown 
that it is possible to eliminate racial and ethnic disparities 
in traffic enforcement and improve roadway safety at the same 
time.
    The section 1906 program has been critical to our success 
in Connecticut. It has allowed our State to dive headfirst into 
an emotional and often traumatic conversation and create 
meaningful and measurable reform by positively addressing both 
equity and safety in traffic enforcement, all with stakeholders 
at the helm. We are proud that in recent years, our approach 
has been replicated in at least three other States, including 
California, Oregon, and Rhode Island.
    I would be remiss if I did not take this opportunity to 
mention the important role that State departments of 
transportation play in administering this grant program. We are 
grateful for the continued support of the Connecticut 
Department of Transportation.
    In closing, I ask that you strongly consider the 
reauthorization and expansion of the section 1906 program so 
that Connecticut and other States can continue to make progress 
on racial equity in traffic enforcement.
    Thank you for your time, and I look forward to your 
questions.
    [Mr. Barone's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Ken Barone, Project Manager, Institute for 
  Municipal and Regional Policy, Central Connecticut State University
    Chair DeFazio, Chair Norton, Ranking Member Graves, Ranking Member 
Davis, and members of the Subcommittee, thank you for the opportunity 
to appear before you today as the committee examines equity in 
transportation safety and considers reauthorization of the section 1906 
Racial Profiling Prohibition grants. My name is Ken Barone, and I am 
the manager of the State of Connecticut's Racial Profiling Prohibition 
Project. My testimony today will focus on the benefits that the section 
1906 program has had on Connecticut's ability to address both equity 
and safety in traffic enforcement, its efficacy for use in other 
jurisdictions, and the value of expanding the funding to allow for even 
greater progress in eliminating racial profiling in traffic enforcement 
nationwide.
    Disparities in the criminal justice system, particularly police 
enforcement, have been a major source of political protest and social 
unrest in the United States. Motor vehicle enforcement is a common 
focus of these conversations since it is the public's most frequent 
interaction with law enforcement. There is broad consensus in the value 
of addressing these concerns, however there is often difficulty in 
moving concerns to achievable and measurable action. Understanding 
these interactions between law enforcement and the public requires 
states to move beyond anecdotal conversations and develop robust data 
collection and analysis programs. When married with dialogues centered 
around the data, real and measured reform is possible.
    Since 2006, at least 24 states have received funding through the 
section 1906 program to develop data collection and analysis systems. 
Connecticut's novel approach to collecting and analyzing traffic stop 
data for evidence of discrimination is widely considered to be a 
national model and has only been possible because of federal funds 
available to our state through the section 1906 program and a strong 
partnership with the Connecticut Department of Transportation. In 
recent years, Connecticut's model has been replicated in at least three 
other states including California, Oregon, and Rhode Island. Our goal 
is to eliminate racial profiling, use data to improve roadway safety, 
and increase trust between law enforcement and the communities they 
serve. In light on the continued social unrest in the United States, 
the section 1906 program is more vital than ever. Reauthorization and 
expansion of the program will allow states like Connecticut to build 
upon our success and continue to work towards a more fair and just 
society.
                         The Connecticut Model
    Connecticut first enacted an anti-racial profiling law in 1999. 
After developing a system for paper-based reporting, the state invested 
in two data analysis reports produced under the purview of the Office 
of the Chief State's Attorney. Shortly after the publication of the 
second report, the state moved oversight to the legislative African 
American Affairs Commission. No reports were subsequently produced, and 
as of 2011 only 27 of the approximately 92 law enforcement agencies 
were still collecting and submitting the required data.
    A well-publicized 2011 case of police profiling in East Haven, CT 
renewed public and legislative attention to the efficacy of the state's 
existing racial profiling law. Legislators responded by strengthening 
the state law, which had largely been ignored since a few years after 
its initial passage in 1999. The new law allowed for the creation of a 
robust system for evaluating and addressing concerns about racial 
profiling. Another important element was the statutory establishment of 
a 20-member advisory board to help with the development, 
implementation, and oversight of the new law. Advisory board members 
consist of advocates, law enforcement administrators, academics, 
policymakers, and community members. The board has continually worked 
to create an efficient data collection system, centralized traffic stop 
repository, and a rigorous analytical process. In the midst of these 
changes, the Connecticut Department of Transportation applied for 1906 
funds to bring the necessary resources to fully implement the new law.
    The first phase of the process involved development of an 
electronic data collection system. The task was to design an electronic 
system that was both not overly burdensome to police and yet capable of 
providing critical information to the public on an annual basis. 
Connecticut was able to develop a system to collect universal traffic 
stop data that could be submitted electronically on a monthly basis. 
The system currently captures 26 data points from Connecticut's roughly 
600,000 annual traffic stops. To date, the system contains 
approximately 91 million data points from 3.5 million traffic stops. 
Electronically collecting meaningful data from more than 100 police 
agencies in a timely manner was a major first step towards achieving 
our goals.
    Once the data collection system was established, we quickly turned 
our attention to the second phase of the process, which involved the 
development of a thoughtful analytical system. Unique to Connecticut's 
approach is the application of multiple statistical tests for 
ascertaining the presence of racial and ethnic disparities. The idea 
behind using more than one test to identify discrimination was an 
insight made by members of the advisory board after observing that most 
other states typically choose a single method for evaluating 
disparities. The board observed that this choice often divided 
stakeholders when one group did not agree with the results or 
assumptions of a particular test, therefor sowing doubt as to whether 
racial disparities exist or not. Such an approach to analyzing traffic 
stop records only served to further fracture the distrust between law 
enforcement and communities of color. The use of multiple tests in 
Connecticut is designed to serve as a screening tool by which 
stakeholders could then focus attention to those departments displaying 
the greatest level of disparity. Colloquially, we refer to this as the 
``preponderance of the evidence'' approach since disparities are 
identified across a number of different dimensions including the 
decision to stop a motorist, the outcome of the stop, and the decision 
to search a motorist/vehicle.
    The next stage in the Connecticut model is also unique to statewide 
traffic stop data analysis and requires a detailed exploration of 
jurisdiction specific information to better understand an identified 
department's disparities. In my experience, municipal police agencies 
are limited in their capacity to comprehensively analyze the factors 
that contribute to their racial and ethnic disparities. Researchers 
that simply point out racial and ethnic disparities can unintentionally 
contribute to a further divide between law enforcement and the 
communities they serve. Rather than treating our statistical analysis 
as evidence of wrongdoing, researchers and policymakers utilized the 
annual report as an early warning system that begins, rather than ends, 
an ongoing and data-driven conversation. Departments identified in the 
annual report partner with researchers for a comprehensive follow-up 
intervention, which involves a deeper dive into their data in an effort 
to identify specific policies and enforcement activities driving the 
disparities. This phase of the process includes a quantitative and 
qualitative analysis at the department and individual officer level. In 
Connecticut, the goal is to collaborate with police and the advocacy 
community to develop practical solutions.
    As the final phase of the analytical process, stakeholders and 
community members are invited into the process and encouraged to engage 
in a dialogue with policing administrators and local elected officials. 
In cases when there has been a particular stakeholder or advocacy group 
with concerns about an identified department, they have been invited to 
participate in the process at an earlier stage. Following the 
conclusion of the in-depth analysis, researchers and the advisory board 
will host a community forum in the identified communities. The forums 
include a presentation of the research team's findings, a discussion 
with policing administrators and a period for public comment/question. 
Upon request, the research team has also made presentations to city or 
town councils. By the time the research team hosts these community 
forums, we have already identified the factors believed to be 
contributing to the disparity. These factors typically fall into two 
categories: 1) specific enforcement patterns or 2) (infrequently) 
individualized actions by subsets of officers. During the forum, the 
research team outlines an independent set of recommendations for 
reforms and allows the public and stakeholders to provide input as to 
their efficacy. Ultimately, the decision to enact the recommended 
reforms is left to the community and policing administrators. However, 
the value added of this approach is that it allows for a transparent 
data-driven dialogue between stakeholders and policing administrators 
about how specific enforcement policies contribute to observed patterns 
of disparity.
    The Connecticut model provides a streamlined framework for 
identifying disparities and then using this information to hold data-
driven conversation between stakeholders in an effort to enact 
interventions to mitigate future disparities. All or part of the 
Connecticut model has recently been adopted by the States of Rhode 
Island, Oregon, and California. Continued federal funding would not 
only allow Connecticut to maintain its state-of-the-art program, but 
also to expand upon its success. Additionally, as has been shown, the 
Connecticut model provides a proven framework for developing a 
streamlined state-level system to mitigate disparities in policing that 
can be easily replicated in other states.
             Highlights from Connecticut's Annual Analysis
    Since 2015, Connecticut has produced five annual reports which 
analyze racial disparities in traffic stops submitted by 107 law 
enforcement agencies. The analysis has consistently identified these 
trends in the data:
    1.  There are statistically significant racial and ethnic 
disparities in traffic stops.
    2.  Black and Hispanic drivers are disproportionately stopped and 
disproportionately searched compared to White drivers.
    3.  Police are significantly less likely to find contraband 
resulting from a search involving a Black or Hispanic driver.
    4.  Black and Hispanic drivers are stopped at a greater rate for 
equipment violations and administrative offenses compared to White 
drivers. However, there is little evidence to support a claim that 
Black and Hispanic drivers more frequently commit these offenses.
    5.  Racial and ethnic disparities are significantly decreased when 
traffic enforcement is primarily focused on hazardous driving 
behaviors, such as speed related, distracted driving, stop sign, 
traffic control signal, or other types of moving violations.

    Although the primary motivation behind our work has been to 
identify and address racial and ethnic disparities in traffic 
enforcement, an added benefit to the program has been the accumulation 
of a rich dataset that can inform researchers, practitioners, and 
transportation and law enforcement administrators about the enforcement 
techniques that are most effective in improving roadway safety. Our 
research has been able to substantially contribute to the ongoing 
conversation about traffic safety in Connecticut.
    In Connecticut we have found that racial and ethnic disparities in 
traffic enforcement have largely been driven by police enforcement of 
lower level equipment and administrative violations. As part of the 
Connecticut law, police are required to report the reason for stopping 
a motor vehicle. There are hundreds of individual motor vehicle 
statutes but stops can generally be aggregated into one of three broad 
categories: (1) safety related, (2) equipment related, or (3) 
administrative related offenses. As previously noted, our annual 
traffic stop assessment has consistently found that racial and ethnic 
disparities are significantly decreased when law enforcement primarily 
focuses on safety-related violations. We also know that safety-related 
motor vehicle violations are significantly more likely to be a 
contributing factor in motor vehicle crashes. On the other hand, racial 
and ethnic disparities are greatest when law enforcement focuses more 
on equipment and administrative offenses. Although legitimate reasons 
may exist for the enforcement of these violations, we cannot ignore 
that on balance they disproportionately impact Black and Hispanic 
drivers. Additionally, when police spend their time pulling over 
drivers for relatively minor traffic violations, they are committing 
resources that then cannot be used for other activities that may have a 
greater impact on public safety.
    There is a commonly held belief that disparities in equipment and 
administrative offenses occur more frequently in the Black and Hispanic 
community due to socioeconomic factors rather than police enforcement 
decisions. Although socioeconomic factors may play a role in such 
violations, there is evidence that police officers are more likely to 
enforce equipment and administrative violations in areas with higher 
Black and Hispanic populations or where Black and Hispanic drivers are 
more likely to be traveling. This is taken in combination with the fact 
that police presence is also greater in these areas due to resource 
allocation decisions that follow factors such as crime, calls for 
service and accidents. In Connecticut, when testing this theory, we 
have found that when police enforce these laws in areas with greater 
White populations, the racial composition of violators reflects that.
    While Connecticut data shows that Black and Hispanic drivers are 
proportionally stopped at a higher rate for all types of traffic 
violations than White drivers, the disparity is most significant for 
equipment and administrative offenses. Within their respective 
demographic groups, Black drivers are almost twice as likely and 
Hispanic drivers are 1.5 times more likely to be stopped for an 
equipment-related violation compared to White drivers. The disparity is 
slightly less pronounced for administrative offenses. Within their 
respective demographic groups, Black drivers are 1.2 times and Hispanic 
drivers are 1.3 times more likely to be stopped for an administrative 
offense compared to White drivers.
                  Examples of Successful Interventions
    Continuous statewide analysis is important for understanding 
trends; equally, if not more, significant is recognizing how targeted 
departmental interventions drive those trends. Since 2015, Connecticut 
has conducted interventions for 28 municipal police departments 
identified as having a disparity in the annual report. The in-depth 
analysis allows researchers to focus on the unique attributes of 
specific subsection of a community where enforcement is targeted. Some 
of the factors identified in Connecticut as contributing to potential 
disparities for specific towns include locations of accidents, high 
calls for service, DUI enforcement, crime rates, and retail and 
entertainment. Researchers also conduct a more comprehensive post-stop 
data review to examine disparities in stop outcomes, searches and hit 
rates, and reasons for stops. The final piece of the in-depth analysis 
moves beyond examining disparities at the department level and examines 
individual officer information. The officer-level results are only 
shared with law enforcement administrators who review the findings in 
conjunction with additional officer information not available to 
researchers. These interventions have produced important actionable 
findings that departments have used to enact positive change.
    The first example I would like to share is about disparities found 
in a predominantly White suburban community outside of the city of New 
Haven, CT, with a police department of approximately 106 officers. In 
that particular department, Police enforcement was largely focused in 
the one neighborhood with a high percentage of Black residents. The 
data showed that this neighborhood had more calls for service and a 
higher crime rate relative to the rest of the community. The 
department's crime reduction strategy involved an elevated level of 
traffic enforcement in this area in an attempt to address these issues. 
Officers would primarily stop cars for low-level equipment and 
administrative offenses and request consent to search the vehicle. In 
particular, 22% of drivers were stopped for equipment violations and 
18% for administrative offenses relative to 12% and 9% statewide, 
respectively. Notably, this strategy was not implemented elsewhere in 
the community. Based on the traffic stop data, illegal contraband was 
rarely found in these searches (less than 7% of the time) and drivers 
were frequently given warnings rather than tickets for the motivating 
infractions. In addition, there was little empirical evidence that 
these enforcement measures were having any effect on the areas elevated 
crime rate.
    Researchers and community stakeholders engaged the police 
administration in dialogue about alternative crime reduction tools. 
Following these conversations, the Chief enacted the following 
policies: (1) traffic enforcement should be narrowly focused on 
hazardous driving behaviors, (2) officers should cease consent 
searches, and (3) officers should implement alternative methods for 
interacting with the community. A year after implementing these 
changes, equipment and administrative offenses fell considerably (6% 
and 9%, respectively) as did consent searches. The department reported 
that these changes coincided with a falling crime rate (5%) and 
decreased rate of accidents (10%). Police searches were more successful 
at finding contraband, that is, a 63-percentage point increase, and the 
department ceased to be identified as having a disparity in subsequent 
annual analyses.
    Another success story comes from a small urban police department 
that had been attempting to address a statewide increase in 
unregistered motor vehicles. The department began deploying license 
plate reader technology to identify and target drivers of such 
vehicles. During the follow-up intervention, researchers identified 
this specific enforcement activity as being the largest contributor to 
the department's observed disparity. The underlying belief from police 
administrators was that poverty was the true culprit of this disparity 
due to increases in the state's registration fees. Thus, most of this 
enforcement activity was concentrated in lowest income neighborhoods 
where residents were largely Hispanic. Researchers used the 
department's geographically mapped traffic stop data to demonstrate 
that this enforcement activity was the driver of their disparity and 
that registration violations were actually being found at similar rates 
in many other areas of their community. As a result of the 
intervention, the department employed a more broad-based and equitable 
deployment of their license plate readers that helped to mitigate the 
disparity in the proceeding years. This department's high search rate 
and observed disparities in stop outcomes were significantly reduced 
and this department was not identified in any subsequent reports 
following the intervention.
    A third success story comes from a suburban community located 
outside of Connecticut's capital city of Hartford. During the 
intervention, researchers identified that defective lighting violations 
were a primary driver of the department's disparity. In fact, nearly 
40% of the traffic stops in this department were for a defective 
lighting violation. In discussions with the department, police 
administrators attributed the lighting violations to a roving DUI 
patrol largely enacted based on concerns about college students from a 
local university. Researchers presented these administrators with data 
suggesting only one of the 1,608 traffic stops made for defective 
lighting violations that year had actually resulted in the driver being 
charged with a DUI. In fact, drivers had been significantly more likely 
to be charged with a DUI offense when stopped for speeding violations. 
As a result of the intervention, the department altered their DUI 
strategy and reduced the use of defective lighting violations as a 
reason to stop cars, specifically to look for drunk drivers. The 
department went from 1,608 defective lighting stops during the study 
period to 671 in the year following the intervention. This new approach 
resulted in both more effective enforcement and mitigated the disparity 
in subsequent years. Since the disparity was largely driven by a 
disproportionate number of minorities stopped for defective lighting, 
the observed disparity was significantly reduced, and they were not 
identified in subsequent reports following the intervention.
    These examples highlight the benefits of Connecticut's hands-on 
approach for identifying the underlying drivers of disparities and 
finding strategies to help mitigate it. Engaging stakeholders 
throughout the intervention process has allowed racial and ethnic 
minority advocates, law enforcement, academics, and government 
officials to come together in ways unimaginable even a decade ago. What 
previously had been a war of anecdotes has been transformed into a 
constructive data-driven conversation about policy. Stakeholders and 
policing administrators now regularly attend panel conversations around 
the state and speak in similar tones about the statewide effort. The 
vitriol is gone from most conversations and has been replaced by a 
focus on what more can be done.
                               Conclusion
    The section 1906 program has been critical to the success of the 
Connecticut model. It has allowed our state to dive headfirst into an 
emotional, and often traumatic, conversation and create meaningful and 
measurable reform by positively addressing both equity and safety in 
traffic enforcement--all with the stakeholders at the helm. We are 
eager to share our experience in Connecticut with other states looking 
to best utilize future program funds and stand prepared to assist any 
other state looking to develop similar programs.
    We urge the reauthorization of the section 1906 program so that 
Connecticut can continue to make progress on racial equity in traffic 
enforcement while also improving traffic safety. I would also ask that 
you consider providing additional baseline resources to both ensure 
that any new state considering adoption of this program can meet 
today's challenges and to allow current states utilizing the program to 
advance the progress made in recent years. Additionally, I ask that you 
consider expanding the use of program funds beyond data collection and 
analysis efforts--much in the spirit of the original 1906 funding 
parameters. States would benefit from the ability to provide relevant 
police training, community engagement/outreach initiatives, and the 
collection and analysis of other state specific data, such as 
pedestrian stops, bicycle stops, and community satisfaction surveys.
    Thank you for the opportunity to share our experience and I look 
forward to working with the committee as it considers the 
reauthorization of this program.

    Ms. Norton [presiding]. Thank you very much, Mr. Barone. In 
fact, your program is of special interest to me since my bill 
established the section 1906 program.
    I want to call on the last witness, Dr. Rashawn Ray, 
professor of sociology, University of Maryland.
    Mr. Ray. Chair Norton, Chair DeFazio, Ranking Member Davis, 
distinguished members of the committee, in particular 
Representative Brown, thank you for the opportunity. We have 
heard a lot about the disparities that exist in traffic stops. 
I want to talk about our virtual reality program to improve 
equity and objectivity in policing at traffic stops.
    As you see here, there is an image of an officer in our 
lab.
    [Slides shown.]
    Mr. Ray. We put officers in a virtual reality environment 
where they encounter the sort of scenarios that they do every 
single day, traffic stops, but other types of programs.
    We have four major objectives: to improve decisionmaking 
and reduce bias; evaluate how stress, sleep, and travel affect 
judgment and behavior--these are factors that are oftentimes 
underemphasized, but our research in the lab for applied social 
science research at the University of Maryland suggests that 
they matter quite a bit; provide tools and metrics to improve 
interpersonal dynamics and cross-cultural awareness, and then 
offer recommendations from our research that can reduce 
conflict and misunderstanding.
    We have developed over 100 virtual reality scenarios: 
suspicious person scenes, domestic scenes, robbery scenes. But 
I am going to double down on focusing on pullover scenes in 
traffic stops for the purposes of this hearing.
    Officers encounter people that vary by race, by gender, by 
language. We went out with law enforcement in the State of 
Maryland; you can see here officers showing us where they 
stand. You see a police car in the back as if he pulled someone 
over. You see that there is traffic going by on a busy street--
really, mimicking the sort of scenarios that they go through.
    When officers go into the VR and they pull someone over, 
they are given a series of prompts. Those prompts ask them, do 
they want to run a driver's license? If they say yes, they see 
a series of additional prompts talking about, do you want to 
dismiss the driver with a warning? Do you want to give a 
citation? Do you want to investigate further?
    When they investigate further, they are able to look into 
the vehicle. They find some marijuana residue. And then they 
are asked what they want to do again. You can see on the left 
that they encounter individuals of different racial 
backgrounds. We do the same thing for gender and language as 
well. They wear the same thing. You see the officer at the 
bottom going through it.
    And we collect a host of information, not only their 
behavior and their decisionmaking, but also the participants' 
physiological outcomes, which I will say something about in a 
second; their attitudes; their demographics; the virtual 
reality actor demographics; and then the setting. Are they in a 
rural area? In an urban area? Is it busy, or is it not?
    As you see here, we are taking officers through the virtual 
reality. You see a series of metrics that I will talk about in 
a second that allow us to get beyond just the way we might 
think about the way that police officers behave, and actually 
explain why they are behaving the way they do.
    So we can collect information on weapon reaction time, so 
the way that officers are actually responding in the moment. We 
put little sensors on replica weapons. We outfit them to 
specific departments. We know when officers pull their weapon, 
when they shoot the trigger, when they put it back in their 
holster. You can see the data blown up on the right side.
    We can also track their eyes. We know exactly where they 
are looking at. Anyone who is a law enforcement officer knows 
that when they approach a vehicle, they are looking in the 
vehicle. They are looking behind it. There is research 
suggesting that they are more likely to look in the vehicle for 
certain people, less likely for others. This becomes an 
important training tool.
    We can also examine a police officer's heart rate. We put 
heart rate monitors on them. We can examine their heart rate, 
as you see in this example. Officer CP starts out interacting 
with someone. Heart rate is on the Y axis on the left. The 
seconds is on the bottom. As he starts talking, his heart rate 
increases because what the person is doing in this particular 
scenario has led to that increase. And that could also impact 
the officer's judgment.
    We are able to compare some of these outcomes. So for 
example, we could compare less experienced officers to more 
experienced officers. More experienced officers tend to be more 
stable, less stress, similar heart rates throughout, helping 
them to make better decisions.
    We can also examine their stress through speech. We put 
their audio through a voice machine, and that tells us how 
stressed officers might be.
    And then finally, we give officers a police report to fill 
out. But look. Instead of me just telling you this, I think one 
of the best things to do is to show you. What you are going to 
see is a brief demo showing you what it looks like when 
officers go through the virtual reality program. You will see 
an officer first going through what it looks like in our lab, 
and then also something that is extremely innovative, which is 
how we move beyond just working with officers in the lab to 
help local police departments end up being able to interact 
with people in person in a setting, say, with high school 
students in a school.
    So as we are pulling this up, part of what you will see is 
the officer reacting. You will not be able to hear it; I will 
narrate it through. But you will be able to see the officer 
reacting in that moment with the goggles on. This is an officer 
from the Midwest.
    [Video shown.]
    Mr. Ray. You can see that he is talking to someone, that he 
is telling someone to move. He is giving directions. So they 
are fully immersed in a 360-degree environment. But as I said, 
one of the biggest innovations as well--it is not just our 
ability to take the data, but to work with local communities to 
improve police/community relationships.
    We go into schools, work with local police departments. You 
see this officer here with a traffic stop. We bring up an 
officer and students up at the same exact time. They go through 
the same scenario. You see the officer interacting with the 
person on the screen. You see he is having a conversation with 
her.
    You will see in a second additional prompts pop up. And 
part of what it is doing is asking the same questions that I 
just showed you on the graph about what decisions that he wants 
to make. Does he want to run the license? He runs the license; 
it comes back suspended. He is asked to do additional things. 
What this officer chose to do was to allow someone to come and 
get the driver and also get the vehicle if they have a valid 
driver's license. Other officers might choose to make different 
decisions.
    We then break students up in groups with police officers 
and community members to have conversations about what is going 
on. One of the most powerful things was a student who said that 
he had never had a normal conversation with a police officer 
before that day.
    Our program is not only built to go across the country, 
which we have done in some regards, but it also helps to 
improve police/community relations.
    So thank you for your time, and I look forward to the 
questions.
    [Mr. Ray's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Rashawn Ray, Ph.D., Professor of Sociology, 
  University of Maryland; Executive Director, Lab for Applied Social 
        Science Research, and Fellow, The Brookings Institution
    Chair Norton and distinguished members of the Subcommittee on 
Highways and Transit of the House Committee on Transportation and 
Infrastructure, thank you for inviting me to testify in ``Examining 
Equity in Transportation Safety Enforcement'' regarding the ``Bias in 
Automobile Stops Act of 2021.''
    I am also a Professor of Sociology at the University of Maryland 
and the Executive Director of the Lab for Applied Social Science 
Research (LASSR). I am also a David M. Rubenstein Fellow at The 
Brookings Institution. LASSR is a research center that regularly 
partners with government agencies, organizations, and corporations to 
conduct objective research evaluations and develop innovative research 
products such as our virtual reality program with law enforcement and 
incarcerated people.
    I believe this legislation introduced by Congressman Anthony Brown 
to establish an implicit bias program in vitality important. My written 
testimony centers on how the virtual reality program we developed in 
collaboration with law enforcement and computer scientists can reduce 
bias, train officers better, and help them and the civilians they 
encounter get home to their loved ones safely.
             Research on Bias and Use of Force in Policing
    Research shows disparities in traffic stops and police use of 
force. In a comprehensive analysis of 20 states, Pierson and colleagues 
(2017) found Black and Latino drivers were more likely to be ticketed, 
searched, and arrested than White drivers. Research and policy makers 
have pursued ways to explain and reduce gaps, with many pointing to 
implicit bias as a key driver in these disparities. I believe that our 
virtual reality program is the answer and is prime to be the present 
and future of police training.
              Virtual Reality Program for Law Enforcement
    Since 2017, LASSR has developed over 100 virtual reality scenarios, 
trained and worked with over 2,000 police officers in large, midsized, 
and small departments across the country to develop and implement our 
virtual reality decision-making program for law enforcement. We also 
have hosted over 100 government officials including the Department of 
Homeland Security and had hundreds of students participate in our 
simulations to further improve its optimization. We have received 
funding from private corporations to further enhance our technological 
capabilities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Merging social science with computer science and housed in the 
College of Behavioral and Social Sciences (BSOS) and the Department of 
Sociology at the University of Maryland, this program provides a 
platform to evaluate decision-making in an immersive virtual reality 
environment. We created tactical and social simulations that are used 
for law enforcement training.
    Major objectives include:
    <bullet>  Improving objective decision making and reduce bias
    <bullet>  Evaluating how stress, sleep, and travel affect judgment 
and behavior
    <bullet>  Providing tools and metrics to improve interpersonal 
dynamics and cross-cultural awareness
    <bullet>  Offering recommendations for future training to reduce 
conflict and misunderstanding

    Logistically, we have a virtual reality lab in the Department of 
Sociology with ample space for officers to move around and interact 
with the program. For departments outside of the DC region, we fly 
groups of officers to our lab or take our mobile program to 
departments. We train training officers on how to use the program, 
provide logistical and software support, and conduct statistical 
analysis and report back outcomes to the department. We also have set 
costs for the software, equipment, and training based on the needs of 
law enforcement agencies.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Collectively, our statistical tools allow us to integrate the 
following factors to determine what most influences decision-making 
behavior while in the field:
    <bullet>  Participants' physiological outcomes
    <bullet>  Participants' attitudes
    <bullet>  Participants' demographics
    <bullet>  Virtual reality actor demographics
    <bullet>  Environment and setting of virtual reality scenarios
                      Virtual Reality Simulations
    We developed virtual reality simulations that focus on traffic 
stops, suspicious person scenarios, domestic incidents, and robberies. 
Our virtual reality program immerses police officers with a 360-degree 
first-person view of several interactive policing scenarios. One of our 
primary scenarios entails officers interacting with drivers during 
routine traffic stops.
    Officers are instructed to talk to the drivers and make decisions 
about whether or not to charge them with infractions. Scenarios evolve 
based on officers' choices. For example, during the traffic stop, 
officers can choose to run information about a civilian's license. If 
the license is suspended, the civilian will react to this information 
and discuss it with the officer. In some of the scenarios, there is 
drug paraphernalia in the car. In this regard, officers have the 
ability to search the vehicle and even arrest the driver.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    One unique aspect of our virtual reality program is the ability to 
vary the setting and driver. Our scenarios occur in urban, suburban, 
and rural settings to better capture the experiences that police 
officers have depending on geography. The virtual reality program also 
varies the race and gender of the driver. Some of the scenarios also 
have accents (French, West African, or Spanish) with the same driver 
acting with an accent and acting without an accent. These variations 
allow for a research analysis that can determine how the setting and/or 
driver demographics may matter during traffic stops.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Most importantly, our scenarios mimic actual police encounters in a 
safe environment that allow police officers the ability to practice and 
get better. Rarely do police officers have the ability to simulate 
mundane encounters that occur regularly. Our program overcomes these 
training limitations. We also audio and video record participants 
during the simulations. In this regard, trained supervisors can review 
scenarios with participants in order to evaluate performance and to 
improve decision-making.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    By recording what officers say and what decisions they make, we 
will not only test whether setting or demographics impact officers' 
decisions, but how officers interact with civilians. Most importantly, 
we can test officer decisions at several points during the encounter. 
In the scenario shown above, officers make decisions at up to three 
points: running the driver's license, searching the vehicle, and the 
outcome of the stop. At each point, we record the severity of officers' 
actions and code the level of respect used in their responses based on 
audio (Voigt et al., 2017).
                 Attitudinal and Physiological Measures
    Upgrading traditional shoot/don't shoot scenarios, our virtual 
reality scenarios measure escalation/de-escalation, heart rate, stress 
through speech, eye movement, body movement, and the speed at which an 
officer reaches for a replica weapon. We also ask officers about their 
sleep, work, and eating habits. We analyze data, present findings, and 
write reports for police departments. The objective metrics we examine 
have the potential to provide training staff with information to help 
officers optimize their performance while in the field.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Officers Receiving Feedback

    One innovation of our virtual reality program's ability to measure 
and evaluate physiological responses. Our program includes five 
outcomes important to the public safety community: heart rate, stress 
as indicated in speech, eye tracking, body movement, and weapon 
tracking. Physiological data are linked to the stimuli so we can 
determine the exact point in time at which participants experience 
stress, what information they are attending to, and when they use force 
in a tactical situation. We can also measure what participants say, the 
tone and tempo of their speech, deference terms used in speech, and 
distance from the virtual reality character (a proxy for approach-
avoidance tendencies). Participants also complete an attitudinal survey 
that allows us to examine the impact that attitudes have on decision-
making behaviors. Additionally, a post-simulation debriefing asks 
participants questions about what they did during the interaction to 
further hone in on decision making and training goals.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Computer Program that Measures Stress through Speech
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Fitbits that Measure Heart Rate down to the millisecond
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Trackers placed on replica weapons that allow for tracking body 
                                movement
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Eye Tracking

    While public attention towards police-civilian interactions has 
tended to focus on high-profile cases like fatal shootings, less 
commonly examined are more routine interactions civilians have with 
police (i.e., traffic stops). Civilians from racial and ethnic 
minorities feel officers are less respectful to them during these 
interactions (Engel, 2005; Lundman & Kaufman, 2006). This may 
contribute to decreased trust in law enforcement among Black and Latino 
Americans compared to White Americans (Morin & Stepler, 2016; Ong & 
Jenks, 2004; Skogan, 2006; Tyler, 2005). This loss of trust has serious 
implications; civilians who doubt the legitimacy of law enforcement are 
less likely to obey the law (Tyler, 2006).
    We focus on officer respect and discretionary behavior during 
traffic stops, as these interactions represent the only contact many 
people have with law enforcement (Eith & Durose, 2011; Langton & 
Durose, 2013). This makes them particularly consequential. Each 
incident represents an opportunity to bolster or undermine trust in law 
enforcement. Officers have discretion in these situations to pursue 
actions with more or less severe consequences for civilians (McCartney 
& Parent, 2015; Lipsky, 2010). For example, an officer who pulls over a 
civilian for driving over the speed limit might lawfully give the 
civilian a verbal warning, a written warning, or a citation. What 
option the officer chooses is up to their discretion. Discretion is not 
inherently problematic and is in fact necessary to prevent the criminal 
justice system from being overwhelmed with minor crimes (McCartney & 
Parent, 2015). Problems arise when officers (unintentionally or not) 
apply discretion and respect differently across groups (Ridgeway, 
2006).
          Organizational Capacity and Administrative Structure
    LASSR is at the forefront of cutting-edge social science research 
that links to technological innovations like virtual reality in order 
to make research more applied and palpable. LASSR has three spaces: a 
conference suite and two lab spaces including five private, virtual 
reality rooms and a large virtual reality suite outfitted for 
interactive and movable virtual reality simulations. addition to 
facilitating the design and relevancy of social science research by 
forging connections with policy makers, organizations, corporations and 
local communities, LASSR provides trainings and teaching modules for 
continuing education and upgrading existing programs and organizations. 
LASSR provides dissemination plans for programmatic expansion and 
community outreach and has the capacity to conduct large-scale 
quantitative studies, focused experiments, and smaller qualitative, 
interview-based studies. LASSR produces evaluations and strategies for 
highlighting successes and addressing shortcomings.
    LASSR's administrative structure includes an Executive Director, 
Lab Coordinator, Postdoctoral Fellows, Graduate Research Assistants, 
Undergraduate Research Assistants, and Law Enforcement Consultants. 
LASSR has Faculty Affiliates in the University of Maryland system that 
span from computer science to public health. LASSR collaborates with a 
series of policy and community partners including elected officials, 
policy makers, community, health, and education organizations, and 
police departments. LASSR is housed in the Department of Sociology in 
the College of Behavioral and Social Sciences at the University of 
Maryland. We can be contacted at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5f9f4e6e6e7f5c0d8d19bd0d1c09b">[email&#160;protected]</a>
                              Bibliography
Aldrete, G. (2004). Latino Immigrant Perceptions about the U.S. Police: 
        An Exploratory Study. (Unpublished master's thesis). University 
        of Nebraska at Omaha, Omaha, NE.
Ariel, B., Farrar, W. A., & Sutherland, A. (2015). The effect of police 
        body-worn cameras on use of force and citizens' complaints 
        against the police: A randomized controlled trial. Journal of 
        Quantitative Criminology, 31, 509-535.
Burns, P., & Gimpel, J. G. (2000). Economic insecurity, prejudicial 
        stereotypes, and public opinion on immigration policy. 
        Political Science Quarterly, 115, 201-225.
Berg, J. A. (2009). Core networks and whites' attitudes toward 
        immigrants and immigration policy. Public Opinion Quarterly, 
        73, 7-31.
Correll, J., Park, B., Judd, C. M., Wittenbrink, B., Sadler, M. S., & 
        Keesee, T. (2007). Across the thin blue line: Police officers 
        and racial bias in the decision to shoot. Journal of 
        Personality and Social Psychology, 92, 1006-1023.
Dai, M., Frank, J., & Sun, I. (2011). Procedural justice during police-
        citizen encounters: The effects of process-based policing on 
        citizen compliance and demeanor. Journal of Criminal Justice, 
        39, 159-168.
Eith, C., Durose, M. (2011). Contacts between police and the public, 
        2008 (NCJ 234599). Special report prepared by the Bureau of 
        Justice Statistics. Washington, DC.
James, L., James, S. M., & Vila, B. J. (2016). The Reverse Racism 
        Effect: Are cops more hesitant to shoot Black than White 
        suspects?. Criminology & Public Policy, 15, 457-479.
Jennings, W. G., Fridell, L. A., & Lynch, M. D. (2014). Cops and 
        cameras: Officer perceptions of the use of body-worn cameras in 
        law enforcement. Journal of Criminal Justice, 42, 549-556.
Jonathan-Zamir, T., Mastrofski, S. D., & Moyal, S. (2015). Measuring 
        procedural justice in police-citizen encounters. Justice 
        Quarterly, 32, 845-871.
Judd, C. M., Westfall, J., & Kenny, D. A. (2012). Treating stimuli as a 
        random factor in social psychology: a new and comprehensive 
        solution to a pervasive but largely ignored problem. Journal of 
        Personality and Social Psychology, 103, 54-69.
Langton, L. & Durose, M. (2013). Police behavior during traffic and 
        street stops, 2011 (NCJ 242937). Special report prepared by the 
        Bureau of Justice Statistics. Washington, DC.
Lundman, R. J., & Kaufman, R. L. (2003). Driving while black: Effects 
        of race, ethnicity, and gender on citizen self-reports of 
        traffic stops and police actions. Criminology, 41, 195-220.
Martinez, R. (2007). Incorporating Latinos and immigrants into policing 
        research. Criminology, 6, 57-64.
Mastrofski, S. D., Jonathan-Zamir, T., Moyal, S., & Willis, J. J. 
        (2016). Predicting procedural justice in police-citizen 
        encounters. Criminal justice and behavior, 43, 119-139.
McCartney, S., & Parent, R. (2015). Ethics in law enforcement. 
        Victoria, BC: BCcampus. Retrieved from http://opentextbc.ca/
        ethicsinlawenforcement/
Menjivar, C., & Bejarano, C. (2004). Latino immigrants' perceptions of 
        crime and police authorities in the United States: A case study 
        from the Phoenix Metropolitan area. Ethnic and Racial Studies, 
        27, 120-148.
Michelson, M. R. (2001). Political trust among Chicago Latinos. Journal 
        of Urban Affairs, 23, 323-334.
Morin, R., & Stepler, R. (2016, September 29). The racial confidence 
        gap in police performance. Pew Research Center. Retrieved from: 
        https://www.pewsocialtrends.org
Mucchetti, A. E. (2005). Driving while Brown: A proposal for ending 
        racial profiling in emerging Latino communities. Harvard Latino 
        Law Review, 8, 1-33.
Ong, M., & Jenks, D. A. (2004). Hispanic perceptions of community 
        policing: Is community policing working? Journal of Ethnicity 
        in Criminal Justice, 2, 53-66.
Pierce, S., & Selee, A. (2017). Immigration under Trump: A Review of 
        Policy Shifts in the Year Since the Election. Washington, DC: 
        Migration Policy Institute.
Pierson, E., Simoiu, C., Overgoor, J., Corbett-Davies, S., 
        Ramachandran, V., Phillips, C., & Goel, S. (2017). A large-
        scale analysis of racial disparities in police stops across the 
        United States. Arxiv.org
Plant, E. A., & Devine, P. G. (1998). Internal and external motivation 
        to respond without prejudice. Journal of Personality and Social 
        Psychology, 75, 811.
Reaves, B. A. (2015). Local police departments, 2013: Personnel, 
        policies, and practices (NCJ 248677). Report prepared by the 
        Bureau of Justice Statistics. Washington, DC.
Ridgeway, G. (2006). Assessing the effect of race bias in post-traffic 
        stop outcomes using propensity scores. Journal of Quantitative 
        Criminology, 22, 1-29.
Shear, M. D., & Benner, K. (2018, June 18). How anti-immigration 
        passion was inflamed from the fringe. The New York Times. 
        Retrieved from: https://www.nytimes.com
Skogan, W. G. (2016). Citizen satisfaction with police encounters. 
        Police Quarterly, 8, 298-321.
Smith, M. R., & Petrocelli, M. (2001). Racial profiling? A multivariate 
        analysis of police traffic stop data. Police Quarterly, 4-27.
Tausczik, Y. R., & Pennebaker, J. W. (2010). The psychological meaning 
        of words: LIWC and computerized text analysis methods. Journal 
        of Language and Social Psychology, 29, 24-54.
Theodore, N., & Habans, R. (2016). Policing immigrant communities: 
        Latino perceptions of police involvement in immigration 
        enforcement. Journal of Ethnic and Migration Studies, 42, 970-
        988.
Tyler, T.R. (2005). Policing in Black and White: Ethnic group 
        differences in trust and confidence in the police. Police 
        Quarterly, 8, 322-342.
Tyler, T.R. (2006). Why people obey the law. New Haven: Yale University 
        Press.
Tyler, T.R., & Huo, Y. (2002). Trust in the law: Encouraging public 
        cooperation with the police and courts through. Russell Sage 
        Foundation.
Voigt, R., Camp, N. P., Prabhakaran, V., Hamilton, W. L., Hetey, R. C., 
        Griffiths, C. M., et al. (2017). Language from police body 
        camera footage shows racial disparities in officer respect. 
        Proceedings of the National Academy of Sciences of the United 
        States of America, 114, 6521-6526.
Wegener, D. T., & Petty, R. E. (1997). The flexible correction model: 
        The role of naive theories of bias in bias correction. In 
        Advances in Experimental Social Psychology (Vol. 29, pp. 141-
        208). Academic Press.

    Ms. Norton. Thank you, Dr. Ray. To hear those innovations 
was very enlightening. We will proceed to questions now, and I 
recognize myself for 5 minutes.
    Mr. Barone, I mentioned your program in my own opening 
remarks. I championed section 1906, and so I would like to hear 
more about how it is operated and why it has been successful in 
Connecticut against racial profiling. Apparently, you simply 
did not treat your findings as evidence of wrongdoing. That is 
where you began.
    What are some of the outcomes you have been able to achieve 
in Connecticut to address racial disparities in traffic stops 
using this approach: no wrongdoing using the Connecticut 
program?
    Mr. Barone. Thank you for the question, Chair Norton, and 
thank you for your continued support. The success of this 
program has largely been the result of two factors. One is a 
statewide creation of an advisory board of stakeholders that 
have met monthly for the better part of 8 years to try and 
tackle this issue.
    The second thing that has led to the success of this 
program are departmental interventions. We have often seen, 
across the country, researchers come in, do a statewide study, 
and simply point the finger at police agencies, tell them they 
have a problem, and not help them figure out what is driving 
that problem or help them determine what solutions they can 
implement to address that problem.
    And so we felt that it was our obligation as researchers 
not to simply point the finger at law enforcement and walk 
away. So we spend our time now identifying agencies that 
require our attention, and we go in and we work with those 
agencies along with community stakeholders to try and better 
understand what are the factors driving disparities. I will 
give you one example to put a finer point on it.
    We had an agency in Connecticut that had a significant 
racial disparity being driven by their use of low-level 
lighting enforcement. They made 1,608 traffic stops in a 12-
month time period for defective lighting, and they had 
articulated that it was part of their roving DUI patrol.
    They were looking for drunk drivers without ever having 
realized that out of the 1,608 stops for low-level lighting 
violations, they had only identified 1 drunk driver. But in 
fact, they were much more successful at identifying drunk 
drivers when they use techniques that did not have racial and 
ethnic disparities in the outcomes and were more likely to 
identify drunk drivers like certain hazardous moving 
violations. That level of analysis, those levels of 
conversation, and that level of intervention in that case is 
what has led to reforms in that agency.
    We have been fortunate to do 28 departmental interventions 
out of 107 agencies in the State of Connecticut and we have 
made findings in all 28 agencies and helped all 28 agencies 
improve the outcomes of their stops as a result of those 
interventions, and us staying at the table with stakeholders 
throughout the process.
    Ms. Norton. Mr. Barone, I would like to know whether or not 
other States have been able to replicate the model you have 
achieved in Connecticut and with the same level of success. And 
I would like to know about how much funding? Do you believe you 
could do more with additional Federal investment, or is funding 
just not an issue here? Could you answer those two questions?
    Mr. Barone. Yes. So currently, three States have 
replicated, to some version, the Connecticut model: Rhode 
Island, California, and Oregon, all to great success, the same 
type of approach--stakeholders, research, departmental 
intervention.
    The reality is that the funding is not nearly enough. Every 
State that applies for this funding receives a $375,000 grant a 
year. And in these challenging fiscal times--previously in 
Connecticut, for example, we were fortunate to have funding 
offset by State money which in recent years has dried up. And 
obviously, in larger States like California and Oregon, that is 
challenging as well.
    Ms. Norton. Thank you very much, Mr. Barone. And your 
testimony that it has been replicated suggests to me that this 
committee would want to do more to see that it is replicated 
in--you say three States--in even more States. So I very much 
appreciate that testimony regarding this innovation and would 
like to now yield to the ranking member of the full committee, 
Mr. Davis.
    Mr. Davis. Thank you, Madam Chair, and I appreciate the 
opportunity to hear from our witnesses.
    Mr. Sandigo, as a former district staffer yourself, a 
former district staffer to Mr. Stanton, being a former district 
staffer myself, I understand the impact you would have had 
working with him and I wish you the best in your new position.
    Ms. Ramsey Hawkins, what a tragic story for you and your 
family. And I am just glad you are able to share it with us 
today, especially since it is personal for me. I was hit by a 
drunk driver when I was 12. My ex-brother-in-law and I found 
out that a Lincoln Continental in the early 1980s far 
outweighed a Ford Maverick in the early 1980s. And we learned 
the hard way, but we were both lucky enough to survive.
    And it is interesting. Times have changed based upon a lot 
of the investments that have been made into programs that NHTSA 
is in charge of that would change the enforcement of drunk 
driving back in 1982. And because of the advocacy of groups 
like Mothers Against Drunk Driving, we are in a much different 
position to ensure that everyone, regardless of race, 
ethnicity, or any other possible bias, are going to face the 
consequences for their actions. And it is because of 
organizations like yours and advocates like you that that 
continues. We need to continue to fund NHTSA programs that are 
obviously working.
    But my questions go to Ms. Martin. And again, Ms. Martin, 
great to talk with you yesterday. Thanks for the time today. 
One of the items you touched upon in your testimony is drug-
impaired driving. Can you elaborate on the concerns of the 
National Safety Council when it comes to drugged driving?
    Ms. Martin. Yes. Thank you for that question. Today nearly 
30 people die on our roadways from crashes related to alcohol-
impaired driving. But we also know that alcohol is not the only 
impairment that an individual driver might be under--things 
such as fatigue, distraction, as we heard in the opening 
comments, and also, more recently, marijuana. So anything that 
has a human being not being on par driving should be of our 
concern.
    Twenty-eight percent of all people who die in crashes were 
involved in some kind of alcohol-related activity. So we do 
know this is one of the most important things that we can 
double down on, making sure that drivers are not impaired.
    We heard in the testimony about technology that is 
available to be put in cars to ensure that drivers are not 
drunk. I will share, though, with marijuana it is a new 
challenge for us because we need new technologies to be able to 
understand whether somebody is impaired at that time as more 
and more States legalize or decriminalize marijuana.
    Mr. Davis. Well, and I am glad you brought that up. That 
leads me to my next question. I am from Illinois. Illinois 
legalized recreational marijuana. I support States being able 
to do that. My legislature in Illinois decided that was the new 
law of the land. But we have to make sure that we do the 
research necessary to keep our roadways safe.
    Now, you mentioned to me yesterday some of the concerns 
that are being brought forth in regards to how to develop a 
test that could possibly put THC levels in. But you also 
mentioned some concerns about that being the barometer. Can you 
expand on this for the subcommittee?
    Ms. Martin. Yes. Thank you, sir. So today we know in 
alcohol, we can do a blood alcohol level, and States have their 
regulations around that that have been very effective, to have 
a car-side or other kinds of interventions to understand how 
much alcohol is in someone's system.
    For THC or cannabis, it is a little more challenging. We do 
not have that technology today that, roadside, could say 
definitively that the amount of drug in your system is causing 
a certain level of impairment. People are working on it. But in 
the meantime, one of the technologies or techniques that are 
used to ensure that we understand the impairment of an 
individual is called a drug recognition expert.
    And these are law enforcement individuals who are trained 
to be able to determine impairment, regardless of doing 
anything with actual substance in the body. So that is really 
important, that we not only have those training programs, we 
increase funding for those training programs, and make sure 
that we have them across our Nation.
    Mr. Davis. Well, thank you very much for helping to explain 
that issue, too.
    Last question: If this committee decides to address the 
issues of bias and equity by prohibiting States from using 
NHTSA grant funds for enforcement activity, what effect will 
that have on roadway safety?
    Ms. Martin. The National Safety Council is very supportive 
of law enforcement and all kinds of enforcement-related 
programs. And the NHTSA grant programs have been critical to 
that. So we definitely encourage that those problems be 
remained in place and that they be focused on the techniques 
and the remediations that we know really, truly can have more 
safety on our roads, and we would encourage, in law 
enforcement, enforcement alternatives to be part of that 
program.
    Mr. Davis. Thank you, and thank you again, all the 
witnesses.
    Madam Chair, I yield back the balance of my time.
    Ms. Norton. Thank you, Mr. Davis.
    I recognize now Ms. Johnson of Texas.
    Ms. Johnson of Texas. Thank you very much. I appreciate the 
fact that we have great witnesses, and would like to thank them 
and also thank you for the hearing.
    I would also like to ask unanimous consent to put my 
opening statement in the record.
    Ms. Norton. So ordered.
    [Ms. Johnson of Texas' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Madam Chair, please allow me to thank you and the subcommittee for 
holding this hearing on ``Examining Equity in Transportation Safety 
Enforcement.'' The purpose of this hearing is to examine the role of 
enforcement in supporting traffic safety, and associated equity 
implications.
    Transportation safety is a critical issue that encompasses multiple 
areas. I am concerned about the equitable enforcement of traffic safety 
laws. Racial profiling and the consequential mistrust of law 
enforcement has to be met with meaningful solutions to keep the peace 
and ensure fairness.
    In Dallas and throughout our country, we are tackling the issue of 
racial profiling in traffic stops. Currently, many traffic safety laws 
are enforced by State and local law enforcement agencies. According to 
researchers at Stanford University, law enforcement makes approximately 
50,000 traffic stops nationwide on an average day. More than 20 million 
drivers are pulled over each year, making traffic stops one of the 
primary interactions between the public and law enforcement.
    The use of enforcement to promote traffic safety raises significant 
equity implications. Researchers analyzing traffic stop data from 
across the U.S. have confirmed that law enforcement pull over minority 
drivers at a higher rate than white drivers. In 2013, the National 
Institute of Justice stated that, ``research has verified that people 
of color are more often stopped than whites.'' If we know this to be 
true, now is the time to eliminate this insidious problem.
    I understand that last year, researchers at Stanford University 
published a first of its kind analysis of over 100 million traffic 
stops conducted nationwide. The study found that black drivers were 
less likely to be stopped after sunset, when a `veil of darkness' masks 
one's race, suggesting bias in stop decisions and that the bar for 
searching black and Hispanic drivers was lower than that for searching 
white drivers. According to the researchers' analysis, evidence shows, 
``that the decisions about whom to stop and, subsequently, whom to 
search are biased against black and Hispanic drivers.'' Not only is 
racial profiling unconstitutional, if an individual is stopped for 
reasons other than traffic safety problems then law enforcement 
resources are not maximized to enhance safety.
    Madam Chair, I am committed to both fighting systemic injustices in 
transportation safety enforcement and ensuring that our streets and 
highways are safe for everyone.

    Ms. Johnson of Texas. Ms. Martin, I understand that the 
National Safety Council is America's leading nonprofit safety 
advocate and has been so for over 100 years. You documented 
that people of color are disproportionately represented in 
fatal crashes involving people walking. For the record, to what 
do you attribute these disproportionately high numbers of 
people of color being killed by a vehicle while walking?
    Ms. Martin. Yes. It is a very important question, ma'am, 
and thank you. In a lot of communities that people of color are 
in, we do not have the same kind of safeguards in our roadways. 
We may not have sidewalks, and if communities and residents are 
using their roadway environment to walk or bicycle or use 
pedestrian-related approaches to get where they need to be for 
their job, for their healthcare, for whatever they need, they 
are at higher risk.
    Some of the data has also shown, unfortunately, that 
drivers do not yield as much to persons of color, which is just 
startling and alarming. And then again, data sets us free, as 
we heard from Connecticut, understanding what is really going 
on and then taking actions.
    But not all roads are created equal, and we need to look in 
the communities where we are seeing higher fatalities and 
injuries and look at how the roads and roadway infrastructure 
is being used, and ensure we put the investment where we know 
we have the highest risk factors.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Barone, in your testimony you stated that ``disparities 
in the criminal justice system, particularly police 
enforcement, have been a major source of political protest and 
social unrest in the United States. Motor vehicle enforcement 
is a common focus of these conversations since it is the 
public's most frequent interaction with law enforcement.''
    What role does the collection of data play in equity and 
transportation safety enforcement in combatting racial 
profiling?
    Mr. Barone. Thank you for the question, Representative. I 
can tell you that in the absence of data, we have been having 
these conversations anecdotally and people have come forward 
with their experiences, which are important to share and 
powerful, but they have often been refuted by law enforcement.
    And once the cold, hard facts are presented, we can finally 
advance the conversation, not to whether the problem exists, 
but what do we do about the problem? And when we started this 
work, for example, in Connecticut, we were still arguing over 
whether we had a problem.
    Once we finally collected the data, we could go and say, we 
cannot be arguing anymore about whether this exists. Those 
stories that people have been presenting, that they have been 
sharing over recent years, they need to be believed because the 
data supports them, which is why it is critical that we collect 
this information moving forward.
    Ms. Johnson of Texas. Well, thank you very much.
    Mr. Sandigo, is it your professional opinion and experience 
that race-based enforcement of traffic safety laws actually 
impedes transportation safety?
    Mr. Sandigo. Congresswoman, thank you for the question. 
Absolutely. I think that the distrust that happens when a 
community is subject to race-based enforcement can affect any 
interaction with future law enforcement. For example, Latino 
members of the community were hesitant to come forward as 
witnesses if they had seen something on the road; they did not 
want to interact with the sheriff's deputies because of what 
that could lead to. Same thing that if they were victims of a 
crime, they would not want to interact with the sheriff's 
deputies.
    And so the breaking of the bond between law enforcement and 
the community affected future interactions. And it also created 
distrust for citations around equipment failures because it was 
used consistently against the community to pull them over.
    Ms. Johnson of Texas. Thank you very much, Madam Chair. I 
think my time is about expired.
    Ms. Norton. Thank you very much, Ms. Johnson.
    Now going to Mr. Johnson of South Dakota.
    Mr. Johnson of South Dakota. Thank you very much, Madam 
Chair. I appreciate that. And I want to thank the panelists, 
who have offered, all of them, some compelling information for 
us to consider.
    But I could not help notice the relative scarcity of 
information we have available to us today related to Native 
Americans and people in Tribal areas. Of course, I want to 
start by calling out some good behavior.
    Madam Chair, you mentioned Tribal Governments in your 
opening remarks and thank you for that. Mr. Davis, our ranking 
member, noted Secretary-designate Haaland and our willingness 
to work with her, and of course she knows well the issues 
facing Indian Country.
    And then I do want to call out Ms. Martin, who I was 
grateful to see, on page 3 of her testimony, referenced some 
data having to do with Native American fatalities. It was the 
only reference to Native Americans or American Indians in the 
40 or 50 or 60 pages of testimony before us, and I thought it 
was important data for her to bring forward.
    I want to dive into these issues a bit more because so many 
of my friends who are American Indians have told me so many 
times that they feel invisible, even when we are talking about 
policy issues related to people of color, they feel as though 
their issues are overlooked.
    And so I do want us, as a subcommittee, to dive a little 
deeper today during my time. And of course, we know that this 
is a real issue; I would offer three data points to set the 
stage.
    First off, the National Highway Traffic Safety 
Administration notes that there were 2,958 motor crash 
fatalities among American Indians just in the years 2015 to 
2019.
    Secondly, I would note that in Ms. Martin's testimony, 
which I referenced earlier, she notes that Native American 
pedestrians are almost three times more likely to be killed or 
to be involved in a fatal crash than White Americans.
    I would commend all of you to the 2018 report Secretary 
Chao did and submitted to Congress, ``Options for Improving 
Transportation Safety in Tribal Areas.'' It is an excellent 
read. It well defines opportunities for us as Congress, as well 
as others, to make meaningful progress in this area. The 
beginning of her report notes that in some States, Native 
Americans are overrepresented in fatal crashes by as much as 
four times the general population. They are chilling 
statistics, in my mind; I am sure for many of my colleagues as 
well. And I want to use a specific example from South Dakota 
that I think might help some of my colleagues, who do not have 
Indian Country within their district, understand the challenges 
that American Indians face in this arena.
    So let me talk about the Pine Ridge Indian Reservation, 
which is served by the Oglala Sioux Tribal Police. And these 
statistics are eye-opening. First off, this is the second 
busiest law enforcement agency in Indian Country in the United 
States of America, second only to the Navajo Nation. It is, by 
my estimation, the second busiest law enforcement agency in the 
State of South Dakota.
    We are talking about their dispatch receiving 139,000 calls 
last year, which resulted in over 72,000 calls for service and 
9,000 arrests last year. I think we all probably understand 
that those numbers were down because of COVID, but still 
astronomically high. And we are talking about 2.5 million acres 
under the jurisdiction of this law enforcement agency. They 
have 43 sworn officers to govern 2.5 million acres.
    So why do I bring this up? What does this all mean? I mean, 
we are going to be dealing with law enforcement reform in the 
117th Congress. We are going to be dealing in the broader 
committee with the 5-year reauthorization of the surface 
transportation bill. These are critically important pieces of 
legislation that have a tremendous impact on the lives of 
people, of course, across America, but particularly within 
Indian Country.
    And so I just want to make sure that we do not overlook the 
lives of American Indians or those living in Tribal areas when 
we are dealing with these huge pieces of legislation. And with 
the seconds I have left, Madam Chair, I would just note one 
additional resource for my colleagues.
    Last year in August I sent a letter to Speaker Pelosi and 
to Leader McCarthy that outlined some investments that we in 
Congress can make to address these law enforcement and 
transportation safety issues in Indian Country. I would ask for 
unanimous consent to have it entered into the record of today's 
proceeding, and I believe I have a physical copy there in the 
room, ma'am.
    And with that, I would yield back, and thank you.
    Ms. Norton. So ordered, Mr. Johnson.
    [The letter referred to follows:]

                                 <F-dash>
Letter of August 13, 2020, from Hon. Dusty Johnson, a Representative in 
 Congress from the State of South Dakota, Submitted for the Record by 
                              Hon. Johnson
                                                   August 13, 2020.
Hon. Nancy Pelosi,
Speaker,
U.S. House of Representatives H-232, The Capitol, Washington, DC.
Hon. Kevin McCarthy,
Minority Leader,
U.S. House of Representatives H-204, The Capitol, Washington, DC.

    Dear Speaker Pelosi and Leader McCarthy,
    In the face of civil unrest following the death of George Floyd, 
many in Congress have shown a desire to work in a bipartisan way to 
enact change. As we continue the important task ahead of us, I urge you 
to not forget the unique disparities Native Americans face within the 
justice system.
    Because of their political status with the United States, Native 
Americans have a different relationship with the federal government 
than any other people group in the United States. As a result of 
various treaties, the federal government is obligated to provide 
certain services to tribes. In the present day, tribal justice systems 
primarily are organized under self-determination contracts (638 
contracts) or are directly administered by the Bureau of Indian Affairs 
(BIA). These arrangements are often fraught with funding shortages and 
bureaucratic hurdles.
    In my conversations with tribal leaders, they have identified the 
following areas for reform. We must not forget these critical needs as 
we work to make the justice system more equitable for all.
    Recruitment and retention of law enforcement officers: Tribal 
police departments experience tremendous difficulty in recruiting 
qualified officers. Furthermore, even after qualified officers have 
been hired and trained, it is difficult to retain these officers. 
Congress should ensure qualified officers are sufficiently compensated, 
with benefits. Additionally, if a tribal police department invests time 
and money in training officers, those departments should be made aware 
of their ability to offer incentives to officers to mitigate turnover 
in their department.
    Establishment of Northern Plains Federal Law Enforcement Training 
Center (FLETC). Recruiting and retaining qualified tribal law 
enforcement officers would be helped by establishing a FLETC location 
in the Northern Plains. Currently, tribal officers must travel to 
Artesia, New Mexico for 16 weeks of training. The length of the program 
and the distance from friends and family discourages many from becoming 
tribal law enforcement officers.
    Organizational accountability and transparency. Tribal leaders have 
voiced concerns about lack of responsiveness from employees within BIA 
Office of Justice Services (OJS). Additionally, there is concern about 
lack of coordination between BIA OJS and other governmental entities. 
This places unnecessary burden on tribal government officials, 
diverting staff time towards navigating the federal bureaucracy and 
away from core job duties. BIA OJS should provide Congress with a plan 
to increase coordination both within the federal government and with 
tribal governments, increase staff responsiveness, and reduce 
unnecessary bureaucratic hurdles.
    Funding for detention centers. Detention centers on tribal lands in 
South Dakota are in disrepair. Especially with the ongoing threat of 
COVID-19, Congress, in conjunction with BIA's Office of Justice 
Services (OJS), should ensure funds are appropriated and distributed to 
the tribal detention centers most in need. Additionally, the repairs 
and renovations to these detention centers must be done in close 
coordination with local leadership, to ensure that the unique needs of 
each community are met.
    Funding for treatment centers. Our law enforcement officers are 
often tasked with caring for and interacting with those deep in the 
throes of addiction. While law enforcement often go above and beyond in 
these situations, they should not be the primary caretakers of these 
individuals. Tribal governments have been asking for funding for tribal 
treatment centers for years. Congress should honor this request and 
work to reduce regulatory barriers so that these can be implemented in 
an expeditious manner.
    Racial equity. Racial equity in justice and policing is vital to 
increasing compassion and understanding in our society. There are 
several ways to move toward this. We should ensure any data points 
include indigenous people. Including them will help determine the scope 
and extent of racial disparity in police encounters. Congress should 
authorize federal funding for cultural training and indigenous conflict 
de-escalation, and law enforcement agencies should work to recruit and 
retain diverse workforces. Much of this should be done at the state and 
local level. However, the federal government can set an example by 
ensuring sufficient federal data collection and by incentivizing 
cultural training through existing grant programs.
    As we work towards racial equity in justice and policing reform, I 
urge you to consider the needs and priorities of those in Indian 
Country. I look forward to working with you to achieve these goals.
        Sincerely,
                                             Dusty Johnson,
                                                Member of Congress.

    Ms. Norton. I appreciate those statistics. I mean, people 
are far more familiar with the statistics involving African 
Americans. I had never heard the statistics you have just given 
us on Native Americans. I imagine that the way in which we are 
able to understand what is happening to Native Americans is 
that these stops occur in areas which are Native American 
areas. And I think they demand the kind of attention that I 
think your questions have raised for the subcommittee and the 
full committee.
    Mr. Johnson of South Dakota. Thank you, ma'am.
    Ms. Norton. Yes, sir.
    I would like to recognize Mr. Sires at this time. Mr. 
Sires, you are recognized for 5 minutes.
    Mr. Sires. Thank you, Chair Norton. And thank you to all 
our witnesses today.
    I believe addressing equity in the traffic safety and 
enforcement space is very important, especially since almost 70 
percent of my district speaks a language other than English at 
home. Sixty percent identify as Spanish-speaking. As a Cuban-
American in Congress, I believe it is my duty to use my voice 
to help shine a light on and combat systemic racism and 
explicit biases across the country and within our 
transportation sector.
    Mr. Sandigo, first I want to thank you for sharing the 
stories of immigrants in this country. I think it is important 
for Members of Congress and the public to hear about what 
immigrant families and minority communities experience in 
America and how these experiences are not unique but 
commonplace in this country.
    My question is to you, Mr. Sandigo. As a former chairman of 
the Community Advisory Board, can you elaborate on the specific 
reforms that were implemented and have proven to be most 
effective at increasing community trust?
    Mr. Sandigo. Thank you, Congressman, for the question. The 
use and publication of data was key for the community to 
understand what was happening. If you do not know what is 
happening, it is easy to pretend that nothing bad is going on. 
And so the data related not just to things like traffic stops, 
traffic stop length, arrests and seizures, but also things--for 
example, if someone filed a misconduct complaint, how long 
would it take to be resolved? What was the process that the 
deputy went through?
    And so that information was critical for the community to 
understand. And something that we really pressed the sheriff's 
office on was making the information accessible. So, one was 
making the information available in Spanish, and to have 
Spanish speakers be able explain it and in terms that were 
easily understood so that they did not get caught up in the 
jargon or in something that was not understandable to them.
    Mr. Sires. What else can we do? What more can we do?
    Mr. Sandigo. As I mentioned in my testimony, body-worn 
cameras were really effective in increasing community trust. It 
was something that community members heard about. It was 
something that they were interested in learning how it worked. 
What were the policies behind it?
    And it was something that they also had strong opinions on. 
So, for example, if it came out that a sheriff's deputy had 
muted the camera because they were talking strategy, community 
members would look at that as, what do you mean they get to 
mute it when they talk strategy? What are the policies and 
parameters around that?
    And so once they understood something like that, they would 
be able to engage in a higher level conversation. And I think 
also just the presence of a Community Advisory Board that was 
independent--we did not report to the sheriff; we were not 
under his jurisdiction--allowed there to be a level of trust 
that we could channel their concerns up to the right people.
    Mr. Sires. Thank you.
    Dr. Ray--are you there, Dr. Ray?
    Mr. Ray. Yes, sir. I am here.
    Mr. Sires. I am interested in hearing more about data 
gathering from virtual reality. One of the things that I 
noticed, and having been a former mayor, is that sometimes 
police officers reacted when they made a stop if somebody had a 
heavy accent, or somebody did not speak the proper English, it 
seemed that their reaction immediately turned a little bit 
hostile--in some cases, not all cases. I don't want to put 
everybody in the same mold.
    But there were many times where you almost can see it. Is 
there a way in your studies that you can detect that?
    Mr. Ray. Yes, sir. Definitely is. One of the things that we 
do, we not only vary the race agenda of the person but also 
their perceived ethnicity. We tested their faces with raters. 
And we also include language, a series of languages that we 
thought consciously about that are some of the most pervasive 
in the United States--Spanish, French, Middle Eastern, 
Mandarin, and Caribbean in terms of accents and words used.
    So in that regard, we are actually able to assess that when 
an officer interacts with someone, how do they respond to a 
person's accent? One of the biggest things we found is that 
when it is an accent or is difficult for someone to understand, 
it oftentimes enhances stress. And so how can we help to reduce 
that stress to reduce bias?
    Mr. Sires. Thank you very much. My time is up, but thank 
you very much.
    Ms. Norton. Thank you, Mr. Sires.
    Next, Mr. Guest.
    Mr. Guest. Thank you, Madam Chairman.
    Mr. Sandigo, in your testimony you speak of the use of 
body-worn cameras. I believe that this is something that is 
very important for our law enforcement to be equipped with 
body-worn cameras. And I think it is important that we make 
these body-worn cameras available to all law enforcement, 
particularly those serving in rural jurisdictions.
    We know that many large communities such as your county may 
be able to fund bodycams, but there are smaller jurisdictions, 
cities and towns, that are unable to afford this technology. A 
lot of concerns come from these smaller constituents that are 
unable to compete for some of the Federal grant funding that is 
available for body-worn cameras, many of these grants going 
toward larger urban cities than toward our rural police 
departments. And this could lead to inequity and issues as far 
as the technology that is possessed by large urban police 
departments and then smaller rural departments.
    And so my question is: Can you speak to the benefit of all 
law enforcement units having broader access to the most up-to-
date body cameras and equipment to best create transparency in 
law enforcement, and how this relates to those issues that we 
are discussing today?
    Mr. Sandigo. Congressman, thank you for the question. What 
I can speak to is how it benefitted us in Maricopa County. 
Maricopa County has urban areas, such as Phoenix, but it also 
has rural areas on the outer edges of the county. And both in 
the urban areas and in the rural areas, the use of body-worn 
cameras, the knowledge that the community have that the 
deputies had them and that they were using them.
    And we even asked, can you bring one to a community 
meeting, can you show us how it turns on, how it turns off, 
what are the parameters around it, proved to be successful in 
increasing community trust. And so both in the urban and rural 
parts of Maricopa County, it was a helpful policy.
    Mr. Guest. And would you agree that use of body-worn 
cameras protects the general public from law enforcement who 
may be physically or verbally abusive; but also, on the other 
hand, it protects law enforcement from people who may make 
claims against law enforcement that are unsubstantiated?
    Mr. Sandigo. In my experience, both the deputies and the 
community members liked the body-worn camera policy. For 
example, if there was a misconduct complaint against a 
particular officer, then it was easy to look over that 
particular footage of that particular officer to see what had 
actually happened. And so it went both ways in terms of 
perceived benefit.
    Mr. Guest. And Ms. Hawkins, I wanted to first thank you for 
being here. I have read your testimony and I heard your opening 
statement. I want to tell you how sorry we are for the loss of 
your two sons that were killed by a drunk driver. I see here 
that in this information, it looks like both individuals that 
were involved were prosecuted. I see one has already been 
released from custody and another is serving a prison sentence 
of 19 years in the custody of, I am assuming, the Louisiana 
Department of Corrections.
    And I also want to commend you on being a part of MADD. 
Mothers Against Drunk Driving is a phenomenal organization. As 
a former prosecutor, I know that MADD serves an important role 
between the prosecutor's office and law enforcement and the 
victims.
    But in looking at this, my question to you is: What should 
we be doing to be more aggressive in our efforts to remove 
drunk drivers from our streets? I know you talk a little bit 
about some of the high-visibility enforcement, sobriety 
checkpoints, saturation patrols. You talk a little bit in your 
testimony about the use of technology, both passive and active 
technology, that would be able to detect impairment. And so my 
question to you is: What should law enforcement be doing to be 
more aggressive?
    And then finally, my followup question to that is: Do you 
think that we should increase penalties for those convicted of 
drinking and driving? In many States, my State of Mississippi, 
assuming that no one is injured, before a DUI becomes a felony 
you have to have two prior DUI convictions within 5 years.
    And so I think it is important that we look at seeing what 
we can do to increase those penalties. But I wanted to ask your 
opinion on both what we should do to be more aggressive, and if 
you think there needs to be a push by Congress to increase the 
penalties for those convicted of drinking and driving.
    Ms. Ramsey Hawkins. Thank you for your questions and this 
opportunity.
    First, we have to definitely start having these 
conversations. We all have to come together at the table and 
come find that common ground. We talked today about two 
excellent programs that are working in States in bringing that 
data. We have to bridge together everything that everyone has.
    And we definitely, definitely need to increase the 
penalties that are happening for drunk driving. That is just my 
personal opinion on that, given my own personal experience. But 
it starts with communities coming together and it takes people 
like myself, the professors that are implementing these 
programs--which are excellent programs so we stand behind that, 
MADD in support--and we have got to have those conversations.
    And it starts with just talking, bringing together 
communities, law enforcement, in pushing these programs. It has 
to happen. And so once we get these things going, bring it back 
to the table, everyone brings what we have to offer, bring it 
out to the community, and that is where we go.
    Mr. Guest. Thank you. And Madam Chair, I yield back.
    Ms. Norton. I thank the gentleman, and I particularly thank 
him for his question on body-worn cameras. I have had a bill in 
for some time to have Federal officers all wear body-worn 
cameras. They are ubiquitous in the States; there is no reason 
why the Federal officers should not also have such cameras.
    Ms. Brownley.
    Ms. Brownley. Thank you, Madam Chair.
    Ms. Norton. You are recognized for 5 minutes.
    Ms. Brownley. Thank you, Madam Chair. I appreciate it. And 
I thank all who have testified today, sharing their expertise.
    I wanted to ask Mr. Barone a question. You said in your 
testimony that only 23 States had applied for the section 1906 
funding, so that is not all the States. Are the States that 
have not applied, are they resistant to collecting such data, 
or are there other reasons why these States are not applying 
for these funds?
    Mr. Barone. So we know that there are over 30 States that 
require some form of data collection with regards to 
information on traffic stops. And in my experience in talking 
to a number of States and in talking to a number of 
organizations like the Council of State Governments, which has 
networks in all the States, one of the reasons why States have 
not always taken advantage of the section 1906 program is 
largely because of a lack of knowledge and a bit of a 
disconnect.
    The section 1906 program resides in the highway safety 
offices, typically in State departments of transportation. And 
oftentimes the work that is being done in States to address 
racial disparities in policing is being done by some criminal 
justice entity. So there has been a bit of a disconnect.
    And I believe that this program would benefit from a 
technical advisor, like many DOJ grant programs are 
established, so that some entity can come in and help NHTSA get 
the word out that these funds are available, and to help States 
that, A, already collect this data utilize this funding to 
enhance their program, and B, to reach out to States that are 
not currently collecting data to build this infrastructure.
    And again, I just think that bringing in some technical 
advisor to help NHTSA on that would go a long way in getting 
more States to know about the money, to use the money, and to 
partner the transportation folks or with the criminal justice 
folks.
    Ms. Brownley. Thanks for that. And I notice that California 
is one of the States that has replicated your model. But they 
are also one of the States that have not applied for the 
section 1906 funds.
    Do you have any idea why California is not doing it? Do 
they fall into the trap that you just described?
    Mr. Barone. I have been fortunate enough to have done some 
work in California as they helped to get their program up and 
running and their law passed in 2015. And the reality is that I 
think it is what I mentioned earlier, which is that $375,000 a 
year in California, right, just does not go that far. And then 
you have got to talk about all the work that goes into applying 
for and oversight for receiving and spending the Federal 
dollars.
    It is just a challenge in California. I cannot speak for 
them, but they may have made a calculation that they have over 
400 police agencies in California that are going to be 
collecting data. And so it is a much different challenge than, 
say, we had in Connecticut, where there are 100 agencies and we 
are a smaller State. And it is one of the reasons why I would 
advocate for additional resources to be spent, that States 
could have access to, to really ensure that resources are 
provided through this program.
    Ms. Brownley. Thank you for that.
    And Dr. Ray, I have a question for you. I have heard you 
testify before, so I think what you do is extraordinarily 
important in terms of the training aspect. So in your research, 
have you studied whether the race of a law enforcement officer 
has any impact on racial bias in enforcement?
    Mr. Ray. Yes. Thank you for that question. The race of the 
officer does not matter as much as we might expect. What I mean 
by that is, what we do is we are able to examine 
comprehensively officers' implicit attitudes and their explicit 
attitudes.
    And we find that, regardless of race, that officers are 
more likely to exhibit a form of bias against Black drivers and 
Black pedestrians. And I think that is something that is 
really, really important. Now, it does not mean that we do not 
see a gap in implicit attitudes in terms of Black officers in 
particular being less likely to hold these attitudes.
    But when it plays out in the scenarios, there are a series 
of factors that race also intersects with--for example, stress 
level, sleep, whether or not they are hungry, their judgment. 
And those factors oftentimes can lead to racial bias going on 
steroids.
    So we put officers through these programs. They repeatedly 
go through. They get feedback from training officers to reduce 
the likelihood of bias and reduce objectivity when they are 
encountering someone in the field.
    Ms. Brownley. And would you say the gender or the age of a 
police officer still does not have any measurable impact?
    Mr. Ray. So age is interesting because it relates 
oftentimes to experience. Now, that does not always mean that 
we do not have older officers who are less experienced. But age 
and experience are highly correlated. We find that more 
experienced officers are much more stable when they interact 
with people, meaning more stable heart rates, more stable 
stress levels, and they tend to make better decisions.
    Gender is similar to race. When we actually look at our 
scenarios and we are able--and let me be clear. We are one of 
the first entities to be able to really examine attitudes and 
behavior. There are some that examined attitudes. There are 
some that just measure behavior. We are able to do both.
    And when we put that together, we do not see as huge of an 
impact when it comes to gender--say, women officers interacting 
with people relative to men. Instead, what we find more broadly 
in our research is that race and gender matter also within 
police departments for promotion and equitable policies, that 
then spills over into the street and leads to better 
decisionmaking.
    Ms. Brownley. Thank you so much, and I yield back my time, 
Madam Chair.
    Ms. Norton. I thank Ms. Brownley for her questions.
    I must say I was astounded to hear that there is no 
difference between Black drivers in respect to these stops. So 
that tells us that we should not simply assume where race 
stands here.
    I found that astonishing to hear, that those stops on the 
part of Black officers appear as often as on the part of White 
officers. This is the kind of testimony we need when we decide 
what to do so that we do not take race into account where it is 
not relevant.
    Mr. Nehls, you are recognized for 5 minutes.
    Mr. Nehls. Thank you, Chairman DeFazio and Ms. Norton.
    I am glad that we are having this conversation today, and 
as a former lawman for 30 years, I thought I might be able to 
share some of my experiences.
    Before I get into it, I would like to thank, personally 
thank the thousands of law enforcement officers that are 
serving our communities across this great country of ours each 
and every day under the difficult conditions, and that includes 
the Capitol Police.
    So my hat is off to those that chose law enforcement as a 
career.
    I served as sheriff for Fort Bend County from January 2013 
to 2020, for 8 years. And during those 8 years, I submitted a 
report on racial profiling to the Texas Commission on Law 
Enforcement. It was done each and every year.
    Those reports are public, and anyone can look at them. 
Every law enforcement agency in Texas that can pull someone 
over is required to submit that report.
    Now, I know Texas is not alone in requiring agencies to 
collect and publish that data. Fort Bend is a great county. It 
is the most diverse county in the entire country. That is 
according to the Rice University Kinder Institute, a very 
respected institution.
    In 2019, the Fort Bend County Sheriff's Office conducted 
22,990 stops. The 22,990 stops had zero instances of any bodily 
injury either to the deputy or the violator, and I am very 
proud of that figure.
    Now, I am not a statistician like Mr. Barone, but it was my 
observation as sheriff that in predominantly White parts of the 
county, traffic stops tended to be White. In predominantly 
Hispanic parts, they tended to be Hispanic.
    That data is available, and feel free to run regressions on 
that.
    It seems to me that if agencies are collecting and 
publishing data, it should be the Department of Justice that 
looks at it, not NHTSA. If a law enforcement agency is clearly 
demonstrating racial profiling in its data, the DOJ can enter a 
consent decree to improve policing.
    And there are 13 agency investigations which are open 
today. The DOJ should probably be the one who helps States 
start collecting the data, too.
    I will echo the comments of my colleagues and say that we 
are probably not the committee in the House best equipped to 
examine and debate this topic. NHTSA does great work on highway 
safety programs, and you have to really think about the word 
``safety.'' That is what their mission is.
    My deputies use NHTSA training on child passenger safety to 
help the parents in Fort Bend County, and believe it or not 
that program saves lives, and I support it. It has been a 
wonderful program.
    I just do not see the utility in diverting funds from 
safety programs to study things that should be the focus of 
other Federal agencies.
    Let's keep collecting the data, and let's use it to improve 
law enforcement, but let's make sure that the right tools and 
agency are being applied.
    With that being said, I have a question for Mr. Barone, and 
I am glad, sir, to see your success which Connecticut had with 
section 1906, but do you believe the Federal Department of 
Transportation is better equipped than the DOJ, the Department 
of Justice, to work with law enforcement agencies as it relates 
to racial profiling or racial bias?
    Mr. Barone. Thank you for the question, Representative.
    I can tell you that the section 1906 program has been used 
to help States grapple with this issue themselves, and that the 
Department of Justice in the case of Connecticut, oftentimes we 
have taken our data and gone to the Department of Justice and 
asked them to review things.
    But the Federal agency NHTSA does not play a role in the 
evaluating or in the establishment of the system that collects 
and analyzes data. It is designed so that States can best 
create the programs that work best for them and their 
localities.
    And so there is not a one-size-fits-all approach. The 
approach we are taking in Connecticut, although it has been 
replicated in other States, they have taken their own 
modifications to that program to best fit what meets their 
needs on a local level.
    And so I just want to be clear that the Federal agency, 
being NHTSA, really has been there to support the passing 
through of funds to allow States to do this important work.
    Mr. Nehls. As a sheriff, you know, being in law enforcement 
for 30 years, the DOJ, you have heard of consent decrees. I 
mentioned it earlier in my talk here and the 13 different 
agencies.
    And Mr. Sandigo referenced Sheriff Arpaio in Arizona with 
the racial profiling, and I believe that the Department of 
Justice investigated that. I do not believe it was DOT or 
NHTSA.
    And in Texas, this racial profiling report, it is done 
annually, and the report is very, very specific. It asks for 
race, and there may be many members on this committee, who have 
no idea what I am talking about, but it asks for race.
    Do you know on that report each and every traffic stop, the 
23,000 that I mentioned, you have to answer yes or no whether 
there was a search of that vehicle and whether there was 
consent to search that vehicle?
    I do not know if people even realize that that took place.
    Do you know there is a question----
    Ms. Norton. Could you ask the question?
    Mr. Nehls [continuing]. That you have to respond to that 
asks did the officer know the race of the violator before the 
stop even took place?
    So the point is all of the data is there in the great State 
of Texas. That data is reported to HPD-City Council. In my 
county, it was reported to Commissioners Court, and that is 
collected in the receptacle by TCOLE.
    So the information is there. So I believe that this is more 
of a local issue. If there is racial profiling being done, if 
there is bias or injustice, it would be done at the local 
level, and we should start holding our chiefs of police and 
maybe the mayors and others accountable.
    But there has to be some accountability, but I believe it 
needs to be kept at the local level. If there is criminal 
activity, the Department of Justice needs to come in and 
investigate it.
    But I think NHTSA has an enormous amount of work to do. I 
know that Ms. Martin talked about the increase of fatalities, 
and that is sad. But NHTSA is too busy right now with 
everything else to get involved in this discussion.
    Ms. Norton. The gentleman's time has long expired. I am not 
sure there was a question there, but I want to move on now to 
Mr. Brown.
    Mr. Brown. Thank you, Madam Chairwoman.
    Professor Ray, again, welcome to the committee, and thanks 
for your testimony, in which you mentioned that since 2017, the 
Lab for Applied Social Science Research at the University of 
Maryland has developed over 100 virtual reality scenarios.
    You testified that you have trained and worked with over 
2,000 police officers in large, midsize, and small departments 
across the country to develop and implement a virtual reality 
decisionmaking program for law enforcement.
    I just have a few questions. First, is this virtual reality 
program ready to scale?
    And if so, what does that look like logistically?
    Mr. Ray. Yes, sir. Thank you for the question.
    So, yes, we are prepared to scale. We have worked with 
police officers in various places around the country, I mean, 
including Maryland obviously, but North Carolina, Ohio, 
Missouri, Arkansas, Tennessee.
    What it looks like logistically, what we have done up to 
this point is we fly groups of officers into our lab, that 
space that people were able to see on the images and the 
videos.
    We take them through our program. It takes about 2 hours to 
go through. Oftentimes they will go through several scenarios.
    But we are also equipped to be virtual and with resources 
to go to specific departments. That is one of the big things 
that departments ask us. They say, ``Hey, can we get this in 
our department?''
    We say yes. Oftentimes it is a funding issue for them at 
the local level to be able to bring our equipment and what we 
do for them.
    We also have a train-the-trainer course, which people who 
are part of the Department of Homeland Security have 
participated in to train law enforcement officers to be able to 
use our program to train their own officers.
    Mr. Brown. How do you ensure the protection of information 
and data?
    You are collecting a lot of it during these scenarios. You 
outlined to the committee the types of data, and so how do you 
protect it and where is the information housed or stored? Who 
has the custody of it?
    Mr. Ray. So the data are stored on password protected 
devices at the University of Maryland. When we set this up at 
specific police departments, it is housed there in a similar 
secured data file.
    Importantly though is we really uphold confidentiality and 
anonymity. We never ask personal identifying information, no 
names, no badge numbers. Instead it is simply demographic 
information, and we examine what we do at the group level.
    Also importantly is, as Members of Congress know, at 
universities one important part for oversight is we have what 
is called Institutional Review Boards. We call them IRBs.
    For any type of research we conduct, it has to be approved 
by a committee. Oftentimes we have a series of revisions. With 
this project that has definitely been the case, and so we have 
a lot of protocols in place to protect officers.
    I have a series of police officers in my family, and I 
understand the importance of protecting their confidentiality 
and anonymity and allowing them to train in a safe environment 
so that then they can get on the street to reduce bias, to 
treat people in a way that allows them to protect and serve.
    Mr. Brown. So you mentioned the work you have done with 
Prince George's County Police Department. That is the county 
that I have the privilege of representing, at least part of it, 
along with Mr. Hoyer.
    Do you just work with departments from the Maryland area or 
are you able to offer this program to departments across the 
country?
    Mr. Ray. Yes, we are definitely able to offer it to 
departments around the country, and to date we have worked with 
departments from North Carolina, from Ohio, Tennessee, 
Arkansas, Missouri, and I should be clear that we work with 
large, medium-size, and small departments.
    That was really, really important for us. I am originally 
from Tennessee. I went to grad school in Indiana, did a post 
doc in California, and now I am in Maryland. I have lived all 
over the country, and one thing I know is that a lot of small 
and medium-size departments, particularly those in rural 
America, get left out of programs like this.
    We wanted to ensure that our program was set up where we 
would be able to work with those departments, and we do have 
the capacity to do that, to take it to scale, and with the 
proper resources, we are able to bring small departments to us, 
and for larger departments, we are able to outfit them with the 
proper equipment and technology and then provide logistical and 
software support to help them be able to use our program long 
term.
    Mr. Brown. Well, thank you, Professor Ray. And I see that 
my time is about to expire. I will abide by the time allocated 
through the rules of the committee.
    I just want to thank you for the work that you are doing at 
the University of Maryland and the work that you are doing at 
Brookings. Thank you for testifying today, and it sounds like 
this program, which is well developed, well thought out, and 
can be tailored to so many different departments, is something 
that is valuable.
    And with additional Federal funding, I am hoping to see it 
in departments across the country.
    Thank you, Madam Chair. I yield back.
    Ms. Norton. I thank the gentleman for his questions.
    And now I recognize Mr. Stauber.
    Mr. Stauber. Thank you, Madam Chair.
    I would like to echo my colleagues' frustration with this 
hearing and their sentiments highlighting our lack of 
jurisdiction in many of these issue areas.
    Additionally, it is more frustrating that we are foregoing 
important time to discuss legitimate transportation issues to 
discuss a topic that we have a solution for.
    The solution is the JUSTICE Act that I introduced last 
Congress and again earlier this month. The bill has received 
bipartisan support and will improve community policing 
standards that have been discussed during this hearing.
    It is more ironic and frustrating that the bipartisan 
JUSTICE Act was held up by Speaker Pelosi last Congress for 
purely political reasons.
    As Americans called out for justice and action, Speaker 
Pelosi took the partisan route instead of aiming for change. 
The cheap political win reared its ugly head again even when it 
came to something like improving our policing and community 
safety.
    Unfortunately, despite our fellow Americans' calls for 
action, it sounds like partisanship is the path that will be 
taken once again.
    I do appreciate many of my colleagues' sentiments during 
this hearing, both Democrats and Republicans. Many of my 
Republican colleagues have already joined my bill as 
cosponsors.
    But I would like to formally extend the offer to my friends 
on the other side of the aisle.
    It sounds like all of our intentions to improve our 
communities are legitimate and thoughtful, and we have the 
solution to improve our policing, and that is the JUSTICE Act.
    To my colleagues on the other side of the aisle, I have a 
cosponsor sheet with me today and would love if any of my 
Democratic colleagues would like to come on over or I can come 
to you to sign this piece of legislation and help institute 
real bipartisan change in our communities. I have a couple of 
clean pens as well to sign onto that bill.
    My question to any of the panelists, and by the way, I 
thank you so much for coming today. My 23 years of law 
enforcement in the third largest city in Minnesota, the city of 
Duluth, has served me well in this position.
    My question is: can any of the panelists give me their 
definition of community policing?
    Mr. Ray. I mean, I have no----
    Ms. Norton. Who is your question for?
    Mr. Stauber. Madam Chair, any of the panelists that would 
like to answer that.
    Can anyone give me their definition of community policing?
    Mr. Ray. Yes, I have no problem jumping in on his question.
    I have examined law enforcement for over a decade, and I 
mentioned before that I have law enforcement in my family.
    Community policing is not just about, say, playing 
basketball with a kid or patrolling a neighborhood, but instead 
it is about being affiliated with that neighborhood. It is 
about being a part of that neighborhood. It is about 
experiencing that neighborhood, sending your kids to that 
neighborhood, sending your kids to the school, working out at 
the gym.
    And oftentimes we see this in more affluent neighborhoods. 
Oftentimes they might be predominantly White, but we are less 
likely to see that in low-income communities that tend to be 
more communities of color.
    So I think part of what a lot of people want in the 
research that we have conducted at LASSR suggests that people 
want similar sorts of relationships with law enforcement that 
they see people in other neighborhoods having.
    And I think when we talk about community policing, it is 
also giving law enforcement certain resources to be in those 
communities. There is a large study documenting that at some of 
the largest cities around the country, their police officers, 
similar to teachers, cannot afford to live there.
    And so we need to ensure that there are certain incentives 
to help them to be in those spaces to experience the community.
    The other thing we are seeing----
    Ms. Norton. Mr. Stauber----
    Mr. Ray [continuing]. Is that minority officers are more 
likely to live in the community. White officers are not.
    Mr. Stauber. Have you read the JUSTICE Act?
    Mr. Ray. Yes, I have, thoroughly. That is one of the things 
that I do as a policy analyst, yes, sir.
    Mr. Stauber. Perfect. And what you just said supports the 
JUSTICE Act.
    So to the witnesses and my colleagues on both sides of the 
aisle, there is a real simple definition of community policing. 
Community policing is you do not police your community. You 
police with your community. It will bring lasting, trusting, 
long-term relations and help that community and help the 
officers serve the community, and the community benefits.
    It is a mutually beneficial way to police, and I think we 
have lost the community policing concept. We have to get it 
back.
    And I really, really appreciate your comments, and I 
appreciate your reading the JUSTICE Act because you told me you 
did read the JUSTICE Act. Then I believe you support the 
JUSTICE Act.
    It has tremendous legislation that needed changes even 
before you were in law enforcement.
    Madam Chair, I yield back.
    Ms. Norton. The gentleman's time has expired.
    I appreciate his questions.
    Mr. Pappas. You are recognized, Mr. Pappas.
    [No response.]
    Ms. Norton. Mr. Lamb. Mr. Lamb, you are recognized.
    [No response.]
    Ms. Norton. Mr. Auchincloss, you are recognized.
    [No response.]
    Ms. Norton. Mrs. Napolitano, you are recognized.
    Mrs. Napolitano. Chair, I do not know. I had to leave the 
meeting for a few minutes so I am not sure if this was covered 
before, but I am concerned about the test for marijuana by law 
enforcement officers.
    Do they have an effective test to be able to determine if 
there is impairment of anything, including marijuana?
    Anybody?
    Ms. Martin. Ma'am, I could take that.
    As I mentioned before, there is a lot of research going on 
right now with how best to understand if a driver is impaired 
by marijuana. It is not the same as alcohol where you can test 
somebody's blood.
    I am not a medical professional, but I have been told that 
marijuana is in your fat cells and not your blood, and it can 
stay in your body for a long time.
    So this is a challenging one, and it is one that we do need 
to get our hands around as more and more States do legalize it, 
and we know that there is an increased usage of it by folks 
that are behind the wheel.
    So right now, the most important thing is for us to 
understand if someone is impaired, and drug recognition 
experts, people trained to understand that, is probably our 
best weapon until we understand how we can have some technology 
to help us.
    Mrs. Napolitano. Anybody else?
    The question about the car being outfitted like Volvo for 
drug impairment recognition, how far are we on that research 
with cars?
    And can we impose upon the carmakers the importance of 
having [interruption to audio]?
    Ms. Martin. I can take that one as well. We are fairly 
along, as we heard from the representative from MADD, Ms. 
Hawkins. There is technology to know whether or not a driver is 
impaired by alcohol, and if they are over the blood alcohol 
level that our States demand, either a .05 or .08, that does 
exist today, and it has been used successfully in automobiles.
    So there is an opportunity to have a message and have a 
position on whether or not we want those in our vehicles today.
    Other forms of impairment, including distracted driving and 
some of the other things that cause a driver to not be on their 
par, those are challenging, too, but there are some 
technologies with cameras that some police use, and it is 
really worth us focusing on the technology and figuring out how 
we can get them into our vehicles, both commercial and 
residential, as soon as viable.
    Mrs. Napolitano. [Inaudible] how far along they are in 
implementing them in all cars and all buses and all trucks.
    How do we ensure that law enforcement is not using traffic 
safety as a tool for immigration enforcement and neglecting the 
purpose of preventing fatal traffic accidents?
    Mr. Sandigo?
    Mr. Sandigo. I am sorry, Congresswoman. Could you repeat 
the question?
    Mrs. Napolitano. Well, we have law enforcement using 
traffic safety for immigration purposes. How do we ensure that 
law enforcement is not using traffic safety as a tool for 
immigration enforcement and neglecting the purpose of 
preventing fatal traffic accidents?
    Mr. Sandigo. Congresswoman, thank you for the question.
    I think what is important is that State and local law 
enforcement agencies focus on what they do best, and so when 
they focus on increasing transportation safety, when they focus 
on enforcing State and local law, then that is what makes the 
community safer because that is what they are experts on. That 
is what they do well.
    Mr. Barone. If I can also chime in, what we have 
consistently found in Connecticut and other States we have 
worked in is that when traffic enforcement, when law 
enforcement used the traffic code to primarily focus on the 
safety of the roadways, not only is the safety of the roadways 
improved, but we see decreased racial and ethnic disparities.
    When traffic enforcement is started to be used as a crime 
reduction tool, when it starts to be used as an immigration 
tool, not only does it drive up racial and ethnic disparities, 
it also reduces trust and legitimacy in police, and it impacts 
the safety of the roadways because attention, time, and 
resources are being taken away from those stops that we know 
cause accidents and deaths.
    Mrs. Napolitano. But we do not punish any law enforcement 
agencies, not just the police officers--the agencies--for not 
following the law. How do we go about that?
    Mr. Barone. I do not have a comment on that. I mostly focus 
on the data. I know in Connecticut we have outlawed the type of 
policing practice that you are speaking about, and we have good 
success in that here in Connecticut.
    Ms. Norton. The gentlewoman's time has expired. I thank her 
for her questions.
    Mr. Balderson?
    [No response.]
    Ms. Norton. Mrs. Steel?
    Mrs. Steel. Thank you, Madam Chair and our ranking member.
    And thank you to the witnesses here.
    We all agree and support the National Highway Traffic 
Safety Administration's mission to save lives, prevent 
injuries, and reduce vehicle-related crashes.
    I know everyone on this committee supports improving 
traffic safety and also recognizes the importance of an equal 
enforcement of our laws. We can all agree that discrimination 
is anti-American and goes against everything this Nation stands 
for.
    When I was chairwoman of the Orange County Board of 
Supervisors, I created a Law Enforcement Appreciation Day. In 
Congress I remain committed to supporting our heroes. Any 
attempt to defund the local law enforcement will only lead to a 
surge in crime and unsafe communities.
    We must make sure that we are safe, and we must ensure that 
there is more training and community policing.
    I welcome a discussion about traffic safety and am proud to 
have worked with the district attorney in Orange County to 
highlight the dangers of impaired driving.
    However, the National Highway Traffic Safety Administration 
has no authority over the enforcement of traffic safety laws. 
So I am concerned that our hearing today focuses on law 
enforcement instead of safe roads.
    In Orange County, traffic and congestion are some of the 
biggest hurdles of our daily commuters. We all support safe 
roads, highway improvements, and vehicle modernization.
    On that note, I have one question for Ms. Martin. Besides 
California, how are States and cities working to reduce 
congestion?
    What improvements need to be made to ensure there are fewer 
distracted drivers on the road?
    Ms. Martin. Thank you for that question, ma'am, and I will 
take the first one on congestion.
    And road design is so important to understanding how you 
are using your roadways today and what kind of congestion you 
have, whether that is cars or pedestrians, as we have heard 
before, who are also at risk on our roadways.
    So one of the most important things is to understand where 
those congestion issues are, where your fatalities and injuries 
are, and then to partner with both your communities and your 
transportation engineers to see if there are some things that 
you can do to design those roads to be less congested and less 
deadly basically.
    And there are simple things that can be done in many 
communities that can reduce fatality rates. Some of them are in 
my written testimony, but just simple things like rotaries and 
whatnot that require people to slow down and can create a more 
safe intersection. So it is really important.
    The other thing is public transportation. Buses are one of 
our safest transportation methodologies right now in some of 
our urban areas, and making sure that those are safe and 
available to folks that feel comfortable using them and that 
they can access them easily with covered bus stops and other 
kinds of mechanisms to make sure that getting from their home 
to the bus stop is safe. Sidewalks, as I mentioned before.
    So some of those fundamentals are really important to 
addressing safety and congestion-related issues.
    When we think about distracted driving, we would really 
propose that there be some primary enforcement rules, and I 
know several folks here on the committee have endorsed 
legislation to say that drivers basically can be pulled over 
for distracted driving activities, whether it is cell phone 
usage or other kinds of operations in the vehicle.
    Those are really strong enforcements. We have talked about 
enforcement here a lot. It is an important tool to getting 
safety on our roadways, whether it is law enforcement officers 
or other alternatives. Enforcement is one way we change human 
behavior.
    And distracted driving is on the increase for all the 
reasons we heard in the opening testimonies, with technologies 
in cars, and it is really important that we address that with 
some legislation.
    Mrs. Steel. Thank you, Ms. Martin.
    Thank you, Madam Chair and Ranking Member, I yield the 
balance of my time.
    Ms. Norton. I thank the gentlewoman for her questions.
    I next call on Mr. Balderson for 5 minutes.
    Mr. Balderson. Thank you, Madam Chair.
    And thank you very much for being here.
    My question is for Ms. Ramsey Hawkins and Ms. Martin.
    But first, I would like to thank Ms. Ramsey Hawkins for 
sharing your story with us today.
    Last Congress I introduced the Drug-Impaired Driving 
Education Act with my colleague, Congresswoman Kathleen Rice of 
New York. This bill would establish an annual $5 million grant 
program for States to educate the public on the dangers of 
drug-impaired driving.
    I am proud that this bill was endorsed by both the National 
Safety Council and Mothers Against Drunk Driving, and I look 
forward to working with Congresswoman Rice and your 
organizations to continue this effort and reintroduce this bill 
in the 117th Congress.
    Ms. Martin, you note in your testimony that alcohol, 
marijuana, and opioid prevalence increased among seriously and 
fatally injured road users during the second quarter of 2020 as 
compared to the months before the public health emergency.
    I know my friend from Illinois, the ranking member of this 
subcommittee, touched on drug-impaired driving earlier, but I 
was hoping you and Ms. Ramsey Hawkins could spend a few minutes 
discussing the importance of public education campaigns on 
drug-impaired driving and the efforts your organizations have 
taken to reduce drug-impaired driving on our roadways.
    Ms. Martin. Yes, thank you for that question. This is so 
important.
    As I mentioned before, every day almost 30 people die on 
our roadways based on impaired and specifically alcohol-related 
crashes.
    It is so important that we educate on what it means to be 
impaired behind the wheel and specifically related around 
alcohol.
    Some of the things that we can do are the campaigns that we 
have had in the past and doubling down on those. During the 
pandemic, we have seen increased use of all kinds of 
substances, and we are not here to talk about opioids and other 
kinds of substance use disorders, but anxiety, mental health, 
all of these things often get exacerbated, and they are 
complementary, unfortunately, in causing people to be impaired, 
and alcohol is certainly one of those.
    All of those statistics regarding the residents of our 
Nation right now are climbing, and it is alarming because many 
of those folks, unfortunately, do get behind the wheel when 
they are under those kinds of stresses.
    So it is really important for us to get back to basics. 
That is educating; that is enforcement and some of the 
technology that we talked about before.
    Only one State in our Union here has gone to .05 for a 
blood alcohol level. That is one we support. Other states and 
other nations around the world have much more stringent 
requirements around that, and it is something that we could do 
fairly easily in our Nation, and it would have drastic positive 
impacts for us.
    Mr. Balderson. OK. I do have one followup for you. Can you 
discuss, and you have talked a little bit about this, but can 
you discuss the challenges or differences of educating the 
public on the dangers of drug-impaired driving, especially 
relating to the opioids and marijuana versus driving under the 
influence of alcohol?
    Ms. Martin. Yes, thank you.
    Our Nation has really addressed the alcohol-related driving 
issue for decades, and that is wonderful because we have made 
progress, nowhere near enough as we just heard from the opening 
testimony from Ms. Hawkins.
    No life should be lost on our roadway at all, for any 
reason, and certainly not because of an impaired driver. There 
are a lot of folks that are under misinformation that cannabis 
is not impairing or that you can drive better when you're under 
the influence of cannabis.
    So education campaigns are really desperately needed right 
now, especially as States start to legalize more across our 
Nation.
    The same goes for other substances, as you referenced, 
whether it is opioids, and those are impairing. It is why it 
says on the bottle, you know, do not operate heavy equipment. A 
car is heavy equipment.
    And we need to educate both in the general public and I 
would call on employers as a great place because many of their 
employees drive on their behalf, and roadway-related or 
vehicle-related fatalities is still the number one killer in 
our employment.
    So it is important to get their voice in this, that it is 
not just alcohol. Any substance that causes you not to be on 
par or even fatigue, which is not a substance but you are not 
on par, it means you should not be operating in a safety 
sensitive operation, and a car is one of those.
    Mr. Balderson. Thank you very much, and I appreciate your 
answers.
    Madam Chair, I yield back.
    Ms. Norton. I thank the gentleman for his questions.
    I next call on Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Madam Chair.
    I have got a question to Ms. Lorraine Martin.
    Ms. Martin, I was [interruption to audio] and can you hear 
me?
    Ms. Martin. Yes.
    Miss Gonzalez-Colon. OK. I do not know if you are aware. 
Puerto Rico has 3.2 million American citizens living there, and 
there are another 8,000 people living in the other four 
Territories.
    I think by excluding these 400,000 people we cannot have a 
road to zero if we do not have an accurate representation for 
all Americans with meaningful and complete data.
    So my first question to you is to actually ask you to 
include Puerto Rico and the other Territories in the data you 
collect for annual traffic deaths. That for me is the most 
important.
    The second, I do not know if you are aware that in Puerto 
Rico if you are more than 6 months behind or $2,500 behind in 
your child support, you can lose your license issued by your 
State.
    And my question would be do you think this should be an 
issue that Congress should resolve or that it should be left to 
the State to resolve?
    Ms. Martin. Well, thank you for that last one, and it is 
very much an important issue that we have weighed in on, this 
issue that you can use somebody's license and their ability to 
drive as something that you can have as a penalty for other 
nonroadway, nonrisky driving behavior remediation.
    We do not support that. We do think a license removal 
should be associated with driving-related incidences, not 
things like alimony or any other kind of action that a State or 
locality might be concerned with you on. Your license should 
not be the thing that we use.
    The simple fact is it often exacerbates whatever the 
problem is you are trying to solve. If somebody cannot pay a 
fine, you know, and now you are taking their car away, they 
perhaps cannot get to work or cannot get to their healthcare or 
get to the grocery store for their family, and so it actually 
increases the inequities that we are trying to address here.
    And we strongly support the Drive for Opportunity Act that 
would say that license removal really should only be done for 
unsafe driving-related practices.
    Miss Gonzalez-Colon. So how can these people who have not 
paid civil fines be incentivized to pay current fees other than 
to lose those privileges specifically?
    Ms. Martin. Yes, I am not sure I am the best person to 
answer that question, ma'am, on how to incentivize someone to 
pay a fee, but we strongly, strongly recommend that it not be 
the removal of their license.
    There has got to be other ways to assist one of our 
residents in our country of addressing those issues.
    Miss Gonzalez-Colon. You said in your testimony----
    Ms. Norton. The gentlelady's time has expired.
    Miss Gonzalez-Colon. OK.
    Ms. Norton. I now call on Mr. Burchett.
    Mr. Burchett. Thank you, Chairlady. It is Burchett, but I 
appreciate the good effort on my name. Thank you.
    Ms. Hawkins, I am a parent, as you are, and I got started a 
little later, but my heart goes out to you, and I cannot tell 
you how much that hurts me that you have lost a loved one. I 
could never, never experience anything like that, and I hope I 
never do, and thank you so much for the courage to be here, 
ma'am.
    Dr. Ray, thank you for the testimony on the innovative use 
of virtual reality technology. I would like to know who pays 
for your training. Is it the Department of Justice?
    Mr. Ray. No, sir. So we have grants that we receive, like 
any other research that we would do. So I mean, it has been 
various outlets over the years. We have had some local police 
departments that have paid for the trainings that they have 
gone through.
    We have gotten grants from nonprofits. So it has kind of 
been a hodgepodge of things, which is similar to what happens 
in the academic space.
    Mr. Burchett. Say that again. It is similar to the academic 
what?
    Mr. Ray. Just similar to how academics aim to get grant 
money. So it has been a series of entities, but it has not been 
the Department of Justice.
    Mr. Burchett. OK. Ms. Martin, are you concerned at all that 
your testimony recommends spending limited traffic safety 
funding on programs that do not have direct linkages to traffic 
safety?
    Ms. Martin. I am not clear which ones those would be, sir. 
I would say that our focus is on all of the different or a 
kaleidoscope of things we need to do to help our residents be 
safe, and those would be across what we call the four E's, and 
that is education, enforcement, which we have talked a lot 
about here today, and then engineering, technology, how we 
design our streets.
    All of those go into making sure that we have safe 
transportation for all of our residents, not just for a few.
    And on top of that we would then say the fourth E is going 
to be equity in making sure that we do enforcement, education, 
and engineering with the communities in mind that we are 
serving and understanding what their current risks are on our 
roadways.
    Mr. Burchett. OK. Chairlady, I will yield back the 
remainder of my time. Thank you.
    Ms. Norton. I thank the gentleman for his questions.
    I next recognize Mr. Auchincloss.
    Mr. Auchincloss. Thank you, Madam Chair.
    And thank you to our witnesses for being here today and for 
their commitment to equity in transportation safety 
enforcement.
    Ms. Martin, I would like to direct this line of inquiry to 
you.
    You mentioned in your testimony that people of color, older 
adults, low-income communities are underrepresented in the 
investments made in transportation improvements, and you also 
highlighted at the latter portion of your written testimony the 
importance of infrastructure investments and how we engineer 
safe streets.
    Could you speak for a minute or two about what role 
dedicated bus lanes play in improving safety, especially in 
high poverty communities?
    Ms. Martin. Yes.
    Mr. Auchincloss. Go ahead.
    Ms. Martin. Yes, dedicated bus lanes really do help to 
reduce traffic congestion, as I mentioned to the Congresswoman 
just a moment ago, but also to create the ability for the 
safest mode of operation to be used within many of our 
communities, and that is busing.
    We need to make sure that those bus access points are safe 
as well with some kind of shelters, and as I mentioned, we need 
to make sure wherever people are coming to, coming from to get 
to their bus stops, is that it is safe for them to traverse 
because they are most likely going to be on foot if they are 
taking a bus.
    So we need to look at the sidewalks, the infrastructure, 
making sure they are not having to pass highways to get to 
their bus stops, which in some communities they do.
    So it is really getting in touch with the community, 
understanding how they are going to use that public 
transportation, and making sure it is safe for them to do so.
    Mr. Auchincloss. Many of these decisions that you are 
describing about bus safety are local or State-level decisions. 
Could you address what role the Federal Government might have 
in incentivizing better decisionmaking that is informed by data 
about what we know works both in the United States and also in 
cities around the world, especially in Europe and Asia that 
have really effective bus lanes?
    Ms. Martin. They do. Some of the grant programs we have 
heard about here today with section 1906 and other programs 
under NHTSA that highlight where we know there are proven 
success stories, what we know works, and then providing Federal 
funds to help States with implementing those programs.
    I mean that is a very powerful tool. We have heard some 
testimonials here from Connecticut and other places where they 
have used those fundings, and I would endorse an increased 
funding specifically on the areas where we know best practices 
around the world have saved lives.
    Mr. Auchincloss. Many of these best practices around the 
world are focused on bus rapid transit, which has a pretty 
tightly defined scope. It has high population density. It has 
got 90-second headways. It has got on-platform or on-level 
platform boarding, off-board ticketing.
    Could you speak to which of those elements--in many areas, 
especially in my district, bus rapid transit in totality may 
not work right off the bat, but there could be elements of that 
that you could implement.
    Could you speak to maybe the most effective element of bus 
rapid transit that could be put together piece by piece for 
incremental improvements?
    Ms. Martin. Yes. It is probably best for me to get back to 
you on that one with some details. As I talked about here, I 
think the lanes are really important, as is the actual shelters 
or the access point to the bus that has become in some cases a 
high safety risk.
    So if I can take that for the record, I will get back to 
you with some additional information.
    Mr. Auchincloss. Absolutely. My office would welcome the 
opportunity to work with you on this.
    I want to raise one other modality, which is micromobility 
and protected bicycle lanes.
    And both in the public sector and in the private sector, as 
a city councilor, as a product manager in an innovation lab for 
an insurance company, I saw how effective micromobility lanes 
can be. Oftentimes putting in protective infrastructure though 
takes a backseat in transportation safety improvements, and it 
oftentimes requires taking away parking spots in cities and 
towns, which can be very unpopular.
    Can you speak to any research that you have seen or data 
that supports or does not support the idea that micromobility, 
protected micromobility lanes both enhance access to jobs and 
services and also increase safety for mobility?
    Ms. Martin. Yes, they do both, sir, and we do have research 
that shows that.
    And we are seeing more and more pedestrian fatalities, 
which we already noted in this hearing. So it is a place that 
we need to make sure that if more and more folks are using 
other mobilities, other forms of mobility, micromobility, 
whether it is scooters or bicycles or their own two feet, that 
they have to be able to do that safely.
    And the death rates are up, and we know the usage is up. So 
we would say that there are things that you can do to design 
your roadways with dedicated bike lanes, making sure you have 
sidewalks, understanding what the safety of scooters needs to 
be since that is kind of still evolving for us. All of those 
will help with mobility and help with safety at the same time.
    Mr. Auchincloss. Similar followups, is there a particular 
area where you think the Federal Government could be especially 
impactful in inducing States and cities to put in protective 
micromobility infrastructure?
    Ms. Martin. Well, the legislation called Complete Streets 
that was introduced last Congress, we would highly support 
that, and it is a great place to look.
    Mr. Auchincloss. And introduced, I believe by my home State 
Senator, Mr. Ed Markey, which I strongly support.
    Thank you, Ms. Martin, for your time, and I yield back the 
balance.
    Ms. Norton. I thank the gentleman for his questions.
    Now I am going back to Miss Gonzalez-Colon because the 
timer had stopped working, and I believe she had not finished 
her questions.
    I apologize. Miss Gonzalez-Colon, you can proceed with your 
questions.
    Miss Gonzalez-Colon. Thank you, Madam Chair.
    I was surprised that my time was expired when I was less 
than 2 minutes. And thank you for going back.
    I was making a question directly to Ms. Martin, and I will 
go back now.
    I was actually going through her testimony saying that she 
was discussing the benefits of automated enforcement as an 
evidence-based countermeasure to change driver behavior.
    However, States, such as Iowa, where this is acknowledged 
as a civil penalty without reporting tickets to law 
enforcement, and it is a means to generate revenue. Thirteen 
million photos were taken by a specific traffic camera, and 
130,000 individuals were ticketed solely by 1 traffic camera 
dubbed as a revenue camera.
    However, there are other States who treat these fines as a 
criminal charge, allowing individuals to challenge these 
tickets in court, and we can see examples of this in different 
States.
    My question will be what is the best way to address these 
cameras to elicit behavioral change rather than just raising 
revenue.
    Ms. Martin. Yes, thank you.
    And as I mentioned earlier, we do support automated 
enforcement because if it is used appropriately, it can help 
you not only achieve better behavior on your roadways because 
people do change their behavior if they know there is a camera 
that might catch them speeding or going through a red light. So 
they do relate to safety.
    But they have to be done fairly, equitably, and as I 
mentioned before, they should only be done to increase safety, 
not for revenue purposes, not for any other kind of, you know, 
actions that a municipality may be taking with their residents.
    It should be for safety and safety alone. We have a 
checklist that we give to jurisdictions, and I would be happy 
to provide it to you and others that helps you make those 
decisions, and clearly, these cameras should be put in places 
where you know you have your highest fatalities, where you have 
your highest speeders, not just in a community because you 
would like to increase enforcement there.
    Miss Gonzalez-Colon. And how would situations like this 
affect reciprocity for other means, such as tolling?
    Ms. Martin. I am sorry. The question, ma'am, please?
    Miss Gonzalez-Colon. I mean situations like that will 
affect reciprocity for other means, such as tolling?
    Ms. Martin. Oh, tolling?
    Miss Gonzalez-Colon. Yes.
    Ms. Martin. Yes. You know, I am not sure I have looked at 
that issue. I will have to get back to you on that, the 
connection between automated enforcement and tolling. Let me 
take that for the record as well, please.
    Miss Gonzalez-Colon. Thank you.
    And the last one, the last question will be to Mr. Sandigo.
    My question, and I heard the question Ms. Brownley was 
making to you and I was a little bit shocked as well.
    The Community Advisory Board came up with recommendations 
to improve racial disparities in traffic stops, right? 
Including stop lengths, search rates, citation rates, arrest 
rates, seizures rates, and the initial reason for stopping 
drivers.
    How did that information change behaviors?
    Mr. Sandigo. Thank you so much for the question.
    And I do want to clarify that the court ordered those 
reforms. The Community Advisory Board was instrumental in 
communicating that to the community and getting their feedback 
on it.
    I think what it allowed everyone to see and to know is 
where actually the disparities were happening. Was it happening 
on who they were choosing to stop? Was it happening on the 
length of the stop or who was being arrested?
    And so the fact that it looked at different factors allowed 
the agency to zero in on where the reform needed to happen.
    They also looked at whether it was an individual outlier or 
whether it was a matter of policy that needed to be addressed 
in order to implement reform in those areas.
    Miss Gonzalez-Colon. Thank you, Mr. Sandigo.
    I know that my time is going to expire now. I will just 
submit a final question. Will it be helpful if we include 
language here in the forthcoming surface transportation bill 
that makes funding either for programs more accessible than 
just seven States that can actually get access to the BAC test 
and do the 24/7 program and, you know, the blood alcohol 
counting, you know, those kind of programs?
    I do not know if we need to include that in the surface 
test. I do not know if somebody would want to add those 
comments for the record.
    I know my time expired. So I want to thank the chairwoman 
for allowing me to have my time back.
    Thank you. I yield.
    Ms. Norton. I am pleased the gentlelady could pick up on 
her time.
    As I am hearing this testimony, I am beginning to wonder 
if, for example--and we heard testimony earlier--that Blacks 
were stopped as often as Whites, and I wondered if this is 
because stops were in Black neighborhoods, in Black communities 
as opposed to stops of Blacks in communities that are White.
    That is something I will want to find out as a result of 
this hearing.
    Next I want to call on Ms. Strickland.
    I am going to go next while we wait--sorry?
    Ms. Strickland, would you unmute? Ms. Strickland, you are 
muted.
    Ms. Strickland. Can you hear me now?
    Ms. Norton. I can.
    Ms. Strickland. All right. Sorry about that. Here we are.
    Thank you, Madam Chair and Ranking Member Davis.
    Traffic safety enforcement is top of mind for many of my 
constituents at home, and not only does this testimony 
presented clearly lay out the disparities that exist 
nationwide, but its disastrous effects makes our lives unsafe 
when we drive.
    And back in Washington State, for example, there are 
legislative proposals being offered to combat the cycle of 
poverty that actually results from traffic enforcement. So this 
is a very timely hearing, and I appreciate all the comments.
    We talk about the importance of traffic stops and 
collecting data, and this is what this is about, and the grants 
that Congress can authorize to help States. It is worth noting 
that a number of third-party studies attest to the same 
results.
    A study led by Stanford University found that Black and 
Hispanic drivers get pulled over more than White drivers, 
except at night when officers have difficulty seeing drivers' 
faces.
    A San Diego State University study attested the same, as 
did a study at the University of South Carolina.
    So this is for Mr. Barone.
    From your experience, sir, what real-world differences can 
happen when States themselves maintain and make publicly 
available statistical information on each motor vehicle stop 
made by law enforcement?
    And how can the Federal Government better support our 
States by making these efforts to reduce racial bias in 
policing?
    Thank you.
    Mr. Barone. Thank you, Representative, for the question and 
a very important question at that.
    Transparency is key to legitimacy in policing, and it is 
the first step to rebuilding trust in law enforcement and the 
communities they serve.
    Beyond that, simply sharing data is step 1. Step 2 is 
having the people that know what that data says to sit down 
with community stakeholders and law enforcement and figure out 
why the data looks the way it does.
    I will tell you from our experience here in Connecticut, we 
have 107 police agencies. Every year we get our annual report. 
Starting in 2014, we saw significant racial and ethnic 
statewide disparities, and we would identify a group of 
departments that were really contributing to that disparity 
more so than others.
    We began to work with them, to have interventions with 
them, to figure out what are the factors driving these 
disparities and getting departments to make changes.
    The most recent report that we have published has shown a 
significant decrease over the last 6 years in statewide racial 
and ethnic disparities. Why? Because we have had time to 
intervene in 28 of our 107 departments, all 28 departments 
doing a little something to reduce the disparity in their 
department, which has contributed to an overall reduction in 
the statewide basis.
    So people often think this can be done overnight. There 
needs to be vigilance. There needs to be continued collection, 
continued analysis, and continued conversation.
    I know sometimes people do not want to hear this, but slow 
and steady wins the race. We have been at this thoughtfully and 
methodically in Connecticut for almost a decade now, and our 
work is finally paying off.
    The longer we wait, the longer it will pay off in other 
States, and the section 1906 program is a great place to start 
for the Federal Government to be able to support this type of 
State-level work.
    Ms. Strickland. Great. Well, thank you for that.
    And to be clear, our witnesses testified today, this is a 
safety issue. This is about safety, and when there is not 
equity in enforcement, there is one less officer getting an 
unsafe driver off the roads to protect all of us.
    So now for Ms. Hawkins or Mr. Barone or Mr. Ray, based on 
your research experience, how can addressing this issue of bias 
with data, with collecting it, with reporting and analyzing it 
actually improve our roadway safety?
    Mr. Barone. I will start and just say that we know; we now 
have lots of data that tells us when police focus on the things 
that have the biggest contribution to accidents, speeding, 
traveling too closely, talking on their cell phone, drinking 
and driving, we see very little racial and ethnic disparities 
in the data because they are focused on the violation.
    When policing starts to use traffic laws as a crime 
reduction tool, it tends to drive disparities.
    We also know that drivers commit motor vehicle violations 
at the same rate regardless of their race, and police will find 
what they are looking for where they look for it, but we know 
that they look for different violations in Black and Brown 
communities than they do in White communities.
    And in some regards we have created this self-fulfilling 
prophecy, this idea that Black and Brown drivers are more 
likely to have an administrative offense, and somehow that is 
linked to poverty.
    But we know that police run, for example, plates in Black 
and Brown communities at a significantly higher rate than they 
do in White communities to look for these administrative 
offenses.
    So the knowledge that this program has been able to do is 
to inform that, to start asking questions: why are you running 
plates here and not here? Right?
    Why are you doing speed enforcement here and not here, and 
how is that linked to traffic safety?
    And so all of this can come together, and as I continue to 
say, we can create win-win scenarios. We can improve traffic 
safety and eliminate racial disparities.
    Ms. Strickland. All right. Well, thank you, Madam 
Chairwoman. I yield back.
    Ms. Norton. I thank the gentlelady for her questions. Mr. 
Cohen, I recognize Mr. Cohen at this time.
    Mr. Cohen. Thank you. Thank you, Chair Norton. I want to 
thank you for holding this hearing and particularly on this 
Black History Month, when it is so important and most 
pertinent, as you mentioned in your opening remarks.
    Disparities in the criminal justice system, particularly 
police enforcement, have been a major source of political 
protest and social unrest in our country and rightfully so. 
There are too many instances where a routine traffic stop has 
turned into a tragic loss of life.
    Researchers confirm law enforcement officers pull over 
minority drivers at a higher rate than Caucasian drivers. My 
city of Memphis, which is 65\1/2\ percent African American and 
has a large Hispanic population as well, this is a particularly 
disturbing statistic.
    The racial profiling of drivers by law enforcement sows 
divisions and distrust and ultimately distracts from the 
intended goal to save lives, prevent injuries, and reduce 
vehicle-related crashes on our Nation's roadways for all 
individuals.
    We must do better, and we can improve and get away from 
this unconstitutional racial profiling. My Police Training and 
Independent Review Act, which will be part of the George Floyd 
Justice in Policing Act, provides resources for diversity 
training for law enforcement agencies. It is important they 
have those diversity trainings.
    This committee is engaged in this important work, and it 
includes provisions in the bills to address this issue, 
including creating grant programs for universities to conduct 
implicit bias research, reauthorizing section 1906 programs, 
which gives funding to the States to collect and analyze 
traffic stop data, and prevent racial profiling.
    I appreciate the witnesses' testimony and the insight that 
they have provided.
    Mr. Barone, let me ask you this question. Your findings 
state that Black and Hispanic drivers are stopped more 
frequently by law enforcement for vehicle equipment and 
administrative-related driving offenses despite there being no 
evidence that Black and Hispanic drivers commit these offenses 
more often than White drivers.
    Based on your experience working with law enforcement 
agencies, have you found officers believe vehicle-related 
violations correlate to dangerous driving behaviors or are they 
just an excuse to stop somebody who they might be able to make 
a collar on?
    Mr. Barone. I have found that in some regards, 
Representative, that in law enforcement we have created self-
fulfilling prophecies, right?
    So this idea that there is a connection between 
socioeconomic status and the maintenance of the equipment of 
your vehicle or administrative offenses, and therefore, when 
police are asked to go, in Connecticut for example, to ensure 
that vehicles are properly registered, they tend to go look for 
those violations where their implicit bias tells them they 
think they are more likely to find them.
    And when they run plates, for example, and they find 
unregistered vehicles, it then reaffirms what they previously 
believed.
    Yet we know if the same exposure was made, police running 
plates, for example, in predominantly White neighborhoods, we 
know that they would find administrative offenses at the same 
rate.
    And so, frankly, the conversations we have had with law 
enforcement have been informative to them as well, them 
realizing that the correlations that they thought existed do 
not necessarily exist. We have worked to help them to say what 
is the issue that you are trying to address.
    You are trying to address unregistered vehicles on your 
roads. Let's figure out the most fair and equitable way for law 
enforcement to look for those violations that you are trying to 
address.
    Mr. Cohen. Thank you, Mr. Barone. I think my time is kind 
of winding down. I am not sure.
    But I wanted to ask Ms. Martin. You addressed the issue of 
people of color in low-income communities being overrepresented 
pedestrian fatalities and underrepresented investments in their 
infrastructure.
    Mr. Auchincloss mentioned that Senator Markey, who at one 
time was a Member of the House before he moved over to the 
other body with lesser number of Members, he is the sponsor of 
the bill, which I am the sponsor of the one in the House which 
is our Safe Streets Act.
    Are you familiar with the Safe Streets Act, Ms. Martin?
    Ms. Martin. I am, and we fully support it at the National 
Safety Council.
    Mr. Cohen. What would be the areas you think we should 
prioritize in our legislation in the Safe Streets Act to see to 
it that racial misrepresentation and racial bias is eliminated?
    Ms. Martin. Yes, I think the most important thing, like we 
have said throughout this, is to get the data and to understand 
where fatalities and injuries are occurring, and then to make 
sure we understand with the community support how roadways and 
infrastructure are being used and then understand what kind of 
infrastructure enhancements, modifications can specifically 
address those hazardous areas.
    And we do not necessarily do that today. We often ``peanut 
butter'' investments across various communities. We do not 
necessarily use the data of fatalities and injuries to make our 
investment decisions.
    But it is really important that we do that because all of 
the data shows in the places that we do have it that peoples of 
color and minority communities have higher fatalities, have 
higher injuries. That is where we should be spending our money, 
and that is where we should be putting our infrastructure 
dollars.
    Mr. Cohen. Thank you, Ms. Martin.
    We hope to pass that bill this year. There is always less 
money put in the minority communities, sidewalks, shrubbery, 
different things, medians that can make the streets more 
attractive but also safer, and that is the purpose of the bill.
    And with that, it is nice to see Mr. Sandigo on here with 
his colorful background, and I yield back the balance of my 
time.
    Ms. Norton. The gentleman's time has expired, and I thank 
Mr. Cohen for his questions.
    Ms. Bourdeaux. Ms. Bourdeaux, you have 5 minutes.
    Ms. Bourdeaux, I believe you are muted. Ms. Bourdeaux, will 
you unmute yourself?
    [No response.]
    Ms. Norton. I think Ms. Bourdeaux is having audio issues. 
So I am moving on, hoping she can fix those.
    I am moving on now to Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Madam Chair.
    And it is good to see my colleague from Tennessee as well, 
Mr. Cohen.
    And just a brief comment. I think it is really great and I 
want to thank the panelists, too, that we are having this 
discussion. Thank you to the chair for having it.
    Congressman Lee and I have had a series of townhalls on 
race, in general, in the last 6 years. We had one last week 
with Reverend Cleaver, our good friend and colleague from 
Missouri, and it has just been a wonderful experience. We have 
regularly over 1,000 people join us with those townhalls.
    And I think when we have these discussions about race in 
America, as we are today, on these transportation issues, on 
law enforcement when they are open and honest and evidence-
based research, it is quite liberating, at least the feedback I 
have gotten and Congressman Lee, on our initiative.
    So specifically, Mr. Barone, I want to thank you for your 
work, but also your passion for your work. You reference in 
your testimony, some research you did in New Haven, 
Connecticut, in a predominantly African-American community 
where traffic stops were accelerated, and your findings were 
compelling as to the efficacy of that enforcement.
    I want to ask you when you share it with the local police 
department, these statistics, what happened to that 
information? Was it well received?
    Did it lead to any kind of policy changes specifically in 
that neighborhood?
    Mr. Barone. Thank you for the question.
    The work that we have done in Connecticut, a component of 
it has been to engage in the community in a dialogue about what 
policing looks like and what it should look like, but one that 
is informed based on the data.
    And so in the example I provided in my testimony, it was a 
predominantly White suburban community that bordered the city 
of New Haven that was focusing a lot of attention in a 
predominantly Black neighborhood within the community that also 
bordered the city, which is also predominantly Black and 
Hispanic.
    And the policing looked very different in that neighborhood 
and in that area than it did elsewhere in town. And the 
department was fairly open to engaging in a thoughtful dialogue 
with us about what was driving the disparities, why they 
believed those disparities existed, and we took a long time 
working with the department to drill down on that.
    So they would say, for example, ``We placed more cops in 
this area because we have more crime here.''
    OK. And so we would go back and look at that, and then we 
would say, ``Well, let's figure out what your police are doing 
and how that is helping to impact or reduce crime, and is that 
causing a disparity? And if it is, what can we do to address 
that?''
    We were happy to report that because of the changes that we 
made and the dialogues that we had with the department and 
their willingness to engage in this dialogue with the 
community, it was not very long before their racial and ethnic 
disparity disappeared. Community trust increased. Legitimacy in 
policing increased, and that was largely driven by their 
willingness to engage in this level of a thoughtful discussion.
    And we really took that model. That was early on. We 
started bringing that type of collaboration to the other 
agencies we worked with.
    In addition to working directly with departments, we also 
host several forums with the community and the police 
department and the stakeholders in the basement of church halls 
and in townhall auditoriums to engage in this important 
dialogue, and that is a really important component of the work 
we do.
    Mr. DeSaulnier. Just to follow up on that, having been a 
mayor of a city of 130,000 people here in the bay area that is 
diverse and was diverse then, I think back of community-
oriented policing 25, 30 years ago, and these cultural changes, 
and I just wondered as a followup to your comments on how you 
find in engaging over time in cultures in local police 
departments that are more open, more based on community-
oriented policing.
    Has that made a difference as far as you know over the last 
three decades?
    Mr. Barone. It has, but these have not always been easy 
conversations to have. I will be honest with you. Usually when 
we do our initial analysis, we drive down. We meet with the 
department. We sit across the conference table with them for a 
few hours, and those first few hours are often a little 
contentious, right?
    Nobody wants to be named in a report that says they might 
have an issue with race. But usually once we can let the data 
ground the conversation, we can start to move beyond some of 
the emotion that is brought to the table, and we can start to 
really look at what can be done to address the issue.
    And a big thing that we push for in our work is to not have 
it be done in a silo or in a vacuum, but to make sure that we 
bring communities' stakeholders into the conversation so that 
usually when law enforcement hears directly from the people 
they serve, they are a little bit more open to implementing 
those reforms that we have seen work.
    Mr. DeSaulnier. Thanks.
    Mr. Ray, just briefly because my time is limited here. 
Thank you, Madam Chair.
    Do you think that we could invest more in training, 
particularly for virtual training? Will that help?
    And do you have any research that would indicate that it 
would?
    Mr. Ray. Yes, sir. Thank you for your question.
    Yes, most definitely. I mean more resources for police 
departments, small, medium, and large, they want our training. 
With the resources, it will be beneficial, and as Mr. Barone 
was saying, we can really start to reduce the biases that exist 
and improve objectivity and equity.
    Mr. DeSaulnier. Thank you.
    I just want to thank the chair again and all the panelists. 
This is terrific. Your work is terrific, and I look forward to 
working with you to deploy more of your efforts.
    Thanks a lot. I yield back.
    Ms. Norton. I thank the gentleman for his questions.
    And I would like to next call on Ms. Williams.
    You have 5 minutes, Ms. Williams.
    Ms. Williams of Georgia. Thank you, Chairwoman Norton and 
Ranking Member Davis, for convening this hearing today.
    So as we have been discussing during this conversation, the 
most common interaction between law enforcement and the public 
occurs at a traffic stop. For many Black and Brown people in 
this country, a traffic stop is not a friendly nor routine 
encounter, as events can quickly turn deadly.
    Ms. Martin, you mentioned alternatives to traditional 
enforcement, including the safe systems approach. Can you 
please elaborate on the success of this approach in cities and 
how it reduces inequities and implicit bias?
    Ms. Martin. Yes, thank you for that question.
    And one of the things that we know fundamentally is that 
our residents cannot be safe if they do not feel safe, and they 
need to both feel safe physically and they need to feel safe 
when they interact with another human being as you have just 
described in a traffic stop or law enforcement.
    We need to make sure that that is an experience that can be 
navigated appropriately.
    That said, there are additional ways of enforcement as you 
have alluded to, and we have talked about automated enforcement 
as one of those ways that enables us to catch people with risky 
behavior without having to have a traffic stop per se and can 
be done in equitable ways as long as it is done for safety and 
not for other means.
    And also safe systems. Safe systems means we design our 
roadways so that human beings who make mistakes and who do have 
risky behavior, that they cannot necessarily do so, and they 
are reminded like with rumble strips or rotaries, other ways to 
design our systems so that a traffic stop, a traffic 
enforcement activity does not have to happen in the first 
place.
    Ms. Williams of Georgia. Thank you.
    And so those are systems that local governments are already 
utilizing?
    Ms. Martin. Yes, they are.
    Ms. Williams of Georgia. And so what should Congress 
consider in future legislation that can implement some of these 
mechanisms that local municipalities are currently using?
    Ms. Martin. We talked before about some of the Safe 
Streets, Complete Streets. Those are going to be helped, that 
legislation.
    The bill that passed the House last year and hopefully will 
be considered again has some really good safety-related 
legislation in it that can help all the States if implemented.
    And on top of all that, we have talked about the NHTSA 
grants and making sure that they are focused on the places that 
can have the highest impact, making sure people use those 
grants, and making sure that they are well funded, and where 
States do not choose to use the grants, allowing localities or 
municipalities underneath those States to perhaps also 
participate where today they cannot.
    Ms. Williams of Georgia. Ms. Martin, also in your testimony 
you stated that driving-related offenses should be the only 
cause for license suspension. We know that there is a 
correlation between poverty and driver's license suspension. 
While the decision to suspend driver's licenses are done at the 
State level, what role should Congress play in ensuring that 
the States do not suspend licenses for nontraffic-related 
violations?
    Ms. Martin. Yes, we talked before about the Driving for 
Opportunity Act that has been proposed, and we fully support 
that act. It does say that license suspension at State levels 
should only be done for driver-related offenses and severe, 
risk-based driver-related offenses.
    So I do think legislation could be helpful there, and we 
fully support that. It should not be something that exacerbates 
the inequities we have already been talking about here today.
    Ms. Williams of Georgia. Thank you so much, Ms. Martin.
    And as we close out Black History Month, it is important 
that we work together to ensure that transportation is 
equitable and free of implicit bias. So I appreciate your time 
today and your comments.
    Thank you, Madam Chair, and I yield back the balance of my 
time.
    Ms. Norton. I thank the gentlewoman for her questions.
    And I would like to now go back to Ms. Bourdeaux where we 
had some technical issues and she did not get to ask her 
questions.
    Mr. Bourdeaux, you are recognized for 5 minutes.
    Ms. Bourdeaux. OK. Can you hear me?
    Ms. Norton. I can hear you now.
    Ms. Bourdeaux. Thank goodness. Thank you, Chairwoman 
Norton. I appreciate it.
    And thank you to all of the witnesses here today to discuss 
the significant and very timely topic of equity in 
transportation safety enforcement.
    I am glad we are talking about this topic today. We have 
African-American and Latinx citizens who have been suffering 
the indignities of racially motivated traffic stops for 
decades.
    Further, the reports of Black people dying during or in the 
aftermath of traffic stops has really dominated the news cycles 
in recent years, including in the Seventh Congressional 
District of Georgia.
    In my district, a 22-year-old Black male motorist was 
assaulted, punched and kicked, by two Gwinnett County police 
officers during a routine traffic stop. Both officers have 
since [interruption to audio] and have faced criminal charges, 
but of course, we want these problems not to happen in the 
first place.
    It is very important to reiterate that the adverse 
experiences that Black and Brown people face when interacting 
with the police are real. This is not merely anecdotal or the 
stuff of conjecture.
    Racial profiling and implicit bias in traffic stops are 
well known and substantial problems, and there is extensive 
research on this issue showing this kind of bias in law 
enforcement.
    I know several people have asked about the section 1906 
grants that passed under SAFETEA and were authorized under the 
FAST Act.
    And one thing I want to point out is that since the 
program's inception, only 23 States have utilized this grant, 
and Southern States, in particular, have been notably absent. I 
think only four Southern States have actually used this grant.
    And yet it is clear that participating in this program 
would help reassure citizens of color that this issue is 
important enough to investigate.
    So I just wanted to go back to you, Ms. Martin, or Mr. 
Barone, if you want to chip in on this. How do we get States 
like Georgia to participate in this program?
    What are pieces of this that you see that might be barriers 
to States like Georgia in being involved in this grant program?
    Ms. Martin. I can start, but I do think Mr. Barone can 
provide some history because he has gone to other States and 
brought his incredible program there.
    The first thing is to show some examples and that's what he 
has done so successfully and how it has changed in a 
nonthreatening, nonblame-based approach the way that practices 
are implemented and truly resulted in both more equity and 
safer streets, which is really what we are all after.
    As I mentioned before, we could consider when a State has 
not chosen to be part of the program whether localities could, 
towns, cities, and that may open things up a bit and give you 
an example in your State that you could bring more broadly. So 
that is just another thing to consider.
    And I will give the time back over to the expert in 
Connecticut.
    Mr. Barone. Thank you, Ms. Martin, and thanks for the 
question.
    I would agree with everything Ms. Martin said, and I would 
also go back to the comments I made earlier regarding the 
benefit of potentially allowing for technical assistance so 
that we can really ensure that States know that these resources 
are available and to help States access the resources and put 
together a program that does exactly what we have been able to 
do in Connecticut, which is address equity and roadway safety.
    I think once people have a better understanding, for 
example, of what we have been able to do, it might incentivize 
them to want to engage in this program.
    And I also think in those States where maybe State 
lawmakers are less interested in a State approach, which we 
have been fortunate to have in Connecticut, allowing localities 
to potentially access these funds to do this type of work at 
the local level would also go a long way in showing the 
benefits of the program.
    Ms. Bourdeaux. Great. Thank you.
    I am definitely interested in finding ways to let 
localities access this program, make them aware of it, and help 
them use that.
    I am very interested in the application of technology, and 
it has often occurred to me that, you know, the highway patrol 
looking for people speeding could be replaced with, you know, 
just machines that click when people drive by.
    And in other countries, I once was in Switzerland, and if 
you go over a certain amount of the speed limit and you pass 
one of their devices, you are automatically mailed a speeding 
ticket.
    And I was just curious. You know, what are barriers to this 
kind of technology in this country?
    Has it been considered in some places?
    Obviously, it would take a lot of the bias out of some of 
those kinds of highway enforcement activities.
    Ms. Martin. Yes, I can comment on that one, ma'am.
    They have been very effective in some of our cities and 
towns, and very much so worldwide of changing behavior, which 
is what we are trying to do.
    We are not trying to catch people, fine them. We want to 
change their behavior so they are safer on the roadway to begin 
with. And if they know there is a speed camera, which is kind 
of generically what you just referred to, they do slow down, 
and it is a very easy way to be equitable because everybody is 
in the same boat as they go by that camera regardless.
    But, again, we would say it needs to be used for safety, 
and for some of the towns that perhaps had some bumps in 
implementing these, it is because it was either perceived or 
perhaps explicit that part of it was revenue-based or for some 
other reason.
    So the checklist that we have is really helpful, I think, 
if you want to consider putting these in place. The performance 
is there. We know it saves lives. So we are very supportive of 
that technology.
    Ms. Bourdeaux. Great. Thank you so much for that.
    And I yield back the balance of my time.
    Ms. Norton. The gentlelady's time has expired.
    I am pleased to recognize Mr. Lynch at this time.
    You have 5 minutes, Mr. Lynch.
    Mr. Lynch. Thank you, Madam Chair. I appreciate your 
kindness and for holding this hearing.
    Ms. Ramsey Hawkins, I want to thank you for your 
willingness to come before the committee today and to share 
your story and for trying to take your own personal tragedy and 
turn it to a positive on behalf of other families so that they 
may not suffer the same fate.
    My condolences to you for your loss of your sons, and your 
story is far too common.
    In the United States today, according to the National 
Highway Transportation Safety Administration, automobile 
crashes are the 13th leading category for causing death among 
young people and the leading indicator for death among 
teenagers and young adults.
    In 2019, there were 36,000 people killed in motor vehicle 
accident crashes on U.S. roadways and an estimated 2.74 million 
injured.
    Now, we did make progress in this country between 2000 and 
2010 when the number of fatalities from drunk driving accidents 
dropped significantly from 13,000 a year to 10,000, which is 
still far too many, but we have plateaued at that level since 
2010, and there has not been a significant reduction 
thereafter.
    And I appreciate all of the advocacies that you have done 
with Mothers Against Drunk Driving and representing families 
and victims, and I am just curious if you see steps that 
Congress could take to make a meaningful impact on this 
terrible situation.
    Now, you have spent many hours working on this, and you 
should be commended for your advocacy, but I would just like to 
give you an opportunity if you have any perspective on what 
Congress can do next to help further lower that risk to young 
people and to families all across America.
    Ms. Ramsey Hawkins. Thank you, Congressman.
    What can we do? What Congress can do is continue to support 
programs that are in place, such as Dr. Ray's and Dr. Barone's, 
plus to continue to talk openly about what is happening in this 
country and trust that between communities of color and law 
enforcement, we need fair and just enforcement.
    We need technology, neutral rulemaking to mandate 
technology to prevent drunk driving. Until technology is 
mandated in all the vehicles, we need to have these 
conversations.
    We need to continue to fund community programs, and we just 
need to have open and honest dialogue about programs and 
solutions, and that must continue to occur.
    Mr. Lynch. Well, thank you.
    I want to again thank you for your courage in turning your 
own pain to the benefit of other families so that they may 
avoid suffering similarly.
    I want to thank you for your thoughtful advocacy and your 
energy in this cause. It is very, very important to a lot of 
American families.
    Thank you, Madam Chair, and I yield back.
    Ms. Ramsey Hawkins. Thank you.
    Ms. Norton. Well, I want to thank the gentleman for his 
questions and for focusing on the witness who was a victim and 
survivor. It is important to make sure that that testimony has 
the appropriate questions. Ms. Hawkins represented Mothers 
Against Drunk Driving.
    I would like to ask, are there any further questions from 
members of the subcommittee, either on webcam or in person?
    [No response.]
    Ms. Norton. Seeing none, I want to thank each of our 
witnesses, in particular, for your very helpful testimony 
today. Your comments have been informative and helpful, and 
beyond that, your comments have been full of information and 
insights that I know I did not have and I feel comfortable in 
saying that most members of the committee on both sides did not 
yet have and that we need to take into account in any further 
legislation that is enacted.
    I now ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
further in writing.
    I also ask unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's very helpful hearing.
    Without objection, so ordered.
    The subcommittee stands adjourned.
    [Whereupon, at 1:59 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Norton, and thank you to our witnesses that are 
appearing before us today.
    I wholeheartedly believe that discrimination and bias have no place 
in America, and that this Nation needs to continue to make progress in 
this area.
    The National Highway Traffic Safety Administration (NHTSA) does not 
have jurisdiction over law enforcement--States do.
    States administer their highway safety programs and decide how to 
use their NHTSA grant funding to address safety issues.
    States spend a portion of their NHTSA grants on enforcement since 
it has proven so effective in deterring unsafe driving behaviors.
    To increase traffic safety, we need to double-down on what works--
infrastructure improvements and enforcement of traffic safety laws.
    Without enforcement, we will not achieve the goal that we all share 
of eliminating traffic fatalities.
    Bias and discrimination when deciding to make a traffic stop is 
unconstitutional, wastes limited resources, and should be eliminated.
    However, radical efforts to take away or completely defund our law 
enforcement is not a viable solution and would be counter to achieving 
our bipartisan traffic safety goals including reaching zero deaths on 
our nation's highways.
    I look forward to hearing from our witnesses today about how we can 
make improvements on both these fronts within the limited but important 
role this Committee plays in enforcement activities.
    Thank you, Chair Norton. I yield back.

                                 <F-dash>
Letter of February 23, 2021, from Catherine Chase, President, Advocates 
  for Highway and Auto Safety, and Dawn King, President, Truck Safety 
   Coalition, Submitted for the Record by Hon. Eleanor Holmes Norton
                                                 February 23, 2021.
Hon. Eleanor Holmes Norton,
Chair,
Hon. Rodney Davis,
Ranking Member,
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC.

    Dear Chair Norton and Ranking Member Davis:
    Thank you for holding tomorrow's hearing, ``Examining Equity in 
Transportation Safety Enforcement.'' Ensuring that all people can 
safely and equitably share in the transportation network is essential 
to our daily lives and opportunities for health care, employment, 
education, recreation, and others. This must be a cornerstone of our 
Nation's transportation policy. We respectfully request this letter be 
included in the hearing record.
    Advancing safety on our roads is inextricably linked to ensuring 
that all transportation users benefit from the improvements. Traffic 
safety regulations and laws are ``vaccines'' that should be available 
to everyone and have been integral in reducing motor vehicle crashes, 
deaths and injuries. A recent report published by the Center for Study 
of Responsive Law on the occasion of the 55th anniversary of Ralph 
Nader's Unsafe at Any Speed noted:

        No one in 1966 or 1974 predicted the huge number of lives that 
        would be saved with motor vehicle safety standards, vastly 
        upgraded and new state highway safety laws, and new highways 
        built under the federal aid highway program. In 1966 the number 
        of highway deaths were [sic] 50,894 (they increased to a high 
        of 54,589 by 1972). In 2019, the number of fatalities was 
        36,096, despite the huge increase in the number of drivers, 
        vehicles and miles traveled. Based on an analysis by the Center 
        for Auto Safety of deaths per million vehicle miles traveled, 
        an estimated 4.2 million lives were spared because of these 
        safety improvements in the U.S. from 1966 to 2019.

    In 2015, the National Highway Traffic Safety Administration (NHTSA) 
estimated that since 1960, more than 600,000 lives have been saved by 
motor vehicle safety technologies such as seat belts, airbags, child 
seats, and electronic stability control. According to an article in the 
American Journal of Epidemiology, ``Trends in Socioeconomic 
Inequalities in Motor Vehicle Accident Deaths in the United States, 
1995-2010'':

        Legislation against alcohol-involved driving, such as 0.08-g/dL 
        blood alcohol concentration laws, sobriety checkpoints, and 
        minimum legal drinking age laws, have reduced fatal and 
        nonfatal crash injuries since they first were enacted in the 
        1970s. Mandatory seat-belt laws, particularly when robustly 
        enforced, increase seat-belt use and have reduced mortality 
        since their introduction in 1984. There have also been 
        improvements in alcohol-impaired driving fatalities and the use 
        of safety restraints.

    This study also found that ``[b]etween 1995 and 2010, overall MVA 
[motor vehicle accident] mortality rates fell by 15%-25%, depending on 
whether they were measured as a function of population, VMT [vehicles 
miles traveled], or PMT [person-miles traveled]. Crude mortality rates 
were higher in men, blacks, and persons aged 65 years or older.'' Every 
year on average, over 36,000 people are killed and 2.74 million more 
are injured in motor vehicle crashes. Preliminary estimates from NHTSA 
indicate that the fatality rate and total for the first nine months of 
2020 increased over the same time period in 2019. This is in line with 
troubling trends reported across the country, and confirmed by NHTSA, 
of drivers engaged in riskier driving behaviors including speeding, 
impairment, and lack of seat belt use during the COVID-19 pandemic. 
Media and analytics reports note distracted driving increased as well.
    Moreover, in 2019, over 5,000 people were killed in crashes 
involving a large truck. Since 2009, the number of fatalities in large 
truck crashes has increased by 48 percent.\1\ In 2019, 159,000 people 
were injured in crashes involving a large truck, and the number of 
large truck occupants injured increased by 18 percent. In fatal crashes 
involving a truck and a passenger vehicle, 96 percent of the fatalities 
were passenger vehicle occupants, according to the Insurance Institute 
for Highway Safety (IIHS). The cost to society from crashes involving 
commercial motor vehicles (CMVs) was estimated to be $143 billion in 
2018, the latest year for which data is available. According to the 
U.S. Department of Labor, truck driving is one of the most dangerous 
occupations in the United States.
---------------------------------------------------------------------------
    \1\ Note, the 48 percent figure represents the overall change in 
the number of fatalities in large truck involved crashes from 2009 to 
2019. However, between 2015 and 2016 there was a change in data 
collection at U.S. DOT that could affect this calculation. From 2009 to 
2015 the number of fatalities in truck involved crashes increased by 21 
percent and between 2016 to 2019, it increased by 7 percent.
---------------------------------------------------------------------------
    This substantial crash death and injury toll also comes with a 
serious financial burden. Based on 2010 data, crashes impose an annual 
cost of over $800 billion to society, including $242 billion in direct 
economic costs (NHTSA). When adjusted only for inflation, comprehensive 
crash costs now near one trillion dollars, with direct economic costs 
amounting to $292 billion--or an $885 ``crash tax'' on every American. 
Additionally, crashes cost employers $47.4 billion in direct crash-
related expenses annually, based on 2013 data (Network of Employers for 
Traffic Safety (NETS)). Similarly adjusted, the cost to employers is 
now approximately $54 billion annually.
    Ending the physical, emotional, and economic impacts of motor 
vehicle crashes is achievable. It is vital that inequitable enforcement 
is eliminated as this goal is pursued. The Subcommittee is to be 
commended for convening this important hearing to discuss this issue. 
Furthermore, we laud the Committee on Transportation and Infrastructure 
for advancing numerous safety improvements in the Moving Forward Act 
(116th Congress, H.R. 2) as well as those Committee members who 
introduced stand-alone safety bills last session. We urge the 
Subcommittee to once again, advance those overdue and needed safety 
solutions as well as additional upgrades to accomplish our shared goal 
of safety equity for all. The following recommendations will achieve 
this goal; however, they are not an exhaustive list of our 
organizations' safety and equity agendas.
Require and expand the use of proven technologies which are 
        demonstrated by data, research and experience to prevent, 
        mitigate or reduce motor vehicle crashes yet are currently 
        deployed inequitably.
    Require Vehicle Safety Technology: Advanced driver assistance 
systems (ADAS) including automatic emergency braking (AEB), lane 
departure warning (LDW) and blind spot detection (BSD) have shown 
remarkable potential. According to IIHS, AEB can reduce front-to-rear 
motor vehicle crashes with injuries by 56 percent. Other ADAS 
technologies have similar impressive results. The National 
Transportation Safety Board (NTSB) has included increasing 
implementation of collision avoidance technologies in its Most Wanted 
List of Transportation Safety Improvements since 2016. ADAS 
technologies are already widely used in places like Europe, Australia, 
Japan and Korea.
    However, access to these lifesaving crash avoidance technologies 
currently is not equitable. They are often sold as part of an 
additional, expensive trim package coupled with other non-safety 
features, or included as standard equipment only in high end models or 
vehicles, which are unaffordable to many families. A report from 
Consumer Reports found an astounding upcharge of more than $16,000 for 
AEB with pedestrian detection in the second most popular vehicle sold 
in the U.S. It is essential that vehicle safety technology be required 
as standard equipment to make safety equitable and to expedite the 
benefits to all road users. This requirement, which involves the U.S. 
Department of Transportation (DOT) developing minimum performance 
standards, will also ensure these technologies function as expected and 
needed including the detection and response to all road users. 
Individuals who rely on walking or biking for utilitarian purposes, 
rather than choice, to reach work or school are at the highest risk for 
injury or death. Mandating safety equipment in all new vehicles and 
ensuring the protection of vulnerable road users could address yet 
another aspect of social inequality. Furthermore, as part of the 
rulemaking process, NHTSA should be instructed to collect information 
about the performance of the technology and any negative impacts on 
people of color and be required to address these issues in the final 
rule, issued by a date certain. Successful widespread infiltration of 
advanced technologies into the marketplace and the resultant reduction 
and mitigation of crashes should lead to a decrease in the interface of 
road users and law enforcement.
    Large trucks equipped with forward collision warning (FCW) and AEB 
technology have also experienced lower crash rates. IIHS research, 
which looked at approximately 2,000 crashes between 2017 and 2019, 
found that FCW and AEB reduced rear-end crashes by 44 and 41 percent 
respectively. Trucks equipped with FCW had 22 percent fewer crashes and 
trucks with AEB had 12 percent fewer crashes than those without either 
of these vital safeguards. The protections offered by these systems 
would mitigate a myriad of crash causations including speed, 
distraction, impairment and fatigue. Safety groups petitioned NHTSA to 
initiate a rulemaking on AEB for all vehicles with a gross vehicle 
weight rating (GVWR) of 10,000 pounds or more in 2015. The petition was 
granted but no regulatory action has been taken by the agency. AEB has 
been required on large trucks in the European Union since 2015. 
Congress should mandate the U.S. DOT completes the rulemaking so that 
all truck drivers eventually have access to these crucial systems. A 
requirement will reduce the cost of technology and level the economic 
``playing field.''
    Impaired driving continues to be a leading killer on our roads, and 
its incidence can be similarly mitigated through technology by adoption 
of advanced impaired driving prevention technology. According to IIHS, 
technological solutions have the potential to save more than 9,000 
lives a year if widely deployed. Technology that can passively detect 
alcohol or monitor driver behavior behind the wheel has shown great 
promise to prevent driving while impaired. Congress should move this 
transformative technology forward by directing NHTSA to issue a final 
rule requiring new vehicles to be equipped with advanced impaired 
driving prevention technology subject to a minimum performance 
standard. This will both reduce crashes and the need for law 
enforcement officers to pull over impaired drivers.
    Similarly, connected vehicle technology offers potential to improve 
safety and limit the need for police officer/motorist interaction. 
Specifically, vehicle-to-everything (known as V2X) communication can 
relay signals to the vehicle about upcoming traffic lights and speed 
limits, among other messaging, further improving the safety of drivers 
and all road users. Connected vehicle technology can also amplify the 
benefits of certain vehicle safety technologies. Vehicle technologies 
are already being introduced that provide speed assistance. In fact, 
the European New Car Assessment Program (Euro NCAP) ``promotes the 
installation of speed assistance systems that support drivers to 
control their speed.'' We urge Congress to direct NHTSA to complete the 
upgrade of U.S. NCAP to include this advancement and update and 
complete the 2017 Notice of Proposed Rulemaking (NPRM) to require 
vehicle-to-vehicle (V2V) technology, as well as partner with the 
Federal Highway Administration (FHWA) to study the needs and benefits 
of vehicle-to-infrastructure (V2I) with the goal of V2X communications 
for safety. These steps could significantly advance safety and reduce 
the role of law enforcement in traffic safety enforcement and crash 
response.
    Past legislation which promotes these issues and should be advanced 
includes: Moving Forward Act (116th Congress, H.R. 2); 21st Century 
Smart Cars Act (116th Congress, H.R. 6284); Protecting Roadside First 
Responders Act (116th Congress, S. 2700/H.R. 4871); Safe Roads Act 
(116th Congress, H.R. 3773); School Bus Safety Act (116th Congress, S. 
2278/H.R. 3959); HALT Drunk Driving Act (116th Congress, 4354); 
Reducing Impaired Driving for Everyone (RIDE) Act (116th Congress, S. 
2604); and, Five-Stars for Safe Cars Act (116th Congress, H.R. 6256).
    Expand the Use of Road Safety Technology: Automated enforcement 
(AE), such as speed and red-light running cameras, is a verified 
deterrent against frequent crash contributors and has been identified 
by NHTSA, NTSB, Centers for Disease Control and Prevention (CDC), IIHS 
and others as an effective means to curb dangerous driving behavior. 
Moreover, a recent review by the Congressional Research Service (CRS) 
found that speed camera programs are effective in reducing speeding 
and/or crashes near cameras. Additionally, for vulnerable road users, 
such as pedestrians and bicyclists, small changes in speed can have a 
large impact on survivability. New crash tests performed by IIHS, the 
AAA Foundation for Traffic Safety, and Humanetics show that modest five 
to ten miles per hour (mph) increases in speed can have a severe impact 
on a driver's risk of injury or even death. Expanding the use of AE is 
especially important considering in 2019 pedestrian and bicyclist 
fatalities remained among the highest levels in 30 years. According to 
the 2019 Dangerous by Design released by Smart Growth America and the 
National Complete Streets Coalition, ``Drivers strike and kill people 
of color, especially Black or African American and American Indian or 
Alaska Native people, at higher rates compared to White, Non-Hispanic, 
and Asian or Pacific Islander people.''
    With local budgets strained because of the COVID-19 pandemic, 
lifesaving AE should be used to augment local law enforcement efforts 
to make certain that traffic safety laws are enforced in a safe and 
judicious manner. Advocates for Highway and Auto Safety joined leading 
traffic safety organizations to produce a resource for communities 
implementing new AE programs or updating existing ones called the Red 
Light Camera Checklist (Checklist). We are currently in the process of 
jointly updating the Checklist to apply to speed camera systems as 
well. Furthermore, limiting the need for police interaction with 
motorists will help reduce the safety risk of police officers and other 
first responders from other vehicles while on the roadside. We urge the 
Subcommittee to revise the language in 23 U.S.C. 402(c)(4) that 
prohibits states that receive funding under this program from using 
those awards on AE programs.
Encourage enactment and enforcement of comprehensive, transparent and 
        unambiguous traffic safety laws.
    The intent of traffic safety laws and consistent enforcement is to 
deter dangerous behaviors and ensure road safety. It is vitally 
necessary that enforcement is conducted fairly and without bias or 
excessive force. Some state legislatures have introduced bills to 
revoke or weaken traffic safety laws without concurrently assuring the 
safety need provided by such laws is equally met, which is especially 
precarious considering the surge in risky driving behavior on our 
roads. While numerous studies performed by NHTSA and others find that 
primary enforcement seat belt laws do not result in increased ticketing 
of people of color, the potential for improper enforcement and 
harassment is an ongoing concern that is not limited to, nor created, 
by seat belt and other traffic safety laws. Repeated requests that 
NHTSA update its research pertaining to primary enforcement laws, 
traffic stops and ticketing have gone unanswered, and we urge the 
Subcommittee to call on them to do so as part of your ongoing efforts 
to examine equity in transportation safety.
    Congress should also establish an incentive grant program for 
states to lower the legal blood alcohol concentration (BAC) limit to 
.05 percent or lower, and to encourage states to fill gaps in their 
seat belt laws to require all occupants in the front and rear seating 
positions to buckle up and ensure everyone is protected. Moreover, 16 
states still do not have an essential law requiring ignition interlock 
devices (IIDs) for all offenders. Congress should enact a sanction 
withholding federal highway construction money for states that do not 
adopt an IID law by a date certain. This successful approach was used 
to achieve uniform adoption of state laws on the 21-drinking age, zero 
tolerance BAC for underage drinking and driving and a national .08 
percent BAC. No state lost a single dollar of federal highway 
construction money and every state now has these lifesaving laws. 
Further, fatalities in distraction-affected crashes increased by 10 
percent in 2019. Congress should direct improvements to the current 
Section 405 incentive grant program to encourage state adoption of 
better laws and stronger enforcement to curb distracted driving, 
including by passing the SAFE TO DRIVE Act (H.R. 762/S. 195). We also 
ask Congress to advance appropriate legislation to improve law 
enforcement training including for procedures for traffic stops and to 
promote better data and accountability in the enforcement of traffic 
safety laws, among other issues.
Improve road infrastructure design, planning, maintenance and building 
        to factor in all road users and make changes to incorporate 
        safety upgrades to the road transportation system.
    The Safe Systems approach is based on the reality that humans will 
make mistakes, that they are vulnerable in crashes, and that it is 
imperative fatalities and injuries on our roads are eradicated. It 
includes research proven countermeasures such as lowering speed limits, 
adding design elements that separate vulnerable road users from 
vehicles (i.e., separated and protected bike lanes, accessible 
sidewalks and pedestrian islands), redesigning roads which were once 
designed for speed for mixed use, and advancing vehicle safety 
technology including AEB and intelligent speed assistance. Congress 
should take action to direct the U.S. DOT to offer grant opportunities 
to incentivize the incorporation of Safe Systems principles in state 
and local road infrastructure projects. These projects must be extended 
to all neighborhoods to promote equity of the safety improvements. They 
should aim to help improve our roads to ensure safety for mixed modal 
use (i.e., vehicles, pedestrians, bicyclists, people who use 
wheelchairs or other assistive devices, micromobility and other novel 
mobility products) and expand the ability for localities to respond to 
different road use challenges, among other upgrades.
Federal truck size and weight limits must be maintained and all special 
        interest exemptions must be rejected.
    Federal limits on the weight and size of CMVs are intended to 
protect all truck drivers, the entire traveling public and America's 
roads and bridges. Yet, well-funded special interests continue to lobby 
Congress for legislative provisions allowing larger and heavier trucks 
that violate or circumvent these federal laws to operate in certain 
states or for specific industries. State, roadway-specific and 
industry-based exemptions and pilot programs to increase truck size and 
weight will further erode an already economically inequitable system 
and should be rejected.
Any consideration of autonomous vehicle (AV) legislation must include 
        policy positions in the ``AV Tenets.''
    AV manufacturers and developers have touted the promise of AVs to 
improve access, equity, mobility, environmental impact and safety. Yet, 
without specific policies to require these outcomes, not only could 
these goals be derailed, but wide-ranging negative consequences could 
be experienced by a variety of diverse stakeholders. To address these 
challenges, last November, we and numerous other stakeholders released 
the ``Autonomous Vehicle (AV) Tenets,'' a comprehensive approach to 
prioritize the safety of all road users, guarantee accessibility and 
equity, preserve consumer and worker rights, and ensure local control 
and sustainable transportation.
    One example of a safeguard included in the AV Tenets is a ``vision 
test'' for AVs. If a vehicle takes over the driving responsibility it 
will need to ``see'' and properly respond to all vehicles, people, and 
objects in the roadway including but not limited to Black and Brown 
people, pedestrians, bicyclists, people who use wheelchairs and other 
assistive technology, children and strollers, motorcyclists, roadway 
infrastructure, construction zones and roadside personnel, and 
interactions with law enforcement and first responders. Additionally, 
the AV Tenets include a recommendation that if AVs are used as part of 
transportation services, clear plans are needed to coordinate the safe 
transportation for all people including the need for delivery of 
medical care as well as laws in furtherance of social equity to protect 
those who are marginalized (Black and Brown people, Indigenous people, 
LGBTQ+ people, people with disabilities, women, older adults, and all 
other groups).
    Further, the AV Tenets direct the U.S. DOT to review algorithms and 
risk assessment procedures for potential issues, including bias, in 
technologies that assist in or takeover the driving task. Any 
identified problems must be corrected by the developer or manufacturer 
and verified by the U.S. DOT. Coordination and oversight should be led 
by the Office of the NHTSA Civil Rights Director in partnership with 
the Office of the Assistant Secretary for Research and Technology, 
NHTSA Office of Vehicle Safety Research, and NHTSA Chief Counsel's 
office. The Office of the NHTSA Civil Rights Director should be given 
adequate resources, expertise and authority to accomplish this role. 
If, and when, Congress considers AV legislation these and the other 
positions in the AV Tenets should be incorporated.
    Maximizing safety and achieving equity in our transportation system 
are complementary goals which should and can be realized together. 
Thank you again for convening this important hearing and considering 
our recommendations. We look forward to working with you to advance 
safety equity for all road users.
        Sincerely,
                                           Catherine Chase,
                  President, Advocates for Highway and Auto Safety.
                                                 Dawn King,
                                 President, Truck Safety Coalition.

cc: Members of the U.S. House Committee on Transportation and 
Infrastructure

                                 <F-dash>
 Red Light Camera Program--Checklist, Submitted for the Record by Hon. 
                         Eleanor Holmes Norton
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>
   Letter of February 23, 2021, from Chuck DeWeese, Chair, Governors 
   Highway Safety Association, and Assistant Commissioner, New York 
 Governor's Traffic Safety Committee, Submitted for the Record by Hon. 
                         Eleanor Holmes Norton
                                                 February 23, 2021.
Hon. Eleanor Holmes Norton,
Chair,
House Subcommittee on Highways and Transit, Washington, DC.
Hon. Rodney Davis,
Ranking Member,
House Subcommittee on Highways and Transit, Washington, DC.

RE: Examining Equity in Transportation Safety Enforcement

    Dear Chair Norton and Ranking Member Davis:
    Thank you for the opportunity to share a statement with the 
subcommittee regarding the upcoming hearing Examining Equity in 
Transportation Safety Enforcement.
    The Governors Highway Safety Association (GHSA) is a national 
nonprofit association representing the State and Territorial Highway 
Safety Offices (SHSOs). The SHSOs implement statewide programs to 
address behavioral highway safety issues and partner with the National 
Highway Traffic Safety Administration (NHTSA) to distribute grants for 
a wide range of countermeasures, including education, enforcement and 
community engagement, that are proven to help reduce roadway crashes, 
injuries and fatalities. The mission of GHSA and its State members is 
the safety of everyone on the road.
    GHSA thanks the committee for holding a hearing on this important 
topic. On September 23, 2020, GHSA released a statement condemning 
racism and abuse in policing and calling for steps that SHSOs and law 
enforcement agencies can take to achieve greater justice.
    Traffic deaths remain a persistent public health crisis in our 
country. In 2019, 36,096 Americans were killed on our roads and 
preliminary estimates suggest that fatalities increased further in 
2020. While GHSA continues to support the proven role of traffic 
enforcement and the wider criminal justice system in protecting all 
road users, clearly reforms are needed.
    Last June, GHSA's Executive Board formed a Workgroup on Equity in 
Traffic Enforcement to support the Association's work in this area. 
GHSA has also recently engaged the transportation consulting firm 
Kimley-Horn to assess the landscape of efforts across the SHSO to 
promote equity in traffic enforcement as well as examine promising 
practices in other State agencies.
    GHSA commits to working with all stakeholders to address these 
challenges in the traffic safety context. We specifically urge Congress 
to direct NHTSA to use its convening authority to gather a diverse 
spectrum of stakeholders together to develop solutions, including 
highway safety advocates, civil rights advocates, community groups, and 
national law enforcement organizations.
    As Congress prepares for the upcoming transportation 
reauthorization, GHSA offers the following additional recommendations:
    <bullet>  Expand the Section 1906 Grant Program to Prohibit Racial 
Profiling by providing States access to these funds for more than two 
fiscal years and allowing these funds to be used for law enforcement 
equity training and related programs.
    <bullet>  Direct NHTSA to diversify the messages used in traffic 
safety campaigns to influence behavior beyond enforcement and criminal 
consequences, as well as evaluate the effectiveness of these additional 
messages.

    GHSA appreciates the opportunity to share our perspective, and we 
look forward to our ongoing partnership with the U.S. Congress and U.S. 
Department of Transportation to save lives on our nation's roads.
        Regards,
                                             Chuck DeWeese,
                       Chair, Governors Highway Safety Association.
        Assistant Commissioner, New York Governor's Traffic Safety 
                                                         Committee.

                                 <F-dash>
  Letter of February 24, 2021, from Leah Shahum, Executive Director, 
 Vision Zero Network, Submitted for the Record by Hon. Eleanor Holmes 
                                 Norton
                                                 February 24, 2021.
    To:       Members of the U.S. House of Representatives' Committee 
on Transportation and Infrastructure--Subcommittee on Highways and 
Transit

    RE:       February 24, 2021 Hearing on ``Examining Equity in 
Transportation Safety Enforcement''

    Thank you for bringing attention to this important issue at today's 
hearing, ``Examining Equity in Transportation Safety Enforcement'' and 
for offering the chance to share input.
    We write on behalf of the Vision Zero Network, a national nonprofit 
project working to advance the goal of Vision Zero: zero traffic deaths 
or severe injuries for all road users, including those of us walking, 
bicycling, riding transit or driving. We are proud to work closely with 
more than 40 communities across the U.S. which have made local or 
regional commitments to Vision Zero.
    We write to share our serious concerns about the way police-led 
traffic enforcement strategies are used--and, too often, abused--in the 
U.S. And this includes the role that the National Highway Traffic 
Safety Administration (NHTSA) plays.
    We urge you to use your policymaking and funding authority to help 
ensure that federal policies and funds support effective and equitable 
strategies to promote safety on our roads, sidewalks and bikeways. Too 
often, this appears not to be the case, to the serious detriment of the 
public.
    Numerous studies (and high-profile incidents viewed by millions 
around the world) have shown racial bias in police-led traffic 
enforcement in the U.S.
    Examples include the following:
    <bullet>  Police officers generally stop Black drivers at higher 
rates than white drivers. And, once stopped, Black and Hispanic drivers 
are searched more often than white drivers. (Source: https://
openpolicing.stanford.edu/findings/)
    <bullet>  The problems are similar for people walking and 
bicycling. For instance, in 2019, 90% of the people that NYPD officers 
summonsed for jaywalking were Black or Latinx, though only 55% of New 
Yorkers are Black or Latinx. (Source: https://bit.ly/3aQw2ub)
    <bullet>  In Tampa, Florida, a 2015 analysis showed that while 
Black residents only made up about 40% of estimated bicycle riders, 73% 
of all bicycle stops made by the police department were of Black 
cyclists. (Source: http://mediad.publicbroadcasting.net/p/wusf/files/
201604/cops-w0801-pub.pdf)
    <bullet>  In Jacksonville, FL, Blacks were three times as likely to 
be ticketed by police for a ``pedestrian violation,'' receiving 55% of 
all pedestrian tickets while only accounting for 29% of the population, 
according to a study released in 2017. (Source: https://
features.propublica.org/walking-while-black/jacksonville-pedestrian-
violations-racial-profiling/)

    Evidence of over-policing and racial bias is compounded when we 
recognize that Black people in the U.S. are also disproportionately 
more likely to be killed while walking in traffic crashes. (Source: 
https://smartgrowthamerica.org/dangerous-by-design/) This may not be a 
surprise, as these communities' neighborhoods have been traditionally 
underserved by safe everyday transportation infrastructure, such 
``basics'' as safe and interconnected sidewalks and bikeways, safe 
street crossings and low-speed safe streets.
                              What's Next?
    We ask for an immediate, comprehensive and impartial review of 
NHTSA's enforcement-related spending to analyze both the effectiveness, 
in terms of measurable safety impacts, and evidence and impacts of 
racial bias. Programs that cannot demonstrate effectiveness and 
equitable means and ends should no longer be funded by NHTSA.
    Alternative efforts that should be considered more appropriate to 
replace NHTSA funding of traditional police-led enforcement include 
investing in the following:
    <bullet>  Support of local communities' engagement to determine 
needs for their own safe, healthy, equitable, accessible transportation 
options (Ex: from Los Angeles Dept. of Transportation: https://bit.ly/
3pMPbRX);
    <bullet>  Community-led planning processes to invest in self-
enforcing street designs that do not rely on potentially biased police-
initiated actions and that are more effective and financially 
sustainable;
    <bullet>  Investment in restorative justice programs that aim for 
positive behavior change versus punishments that disproportionately 
harm low-income and people of color;
    <bullet>  Resources to reform related, broken criminal justice 
systems that criminalize poverty rather than improve traffic safety, 
such as the practice of suspending drivers' licenses of people who 
cannot afford fines and fees (Ex: from NYC's Center for Court 
Innovation https://visionzeronetwork.org/restorative-justice-
strategies-for-safe-streets/)
    <bullet>  Investment in the Safe Systems approach, as mentioned in 
the hearing February 24, 2021 by the National Safety Council. This 
includes prioritizing proactive, preventative measures, such as 
evidence-based strategies for designing streets safely and setting 
speeds at safe levels. (More from the Federal Highway Administration 
(FHWA): https://safety.fhwa.dot.gov/zerodeaths/docs/
FHWA_SafeSystem_Brochure_V9_508_200717.pdf)
    <bullet>  Flexibility for local and regional entities to access 
NHTSA 1906 funding to analyze and address issue of racial bias in 
traffic enforcement efforts, also mentioned during the hearing by 
multiple panel experts.

    At the Vision Zero Network, we support a pivot from the traditional 
``E's'' approach of traffic safety (Education, Enforcement, 
Engineering, etc.) to the Safe Systems approach, which prioritizes 
improving the underlying systems and policies that center safety for 
all road users--such as Complete Streets, lower speed limits, and 
practices and policies that focus on proactively making safe behaviors 
on the road the easy and obvious choices for road users. The Safe 
Systems approach recognizes that we cannot enforce nor educate our way 
out of the problem of nearly 40,000 traffic deaths each year, but that 
we can design systems that proactively encourage safe behavior.
    (See graphic below)
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Rather than continuing the reactive and punitive approach of 
today's police-led enforcement work, NHTSA can and should follow the 
lead of other nations that have significantly improved their traffic 
safety rates by taking a public health-inspired approach to 
transportation safety, focusing on upstream measures to influence 
behavior. These upstream measures include streets redesigned for 
maximum safety, not maximum speed, and policies that give people 
options to walk, bike, ride transit and drive--safely.
    Not only is Vision Zero--and the Safe Systems approach underlying 
it--the ethically responsible way to structure our decision making 
around traffic safety and related goals, it is also a more equitable 
and effective way than the traditional E's approach.
    Analysis of traffic fatalities in 53 nations, conducted by the 
World Resources Institute, found that those adopting a Safe Systems-
based approach, such as Vision Zero, achieved both the lowest rates of 
traffic fatalities and the largest reduction in fatalities over 20 
years (1994-2015). (Source: Sustainable & Safe: A Vision and Guidance 
for Zero Road Deaths, World Resources Institute).
    (See graphic below)
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    

    The U.S. has failed in ensuring people safe, healthy, equitable 
mobility options. Meanwhile, others across the globe are embracing the 
Safe Systems approach and modernization of policies and practices that 
have led to steady increases in safety. In fact, the U.S. ranks 42nd 
out of 51 high-income nations for per capita traffic fatalities.
    We share the goal with you and others across the nation of wanting 
to ensure all people can move about our communities safely. We hope 
this review of NHTSA's funding of enforcement practices will result in 
important awareness-raising and changes to ensure traffic safety 
efforts funded by the federal government are equitable, as well as 
effective.
    Thank you sincerely for your attention and leadership. If we can 
answer any questions or discuss further, please reach out to us and 
more information can be found at visionzeronetwork.org.
        Sincerely,
                                               Leah Shahum,
                           Executive Director, Vision Zero Network.

                                 <F-dash>
 Article entitled, ``Nine key takeaways from the Globe's `Blind Spot' 
 investigation,'' by Matt Rocheleau, Vernal Coleman, Evan Allen, Laura 
Crimaldi, and Brendan McCarthy, Boston Globe, updated August 25, 2020, 
             Submitted for the Record by Hon. Seth Moulton
    Nine key takeaways from the Globe's ``Blind Spot'' investigation
by Matt Rocheleau, Vernal Coleman, Evan Allen, Laura Crimaldi, and 
Brendan McCarthy

Boston Globe, updated August 25, 2020

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Lane Turner/Globe Staff

    For nearly a year, Globe reporters scoured crash data and records 
and found that menacing drivers across the country are escaping 
scrutiny--and remaining on the road--due to bureaucratic neglect. These 
failures have been deadly.
    The Globe's ``Blind Spot'' investigation examines the hidden 
dangers on America's roads and found glaring problems with how drivers 
are licensed and how the trucking industry is regulated.
    Here are some of the key takeaways from the Globe's reporting.
1. There's no system to effectively track driving offenses between 
        states
    Despite nearly 50 years of warnings by federal road safety 
officials, the United States still has no effective national system to 
keep tabs on drivers who commit serious offenses in another state. 
Enforcement relies on state agencies to do their job, which they often 
don't. It is a gap that puts everyone at risk every time we take to the 
road.
2. This has had lethal consequences
    One example of this was on display last summer when seven 
motorcyclists were killed in New Hampshire crash. Volodymyr Zhukovskyy, 
a 24-year-old truck driver with an atrocious record, allegedly crossed 
the center line and crashed into the motorcyclists. His driver's 
license should have been suspended at the time of the crash but 
remained valid due to lapses at the Massachusetts Registry of Motor 
Vehicles.
    The Globe identified seven other people killed in recent years by 
drivers with past violations that should have kept them off the road. 
There are unquestionably many more, but restrictive state rules on 
driver data make compiling a true tally almost impossible.
3. The scope of the problem is massive
    A major company that collects and analyzes bulk driver data told 
the Globe it estimates more than one in 10 drivers across the nation 
has at least one offense--ranging from speeding to vehicular homicide--
that isn't reflected on the official record. Another data collection 
company reported a similar trend.
    In a nation of 227 million licensed drivers, that would add up to 
more than 22 million unaccounted-for offenders, among them, almost 
certainly, thousands, perhaps millions, who should have lost their 
licenses, temporarily or permanently.
4. Sloppy recordkeeping, outdated communication, and neglect are to 
        blame
    The United States counts on 50 state registries, plus the District 
of Columbia, to police themselves and alert others when an out-of-state 
driver breaks the law.
    Often, the Globe found, states fail in this duty: Some neglect to 
send warnings about dangerous drivers; some receive notices but don't 
bother to read and record them.
    And, even in this era of instant communication, agencies nationwide 
still rely on mailing paper documents to directly notify each other 
about infractions by out-of-state passenger drivers--a slow, labor 
intensive process that is prone to administrative failures.
    Seven states--including California, Arizona, New Hampshire, and 
Rhode Island--have for years sent no direct mail notices at all, making 
them islands of irresponsibility in the world of highway safety.
5. There are major gaps in oversight of the increasingly deadly 
        trucking industry
    After more than a decade of declines, the frequency of fatal 
crashes involving trucks shot up by 41 percent between 2009 and 2017. 
In 2017, the last year for which complete statistics are available, 
4,761 people died in crashes involving large trucks on American roads. 
That's one person every two hours. That's a Boeing 737 plane crash 
every two weeks.
    And violations among trucking companies are common. Recent research 
commissioned by trucking companies themselves suggests that 300,000 
undetected drug users are currently piloting trucks.
6. Many trucks are poorly maintained to the point of peril
    Federal statistics show that, on average, one in five of the more 
than 4 million trucks regulated by the FMCSA is in such disrepair that 
if it were stopped by safety inspectors, it would immediately be taken 
out of service.
    Yet, the federal agency responsible for protecting American drivers 
from dangerous truckers, the Federal Motor Carrier Safety 
Administration, has allowed whole swaths of the industry--most 
strikingly, small upstart companies--to operate with minimal or no 
oversight, the Globe found.
7. How did it get this way?
    The FMCSA simply lacks the firepower to wrangle a sprawling 
industry with a fierce independent streak, which some safety advocates 
liken to the Wild West.
    The agency employs only about 1,200 people to oversee a sector with 
half a million companies that is growing by more than 30,000 businesses 
every year. The agency has no centralized way to check the backgrounds 
of drivers, and drug testing requirements are inadequate.
    Compliance with many of the agency's requirements is increasingly 
monitored remotely, often with paperwork that companies simply send in, 
with little verification or first-hand observation.
    The FMCSA does get information from traffic stops by police and 
unannounced roadside inspections conducted by state regulators. But 
that provides a haphazard picture at best: More than a million of the 
4.6 million commercial vehicles the FMCSA regulated in 2018, for 
example, were not stopped once through the entire year, according to 
federal statistics.
8. The problems are most glaring with fledgling companies
    New trucking companies are required by the FMCSA to file reams of 
paperwork before they can open up shop, promising that they understand 
and will comply with regulations, but no one from the agency makes them 
prove it.
    No one checks whether they're telling the truth about their 
background. There's no vehicle inspection, test, or in-person safety 
audit before a new company is allowed to put vehicles 20 times the size 
of passenger cars out on the highway.
    This means that companies operate unproven during their early, 
formative months in business, the very time when they are most in need 
of oversight. Federal statistics from 2015 show that new companies have 
a crash rate almost 60 percent higher than established ones.
9. Attempts to bolster trucking oversight have also fallen short
    The National Transportation Safety Board sees itself as ``the 
conscience and the compass of the transportation industry,'' but it 
doesn't regulate the industry. Since 1971, the federal agency has been 
issuing and reissuing the same plaintive warning: The regulatory system 
that is supposed to keep trucking safe is full of loopholes that cost 
lives.
    In 2020, the Department of Transportation spent 25 times more 
overseeing aviation than trucking, reflecting, in part, the headline-
grabbing nature of plane crashes that make air safety a national focus. 
By contrast, trucking disasters that kill two or four or six at a time 
rarely capture the nation's attention, and there is little public 
pressure for change.

                                 <F-dash>
    Letter of March 10, 2021, from Gary Biller, President and Chief 
     Executive Officer, National Motorists Association (NMA), and 
Legislative Text of NMA's Driver Education Through Enforcement Response 
       (DETER) Act, Submitted for the Record by Hon. David Rouzer
                    National Motorists Association,
                           1001 Arboretum Drive, Suite 120,
                           Waunakee, WI 53597-2670, March 10, 2021.
Chair Eleanor Holmes Norton,
House Subcommittee on Highways and Transit,
2167 Rayburn House Office Building, U.S. House of Representatives, 
        Washington, DC.

Re:  Testimony for the Record
     Subcommittee Hearing: Examining Equity in Transportation Safety 
Enforcement
     Submitted by the National Motorists Association

    Dear Chair Eleanor Holmes Norton,
    Members of the National Motorists Association--an alliance of 
thousands of motorists across the United States who advocate for 
traffic standards based on fairness and safety--watched the 
Subcommittee's February 24, 2021, Examining Equity in Transportation 
Safety Enforcement hearing with great interest.
    The Section 402 grant program administered by the National Highway 
Traffic Safety Administration provides funding to the states for 
initiatives that reduce highway casualties through education and 
enforcement. As currently codified, Section 402 requires states to 
report annually on predefined performance measures so that they can 
qualify for further traffic safety grants.
    Included in those measures are the following three ticketing 
activities:

------------------------------------------------------------------------
 
------------------------------------------------------------------------
A-1.............................  Number of seat      Grant activity
                                   belt citations      reporting.
                                   issued during
                                   grant-funded
                                   enforcement
                                   activities.
A-2.............................  Number of impaired- Grant activity
                                   driving arrests     reporting.
                                   made during grant-
                                   funded
                                   enforcement
                                   activities.
A-3.............................  Number of speeding  Grant activity
                                   citations issued    reporting.
                                   during grant-
                                   funded
                                   enforcement
                                   activities.
------------------------------------------------------------------------

    The current federal rules that NHTSA must abide by are explicit: 
Issue a specific volume of traffic tickets or risk losing federal grant 
money.
    More than 20 states have made ticket quotas illegal. Section 402 
rules, however, give them cover: It is mandatory to report on ticketing 
activity levels to receive federal safety grants. The success in 
securing future grants is predicated on efficiency in issuing 
citations, not in showing reductions in traffic accidents and 
fatalities. In actuality, those grant monies should be awarded based on 
measurable safety improvements and not on how many tickets are handed 
out each year.
    States should be encouraged to concentrate their efforts on 
educational and enforcement safety programs that are not based on 
meeting prescribed ticketing levels. To that end, we urge members of 
the House Committee on Transportation and Infrastructure to support 
adding the NMA's DETER (Driver Education Through Enforcement Response) 
Act language in the Transportation Infrastructure Act of 2021 as 
follows:

    ``Amend Title 23. Highways, Chapter 4. Highway Safety, Section 402. 
Highway safety programs of the United States Code by replacing 
subparagraph (k)(5) in its entirety as follows:

        (5) Performance Measures

        For highway safety plans submitted under this subsection, the 
        performance measures required by the Secretary under paragraph 
        (4)(A) shall be limited to casualty and crash-rate 
        improvements. Funded enforcement campaigns may focus on 
        maintaining a visible police presence to influence safe driving 
        behaviors by the public but the Secretary shall ensure that the 
        use of ticketing activity such as the number of traffic stops 
        made, the number of tickets issued, or the number of arrests 
        made shall not be used to determine federal grant fund awards 
        to state or local agencies.''

    Doing so will substantially reduce quota-based police interactions. 
We would be pleased to provide additional information on this matter or 
answer any questions you might have.
        Sincerely,
                                               Gary Biller,
                                                     President/CEO.
cc:  Chairman Peter A. DeFazio, Transportation and Infrastructure 
Committee
    Members of the Highways and Transit Subcommittee

Attachment: Legislative Text, DETER Act
 national motorists association's driver education through enforcement 
                          response (deter) act
                                H.R. __

                                 A BILL

    To reinforce the stated purpose of state highway safety programs 
per Title 23, Section 402 of the United States Code (``to reduce 
traffic accidents and the resulting deaths, injuries, and property 
damage''), to eliminate incentives that create traffic ticket and 
arrest quotas, and to emphasize the driver education role of police-
presence campaigns.
    Be it enacted by the Senate and the House of Representatives of the 
United States of America in Congress assembled.

SECTION 1. SHORT TITLE
    This Act may be cited as the ``Driver Education Through Enforcement 
Response'' or DETER Act.

SECTION 2. FINDINGS
    Congress finds that--
    The primary purpose of highway safety grant funding is to improve 
safety by reducing traffic violations, decreasing the number of traffic 
collisions, and preventing (deterring) serious injury and property 
damage through the education of drivers.

SECTION 3. IMPROVING DRIVER SAFETY EDUCATION BY POLICE RESPONSE AND 
        PROHIBITING FUNDING ACTIVITIES BASED ON TRAFFIC TICKET AND 
        ARREST QUOTAS.
    Amend Title 23. Highways, Chapter 4. Highway Safety, Section 402. 
Highway safety programs of the United States Code by replacing 
subparagraph (k)(5) in its entirety as follows:

        (5) Performance Measures

        For highway safety plans submitted under this subsection, the 
        performance measures required by the Secretary under paragraph 
        (4)(A) shall be limited to casualty and crash-rate 
        improvements. Funded enforcement campaigns may focus on 
        maintaining a visible police presence to influence safe driving 
        behaviors by the public but the Secretary shall ensure that the 
        use of ticketing activity such as the number of traffic stops 
        made, the number of tickets issued, or the number of arrests 
        made shall not be used to determine federal grant fund awards 
        to state or local agencies.


                                Appendix

                              ----------                              


Question from Hon. Frederica S. Wilson to Larry Sandigo, Former Chair, 
  Community Advisory Board for Melendres v. Arpaio, Maricopa County, 
                                Arizona

    Question 1. Adequately addressing transportation equity is a 
complex, intersectional process that requires long-term commitment from 
the government and stakeholders.
    Would you all support the establishment of an advisory committee 
within the Department of Transportation that would advise the Secretary 
on policies to promote transportation equity?
    Answer. Yes, I completely support the establishment of an advisory 
committee within the Department of Transportation that would advise the 
Secretary on policies to promote transportation equity. Having served 
on an advisory committee that dealt with equity issues in traffic 
enforcement, there are a few factors that would help the success of 
such a committee:
    <bullet>  The committee must have the full support of the Secretary 
and leadership in the Department, and that support must be communicated 
to both internal staff and external stakeholders.
    <bullet>  The committee should have the resources and access needed 
to be successful. That would include staff support, a meaningful 
budget, and robust access to all aspects, such as documents, reports, 
internal data, etc., and units within the Department that deal with 
equity.
    <bullet>  The Department should consult and deliberate with the 
committee in a meaningful way early in the process of formulating 
policies and procedures.
    <bullet>  The Department should provide a feedback loop that 
demonstrates how the Department incorporated the committee's advice and 
recommendations in its policies.
    <bullet>  The Department should provide a staff point of contact 
that has sufficient stature and influence to advocate for the 
committee's recommendations.
    <bullet>  The committee must be composed of people who have 
expertise and experience, both professional and lived, with the 
policies of the Department. The Department should also prioritize 
having committee members who have been directly impacted by inequities 
in transportation policies.

 Questions from Hon. Seth Moulton to Lorraine M. Martin, President and 
            Chief Executive Officer, National Safety Council

    Question 1. Ms. Martin, you testified that there were 39,107 people 
killed in motor vehicle incidents in the United States in 2019 and that 
those deaths are preventable.
    To that end, would you support measures to expand the use of 405(c) 
Traffic Safety Information Systems grants to match the statutorily-
stated purpose and improve interoperability and data sharing between 
state and national data systems?
    Answer. Improved data sharing can definitely help ensure that 
problematic drivers are unable to move to another state and be licensed 
to drive there and that infractions in other states are reported to a 
driver's licensing state. Clarifying that this grant funding can be 
used for improving interoperability of data systems would be helpful 
for states that would like to use it for this purpose.

    Question 2. Ms. Martin, seven of the 2019 deaths occurred on June 
21 when an impaired Massachusetts driver plowed into a group of 
motorcyclists--all Marine veterans and their significant others--as 
they traveled to a charity event in New Hampshire. That driver had out-
of-state driving infractions, including a DUI in Connecticut, that 
should have resulted in the loss of his license. When Connecticut sent 
a paper notice to the Massachusetts Registry of Motor Vehicles; 
however, it went unopened along with thousands of others, allowing 
unsafe drivers to remain on the road.
    In an age when our phone notifications remind us where we parked or 
tell us how many steps we've taken that day, would you support this 
committee taking steps to help states move beyond paper and send out-
of-state driving infraction notices to the driver's licensing state 
through digital or automatic notices?
    Answer. Electronic transfer of data allows for real-time sharing of 
notifications if all systems can communicate in this manner. In order 
to reach the goal you have outlined, states may need financial support 
to purchase equipment and training, and Congress could outline the use 
of federal funding by states to support real-time transfer of data and 
information in the reauthorization bill.

    Question 3. Ms. Martin, following the death of those seven 
individuals, I introduced the SAFE DRIVERS Act of 2019 to take these 
steps and bring our traffic safety information systems into the 21st 
century. The following year, the Boston Globe's Spotlight ran a series 
highlighting this as a national problem, beyond the tragedy that first 
brought it to my attention.
    Would you recommend Congress adopt provisions within H.R. 2 to meet 
the goals of the SAFE DRIVERS Act as I've outlined for you?
    Answer. Yes, as you have outlined, there are several ways that 
better and faster reporting of safety data could improve safety for all 
roadway users. This goal is something Congress should enact when it 
reconsiders a surface transportation reauthorization bill.

Question from Hon. Nikema Williams to Lorraine M. Martin, President and 
            Chief Executive Officer, National Safety Council

    Question 4. Ms. Martin, in your written testimony, you discuss the 
``safe system'' approach to roadway and infrastructure design. I 
believe it is an important concept to work into our roadway planning 
and design.
    Can you discuss how the safe system approach would promote safety 
and equity?
    Answer. The Safe System approach offers an alternative to sole 
dependence on enforcement and individual drivers for safety and, 
implemented equitably, could address historic problems in safety 
investment. The Safe System approach reduces the need for law 
enforcement by making roads and vehicles self-enforcing. It also 
protects against human error, lessening the dependency on individual 
behavior of both roadway users and those enforcing transportation 
safety laws.
    This approach also takes into account all roadway users, including 
bicyclists and pedestrians and does not prioritize one mode of 
transportation over any others. With exponentially increasing 
fatalities among vulnerable road users as opposed to those inside 
vehicles, the safe system approach ensures that the safety of all 
people, no matter how they choose to be mobile, is prioritized.
    The National Safety Council (NCS) outlines the safe system approach 
in this policy position (https://www.nsc.org/getattachment/cbffc278-
6c2b-4c16-ad11-959201b2755e/T-Safe-Systems-149) in which we support the 
application of Safe System approaches to road safety in local, state, 
federal, and private sector transportation policies.
    NSC supports provisions in the Moving Forward Act that prioritize 
the safe system approach in planning and engineering of our existing 
and new roadways within the Highway Safety Improvement Program (HSIP). 
We also support seeking opportunities for greater inclusion, beyond 
HSIP, of the safe system approach in the reauthorization bill that the 
117th Congress will introduce.

 Questions from Hon. Steve Cohen to Lorraine M. Martin, President and 
            Chief Executive Officer, National Safety Council

    Question 5. In 2019, 3,142 people were killed in crashes involving 
a distracted driver, a nearly 10% increase from the previous year. 
Additionally, crashes in which at least one driver was identified as 
being distracted imposed an economic cost of $40 billion in 2010. And 
yet, these crashes are known to be underreported because of differences 
in police crash report coding, database limitations, and other 
challenges. It is clear from an increasing body of safety research, 
studies and data that the use of electronic devices for 
telecommunications (such as mobile phones and text messaging), 
telematics and entertainment can readily distract drivers from the 
driving task. Crash risk increases dramatically--as much as four times 
higher--when a driver is using a mobile phone, with no significant 
safety difference between hand-held and hands-free phones observed in 
many studies. Further, given the rapid growth of smart phone capability 
and usage and the broadening range of distracting electronic 
communication platforms and options (including apps, social media, 
gaming, video chatting), device use may now be accomplished without 
holding or consistently physically engaging with a device (voice-to-
text and/or dash mounted option).
    How can Congress help address the problem of distracted driving?
    Answer. Distracted driving is a danger to all roadway users and the 
full extent of the problem is unknown. Distraction caused by talking on 
the phone, browsing the internet, using apps, texting, and use of other 
electronic devices, including in-vehicle systems while driving, puts 
all roadway users at risk. NSC believes there is much more that 
policymakers, auto manufacturers, and all road users can do to curb the 
epidemic of distraction on our roadways. Our ``Distraction on the 
Roadways'' Policy Position (https://www.nsc.org/getattachment/24fab695-
e1e0-485d-88e2-8e9b4ffa6266/t-distraction%20on%20the%20roadways%20-
%20166) outlines several steps we would recommend:
    <bullet>  A multi-pronged approach is necessary to change driver 
behavior when it comes to distracted driving, including stronger laws, 
effective enforcement and widespread education.
    <bullet>  Policymakers should pass strong laws prohibiting the use 
of electronic devices while driving, including primary enforcement, and 
allow for robust, equitable enforcement and public education efforts.
    <bullet>  Vehicle and smartphone manufacturers should default to 
``driving'' modes for vehicle devices and in-vehicle technology.
    <bullet>  Prioritizing the Safe System approaches can help mitigate 
many of these risks, especially as it pertains to building safer 
infrastructure with all roadway users in mind. The approach requires 
the involvement of all transportation system participants in safety 
efforts, and seeks to strengthen safety in all aspects of the roadway 
transportation system so that if one part fails, the others will still 
protect people from death or serious injury. NCS outlines the Safe 
System approach in this policy position (https://www.nsc.org/
getattachment/cbffc278-6c2b-4c16-ad11-959201b2755e/T-Safe-Systems-149) 
in which we support the application of Safe System approaches to road 
safety in local, state, federal, and private sector transportation 
policies.
    <bullet>  Improved roadway user distraction data is needed. NSC 
supports efforts by state and federal agencies to collect and report 
this data.

    However, NSC does not support the utilization of these types of 
laws to target specific populations, as outlined in our equity policy 
position (https://www.nsc.org/getattachment/757d2d64-8b77-4997-8fb4-
97d004188acf/t%20equity%20in%20transportation%20165), or to achieve 
anything other than the intended goal: to improve safety for all 
roadway users.
    Currently, Congress incentivizes States to curb distracted driving 
through the NHTSA Section 405(e) grant program. NSC worked with the 
Governors Highway Safety Association (GHSA) to amend the current grant 
structure in hopes of more states passing distracted driving laws. 
Currently:
    <bullet>  24 States and DC ban hand-held devices for all drivers;
    <bullet>  6 States had partial hand-held device bans for drivers 
(in certain zones and/or for certain license holders); and
    <bullet>  36 States and DC restrict all cellphone use for drivers 
under 18.

    We hope this NSC and GHSA proposal will be adopted by Congress in 
the reauthorization bill and will encourage more states to strengthen 
distracted driving laws to save lives.

    Question 6. You have endorsed the SAFE TO DRIVE Act. Can you expand 
on how it and state laws more broadly can be improved to account for 
the distracting capabilities that many phones now feature and what role 
can Congress play in encouraging that action?
    Answer. NSC is proud to support the SAFE TO DRIVE Act. If enacted, 
this legislation will incentivize States to make violations of 
distracted driving laws a primary-enforced offense and prohibits 
texting and non-navigational use of a personal wireless communications 
device.
    Distracted driving is a danger to all roadway users and the extent 
of the problem is unknown. Distraction caused by talking on the phone, 
browsing the internet, using apps, texting, and use of other electronic 
devices, including in vehicle systems, while driving puts all roadway 
users at risk. NSC believes there is much more that policymakers, auto 
manufacturers, and all road users can do to curb the epidemic of 
distraction on our roadways. Our ``Distraction on the Roadways'' Policy 
Position (https://www.nsc.org/getattachment/24fab695-e1e0-485d-88e2-
8e9b4ffa6266/t-distraction%20on%20the%20roadways%20-%20166) outlines 
several steps we would recommend:
    <bullet>  NSC believes that a multi-pronged approach is necessary 
to change driver behavior when it comes to distracted driving, 
including stronger laws, effective enforcement, and widespread 
education.
    <bullet>  Policymakers should pass strong laws prohibiting the use 
of electronic devices while driving and allow for robust, equitable 
enforcement and public education efforts.
    <bullet>  Vehicle and smartphone manufacturers should default to 
``driving'' modes for vehicle devices and in-vehicle technology.
    <bullet>  Prioritizing the Safe System approaches can help mitigate 
many of these risks, especially as it pertains to building safer 
infrastructure with all roadway users in mind. The approach requires 
the involvement of all participants in the roadway transportation 
system in safety efforts and seeks to strengthen safety in all aspects 
of the roadway transportation system so that if one part fails, the 
others will still protect people from death or serious injury. The 
National Safety Council (NCS) outlines the safe system approach in this 
policy position (https://www.nsc.org/getattachment/cbffc278-6c2b-4c16-
ad11-959201b2755e/T-Safe-Systems-149) in which we support the 
application of Safe System approaches to road safety in local, state, 
federal, and private sector transportation policies.
    <bullet>  Improved data related to distraction of roadway users is 
needed. NSC supports efforts by state and federal agencies to collect 
and report this data.

    However, NSC does not support the utilization of these types of 
laws to target specific populations, as outlined in our equity policy 
position (https://www.nsc.org/getattachment/757d2d64-8b77-4997-8fb4-
97d004188acf/t%20equity%20in%20transportation%20165), or to achieve 
anything other than the intended goal: to improve safety for all 
roadway users.
    As stated, we need states to strengthen their distracted driving 
laws in general. As is outlined in the NSC ``Understanding Driver 
Distraction'' white paper (https://www.nsc.org/road-safety/safety-
topics/distracted-driving/distracted-brain), research shows that any 
driver use of electronic devices increases cognitive distraction--the 
inability to focus on a primary task such as driving. The human brain 
is not capable of multitasking, or doing two things at once. Instead, 
the brain is constantly attention-switching between the two tasks, 
never giving full focus to either one. Driving is a complex task that 
could change at any moment, and if a driver is not fully focused on the 
driving task, the driver could cause a fatal crash. NSC encourages all 
States to adopt primary enforced laws banning all non-navigational 
driver use of electronic devices, particularly for novice drivers.

    Questions from Hon. Frederica S. Wilson to Lorraine M. Martin, 
     President and Chief Executive Officer, National Safety Council

    Question 7. Ms. Martin, you mention in your testimony the lack of 
safety improvements in low-income neighborhoods despite people of color 
being overrepresented in fatal crashes involving pedestrians.
    In your opinion, what is the driving factor preventing local 
governments from implementing similar basic safety features that are 
more common in wealthier neighborhoods?
    Answer. Infrastructure design varies among neighborhoods. 
Historically, there has been an underinvestment in safety 
infrastructure in low-income areas, and this underinvestment leads to 
less safe streets for all roadway users. We encourage transportation 
planners and engineers to examine all areas for safety improvements, 
and especially those that have high crash incidents. In my testimony, I 
provided an example of a city that mapped where most of its fatal 
crashes occurred, and it was on just 13% of the city's street miles. 
Using this data, city planners had clear line of sight on where to 
focus resources. Reviews like this can be done in any state and city to 
use data to focus limited resources.
    Additionally, we encourage policymakers to adopt a safe system 
approach to roadway design. When implemented equitably, this approach 
could address historic problems in safety investment. The Safe System 
approach can reduce the need for enforcement by making roads self-
enforcing.

    Question 8. And how can the federal government become a partner in 
addressing this issue?
    Answer. Provisions of H.R.2 from the 116th Congress took important 
steps to help. These steps include:
    <bullet>  Defining the safe system approach
    <bullet>  Incorporating safe system into roadway planning decision
    <bullet>  Prioritizing vulnerable road user safety projects
    <bullet>  Authorizing a GAO study on the impact of transportation 
design on marginalized communities

    We support continued inclusion of these provisions in the117th 
Congress legislation and know there are additional ways to incorporate 
equity and the safe system approach into the authorization bill. We 
look forward to working with you on these suggestions.

    Question 9. Adequately addressing transportation equity is a 
complex, intersectional process that requires long-term commitment from 
the government and stakeholders.
    Would you all support the establishment of an advisory committee 
within the Department of Transportation that would advise the Secretary 
on policies to promote transportation equity?
    Answer. The National Safety Council (NSC) was honored to be 
included in this hearing to examine equity in transportation safety 
enforcement. This conversation is long overdue and forces all 
stakeholders to take a critical eye to the way things have been done. 
Last year, NSC adopted an Equity in Transportation Policy Position that 
examined this issue, acknowledging we can do more (https://www.nsc.org/
getattachment/757d2d64-8b77-4997-8fb4-97d004188acf/
t%20equity%20in%20transportation%20165).
    Federal Advisory Committees do provide an important mechanism for 
input on topics from a range of stakeholders. NSC supports establishing 
a federal advisory committee on equity in transportation at U.S. 
Department of Transportation, and we would be honored to participate in 
it.

 Questions from Hon. Rodney Davis to Lorraine M. Martin, President and 
            Chief Executive Officer, National Safety Council

    Question 10. We have struggled as a country with the problem of 
impaired driving for decades. With increases in substance use, it is 
possible drug impaired driving has increased, but we unfortunately do 
not have good data.
    Is there more we can do to better understand impaired driving, 
including drug impaired driving?
    Answer. We know that impaired driving, including drug impaired 
driving, is a serious problem in our country. The Centers for Disease 
Control and Prevention (CDC) found that 12 million people aged 16 and 
older reported driving under the influence of marijuana in the past 
year, and 2.3 million people aged 16 and older reported driving under 
the influence of illicit drugs other than marijuana.\1\
---------------------------------------------------------------------------
    \1\ https://www.cdc.gov/mmwr/volumes/68/wr/mm6850a1.htm
---------------------------------------------------------------------------
    Substance abuse is a complex problem, and good data are needed to 
develop effective solutions. During the last national roadside survey 
conducted by NHTSA in 2013-2014, the percentages of weekend nighttime 
drivers who tested positive for alcohol, marijuana and illicit drugs 
were 8.3%, 12.6% and 15.1%, respectively.\2\ These results are the most 
comprehensive, national data available on impaired driving. The 
national roadside survey is a key tool for understanding impaired 
driving on U.S. roads. NSC implores Congress to remove barriers to 
conducting this survey because it is hard to stop deadly driving when 
policymakers do not fully understand where and how it is happening.
---------------------------------------------------------------------------
    \2\ https://www.nhtsa.gov/behavioral-research/2013-14-national-
roadside-study-alcohol-and-drug-use-drivers
---------------------------------------------------------------------------
    Additionally, we do not have standardized data for a clear 
understanding of the problem of impaired driving. Consensus standards 
have been established based on the prevalence of drugs found in current 
testing, with recommendations to states to test for most common drugs, 
and this list will be updated later this year. The first tier includes 
the most common, readily detectable drugs that account for the greatest 
number of impaired driving cases found by most laboratories. The second 
tier are emerging drugs, which are less frequently detected or require 
special testing equipment or technology that should be considered in 
cases where testing for tier 1 drugs is negative.
    These recommendations have been voluntarily adopted by more than 50 
of the most active laboratories in the country and the toxicology 
community is working towards fuller adoption as a way to provide more 
uniform and comprehensive testing and more reliable epidemiological 
data on the severity of drug-impaired driving. We encourage Congress to 
help implement common testing across all states to ensure we have the 
best data in order to understand and develop effective countermeasures 
for drug-impaired driving.

    Question 11. Do you think the Committee should continue to allow 
States to expend NHTSA grants on traffic enforcement activity? If so, 
what impact would that have on safety?
    Answer. Yes, enforcement is an important and integral part of 
roadway safety, and it must be conducted in a fair and equitable 
manner. High visibility enforcement (HVE) campaigns, in which well-
publicized, concentrated and purpose-driven enforcement is combined 
with highly-visible education efforts, have been demonstrated to result 
in safer driving, and here are a few examples of these programs.
    <bullet>  High visibility campaigns like ``Click it or Ticket'' 
resulted in a 20% increase of observed seat belt use in a 16-year 
period.\3\
---------------------------------------------------------------------------
    \3\ https://www.ems.gov/pdf/811232.pdf
---------------------------------------------------------------------------
    <bullet>  Speed camera installation reduced speeding by 14% at 
camera sites, and the proportion of vehicles exceeding the speed limit 
by more than 10 miles per hour decreased by 82%.\4\ In 2014, DC 
reported that on average, collisions and injuries in the camera 
vicinity have decreased by 17% and 20% respectively in the three years 
following installation, compared with the three preceding years.\5\
---------------------------------------------------------------------------
    \4\ https://www.dcpolicycenter.org/publications/speed-cameras-in-d-
c/
    \5\ https://www.dcpolicycenter.org/publications/predominately-
black-neighborhoods-in-d-c-bear-the-brunt-of-automated-traffic-
enforcement/
---------------------------------------------------------------------------
    <bullet>  Several studies have found that highly visible sobriety 
checkpoint programs, a common impaired driving strategy, have achieved 
10 to 20 percent reductions in alcohol-related crashes. (https://
www.ncbi.nlm.nih.gov/pmc/articles/PMC3256786/; https://www.iihs.org/
topics/alcohol-and-drugs#alcohol-enforcement)
    <bullet>  NHTSA has found that HVE campaigns to enforce handheld 
cell phone bans can reduce observed phone use behind the wheel. 
(https://www.nhtsa.gov/sites/nhtsa.dot.gov/files/documents/
812108_evaluationdistracteddrivingca-de.pdf)

Questions from Hon. Mike Gallagher to Lorraine M. Martin, President and 
            Chief Executive Officer, National Safety Council

    Question 12. In terms of distracted driving grants, what changes do 
you recommend to effectively curb distracted driving?
    Answer. NSC supports NHTSA Section 405 grants, dedicated to 
priority programs addressing persistent killers on our roadways, with 
requirements and incentives that states must meet to qualify for 
funding. Section 405(e) grants are focused on distracted driving.
    NSC is proud to support the SAFE TO DRIVE Act. If enacted, this 
legislation will incentivize States to make violations of distracted 
driving laws a primary-enforced offense and prohibits texting and non-
navigational use of a personal wireless communications device. 
Additionally, it may allow for some states that would otherwise not be 
eligible, to qualify for these funds by enacting simple laws to curb 
distracted driving.
    We have also worked with the Governors Highway Safety Association 
(GHSA) on provisions to amend section 405(e). This proposal encourages 
states to enact primary enforcement laws, allow for flexibility on 
fines, and other provisions. We look forward to working with you to 
enact these amendments into law.

    Question 13. For FY2020, 17 states applied for distracted driving 
grants, but only 7 qualified to receive them. What do you think is the 
reason for this disparity and how can it be rectified?
    Answer. NSC supports the Committee requiring greater transparency 
from NHTSA when grant applications are rejected and providing technical 
assistance to states for correcting eligibility gaps through increased 
NHTSA engagement.

    Question 14. In terms of equity, does the National Safety Council 
track how distracted driving grants can be used by states to reduce 
traffic fatalities of minorities and marginalized groups? If so, what 
are the findings?
    Answer. NSC is not aware that racial data is available for 
distracted driving fatalities. We know that strong laws change behavior 
behind the wheel, and other factors make a difference too. The April 
2021 distracted driving awareness month (DDAM) survey conducted by NSC 
shows that passengers influence a driver's behavior. Results showed 
that parents are less likely to use distracting technology when their 
children are in the vehicle with them.
    Likewise, a DDAM survey from 2016 showed that employees feel 
pressure to answer a call, text or other communication from an employer 
when behind the wheel, with 54% of drivers being distracted because of 
work-related pressure. This is why we encourage all drivers to take our 
Just Drive pledge during Distracted Driving Awareness Month every 
April. We also encourage all employers to enact a distracted driving 
policy banning all employee use of electronic devices while they are 
driving. Employers can and should be at the forefront of a cultural 
change to make the use of in-vehicle technology while driving 
unacceptable. People outside the vehicle--whether employers, family 
members, or friends--can help drivers be safer by not contacting them 
when they know people are driving.

  Question from Hon. Frederica S. Wilson to Michelle Ramsey Hawkins, 
     Victim, Survivor, and Volunteer, Mothers Against Drunk Driving

    Question 1. Adequately addressing transportation equity is a 
complex, intersectional process that requires long-term commitment from 
the government and stakeholders.
    Would you all support the establishment of an advisory committee 
within the Department of Transportation that would advise the Secretary 
on policies to promote transportation equity?
    Answer. Thank you, Representative Wilson, for this question. Yes, I 
would wholeheartedly support the establishment of an advisory committee 
within the Department of Transportation that would advise the Secretary 
on policies to promote transportation equity. The purpose of my 
testimony on February 24, 2021 was not only to tell my story but to 
bring awareness to the needs of transportation equity and specifically 
how we can identify and promote fair and just traffic safety 
enforcement.
    MADD would like to continue to have a seat at the table as 
discussions on equity and traffic safety enforcement move forward, and 
data-driven solutions are identified. Traffic crash victims, including 
survivors who are also people of color, deserve to be heard.
    The advisory committee should consist of a diverse group of 
individuals and organizations seeking equitable change for society as a 
whole, and not just for a particular group or population. Members of 
this advisory committee should speak for all and not for some in its 
representation--including stakeholders who are part of the mezzo, macro 
and micro populations of our country.
    Thank you again for this opportunity.

 Questions from Hon. Peter A. DeFazio to Ken Barone, Project Manager, 
Institute for Municipal and Regional Policy, Central Connecticut State 
                               University

    Question 1. Mr. Barone, your testimony notes that while the primary 
motivation behind your work has been to identify and address racial and 
ethnic disparities in traffic enforcement, you soon realized that 
addressing these disparities also had a significant impact on the 
effectiveness of traffic safety.
    Are other States hoping to achieve similar outcomes using this 
approach? How can this Committee support State efforts to achieve these 
outcomes?
    Answer. Connecticut's approach to addressing racial and ethnic 
disparities in traffic enforcement has been replicated, in some form, 
by California, Oregon, and Rhode Island. Since 2000, at least 24 states 
have required the collection and analysis of traffic stop data. 
Unfortunately, most of the 24 states were not using the most advanced 
analytical tools to evaluate disparities in the data. Based on 
advancements made in the research in recent years, I believe there is a 
strong interest by many of the 24 states for reauthorizing or enhancing 
their programs. In recent months, we have engaged with the Council of 
State Governments to identify at least 10 other states that may be 
interested in replicating Connecticut's approach, with the support of 
the Section 1906 program.
    The Committee can support State efforts in the following ways:
    1.  Considering the continued social unrest around policing in the 
United States, the section 1906 program is more vital than ever. 
Reauthorization and expansion of the program will allow states like 
Connecticut to build upon our success and continue to collaboratively 
and transparently work towards a more fair and just society. Under the 
Section 1906 program, eligible states cannot receive more than 5% of 
the total annual funding. That amounts to no more than $375,000 per 
state (regardless of size). Additional funding for States could go a 
long way in helping to develop and maintain robust data collection and 
analysis programs. Federal funding would be vital to developing 
programs that take a hands-on approach for identifying the underlying 
drivers of disparities and working with police departments to find 
strategies to help mitigate those disparities.
    2.  The Section 1906 program would benefit from a technical advisor 
to work with the National Highway Traffic Safety Administration (NHTSA) 
to help additional states develop data collection and analysis programs 
and navigate the Section 1906 program requirements. This would create a 
more uniformed approach and allow for national and state by state 
comparisons.
    3.  New states interested in participating in the program may need 
time to assess their technical capabilities and ensure that state 
regulations/statutes meet the program criteria. Allowing states to 
access one-time funding through a planning grant is a great way to 
incentivize states to explore the feasibility of the program. Some 
states may realize that much of the infrastructure is already in place.
    4.  The Department of Transportation and NHTSA should develop plans 
to conduct a national study to guide local law enforcement agencies on 
strategies that they can use to increase roadway safety and reduce/
eliminate racial disparities.

    Question 2. Mr. Barone, your findings indicate that racial 
disparities in traffic enforcement in Connecticut have largely been 
driven by police enforcement of lower level vehicle equipment and 
administrative violations, such as a broken taillight.
    Does the data show a correlation between ticketing drivers for 
equipment or administrative violations and preventing traffic crashes?
    Answer. We have not found any correlation between ticketing (or 
stopping) drivers for equipment or administrative violations and 
preventing traffic crashes. There are over 30,000 fatal motor vehicle 
crashes in the United States each year. In 2019, there were 255 fatal 
crashes in Connecticut. During that same period, there were over 
112,000 reported motor vehicle accidents in the state. A review of 
Connecticut's motor vehicle crash data between 2015 and 2019, indicates 
that excessive speed was the leading contributing factor in crashes 
(29% of crashes). Meanwhile, motor vehicle equipment issues (i.e. 
brakes, tires, power train, suspension, lights, windows, mirrors, etc.) 
were a contributing factor in approximately 12% of accidents. There is 
no data on crashes related to administrative offenses because they do 
not affect the data. The largest contributing factors in crashes 
involving an injury was failure to stay in the lane and following too 
closely.
    Based on our research, it does not appear that the types of 
equipment violations being enforced in Connecticut relate in any 
significant way to the types of equipment issues that are identified as 
contributing to accidents. On average, equipment-related violations 
account for 14% of all traffic stops. On its face it may appear to 
mirror the percentage of crashes where an equipment issue was a 
contributing factor, but the data does not support this conclusion. Of 
the equipment-related stops, defective lighting accounts for 9.4% of 
stops, but is only identified as a contributing factor in 0.1% of 
accidents. Stops for a display of plate violations account for 3.2% of 
all traffic stops but are not a contributing factor in accidents. 
Lastly, window tint and windshield obstruction violations account for 
1.4% of all traffic stops but is only identified as a contributing 
factor in less than 0.1% of accidents. The most common equipment issues 
reported that contributed to a motor vehicle accident were related to 
brakes, steering, power train, or tires. The equipment violations that 
can be easily observed by a police officer (i.e. defective lights, 
windshield obstruction, and excessive window tinting), are not the 
equipment issues that contribute to motor vehicle accidents.

Questions from Hon. Frederica S. Wilson to Ken Barone, Project Manager, 
Institute for Municipal and Regional Policy, Central Connecticut State 
                               University

    Question 3. Mr. Barone and Mr. Sandigo, you both mentioned in your 
testimonies the role of data in improving police practices. However, 
this is only one piece of a complex puzzle to improve practices and 
community relations.
    How can Congress help local departments and communities make 
meaningful changes to improve disparities in policing?
    Answer. Local police departments and the communities they serve 
must engage in an ongoing dialogue about how to improve racial and 
ethnic disparities in policing. For too long, conversations between 
police and the community have been grounded by anecdotal evidence. 
Although sharing personal stories about police interactions is 
important, it can sometimes serve to further divide the police and 
community. One way Congress can ensure that these conversations are 
grounded by data is to consider reauthorization and expansion of the 
Section 1906 program.
    Congress should consider incentivizing states that participate in 
the Section 1906 program to go beyond simply collecting data. States 
would greatly benefit from a process that not only analyzes data but 
identifies departments with the most significant racial and ethnic 
disparities for further intervention. States should use the analysis to 
hold data-driven conversations between stakeholders to enact reforms to 
mitigate future disparities.
    Connecticut has found a lot of success in our hands-on approach for 
identifying the underlying drivers of disparities and finding 
strategies to help mitigate them. Engaging stakeholders throughout the 
intervention process has allowed advocates, law enforcement, academics, 
and government officials to come together in ways unimaginable even a 
decade ago. What previously had been a war of anecdotes has been 
transformed into a constructive data-driven conversation about policy. 
Stakeholders and policing administrators now regularly attend panel 
conversations around the state and speak in similar tones about the 
statewide effort. The vitriol is gone from most conversations and has 
been replaced by a focus on what more can be done.

    Question 4. Based on your experiences, what is the best way to 
establish a productive relationship between police and community 
advisory boards?
    Answer. The best way to establish a productive relationship between 
police and community advisory boards is to ensure that all stakeholders 
are at the table at all points in the process: from the development of 
the method used to implement a racial profiling law, to discussing 
results from any annual analysis or potential reforms. Connecticut's 
success is largely due to the active participation of a statewide 20-
member advisory board. Advisory board members consist of advocates, law 
enforcement administrators, academics, policymakers, and community 
members. The advisory board was initially established to help with the 
development, implementation, and oversight of our program. In time we 
have found it to be extremely important that the board is transparent, 
inclusive, and readily accessible to the public. Having a fair broker 
in the chair role has also been helpful in keeping the group together. 
Commitment to the process is key as well, as this ensures everyone 
works together towards common goals. The value of developing 
relationships cannot be understated; in Connecticut we've had many of 
the same members of our advisory board since the project began in 2011.
    Since its inception in 2012, a major focus for the board has been 
to find ways to engage communities and local law enforcement officials 
in a meaningful dialogue about racial and ethnic profiling. The 
advisory board has successfully hosted community forums with local law 
enforcement officials for almost a decade. During these forums, an 
independent set of recommendations is presented by researchers and the 
public is given an opportunity to provide input as to their efficacy. 
The value added of this approach is that it allows for a transparent 
data-driven dialogue between stakeholders and policing administrators 
about how specific enforcement policies contribute to observed patterns 
of disparity.

    Question 5. Adequately addressing transportation equity is a 
complex, intersectional process that requires long-term commitment from 
the government and stakeholders.
    Would you all support the establishment of an advisory committee 
within the Department of Transportation that would advise the Secretary 
on policies to promote transportation equity?
    Answer. Absolutely. I think an advisory committee within the 
Department of Transportation and the National Highway Traffic Safety 
Administration would greatly benefit policies developed by the agency 
in promoting transportation equity.

    Question from Hon. Rodney Davis to Ken Barone, Project Manager, 
Institute for Municipal and Regional Policy, Central Connecticut State 
                               University

    Question 6. Your testimony mentions that racial and ethnic 
disparities are greatest when law enforcement focuses more on lower 
level equipment and administrative violations. To address this 
disparity, a Connecticut town successfully focused its enforcement 
efforts on hazardous driving behaviors.
    How has this change affected community and police relations and 
traffic safety?
    Answer. As I mentioned in my testimony, in Connecticut we have 
found that racial and ethnic disparities in traffic enforcement have 
largely been driven by police enforcement of lower level equipment and 
administrative violations. Our annual traffic stop assessment has 
consistently found that racial and ethnic disparities are significantly 
decreased when law enforcement primarily focus on safety-related 
violations. We also know that safety-related motor vehicle violations 
are significantly more likely to be a contributing factor in motor 
vehicle crashes.
    The Connecticut town referenced in my written testimony that 
shifted their enforcement strategy from a significant focus on low 
level equipment and administrative violations to a focus on hazardous 
driving behaviors reported that these changes coincided with a falling 
crime rate (5%) and decreased rate of accidents (10%). The department 
also reported stronger relationships with the community following our 
intervention. One reason for the improved relationship was because 
community stakeholders were engaged with the police administration in a 
dialogue about the factors driving the disparity. Our data analysis 
helped to guide the conversation, but ultimately reforms were the 
result of conversations between the community and police.
    Initially, there was skepticism on the part of police that shifting 
their focus away from low level equipment and administrative violations 
would result in anything other than increased crime. Community members 
were also skeptical that police would truly embrace the reforms and not 
simply substitute one low level traffic violation for another. Law 
enforcement skepticism disappeared when the data revealed that crime 
and accidents were down following the change in enforcement practices. 
Community skepticism also diminished as the community felt the benefits 
of safer streets and a significant decrease in racial and ethnic 
disparities.
    With additional and more flexible funds available through the 1906 
program, states could also benefit from implementing regular community 
surveys and other qualitative and quantitative methods to assess 
changes and determine their impact on traffic safety, community 
perception and police/community relations.

 Questions from Hon. Peter A. DeFazio to Rashawn Ray, Ph.D., Professor 
   of Sociology, University of Maryland; Executive Director, Lab for 
 Applied Social Science Research, and Fellow, The Brookings Institution

    Question 1. Mr. Ray, I was interested to learn how virtual reality 
can be used to identify and address implicit bias when officers 
interact with drivers.
    What are some of the disparities you've seen in your research and 
how have they been addressed?
    Answer. Chairman DeFazio, thank you for the questions. Our research 
has shown that some officers exhibit racial and gender biases during 
traffic stops. Officers are more likely to stop, search, and use force 
on Black drivers relative to White drivers. As officers approach 
vehicles after stops, they are less likely to look into the vehicles of 
women as they approach the driver.
    To address these disparities, The Lab for Applied Social Science 
Research at the University of Maryland developed an innovative virtual 
reality program to reduce bias and improve objectivity. Officers 
participate in our program and repeatedly go through virtual reality 
scenarios that mimic the encounters they have on a daily basis. We are 
able to examine officers attitudes, physiological responses (including 
heart rate, stress level, and eye movement), and behaviors. The more 
that officers go through our virtual reality training program and 
receive feedback from training officers, the more they improve their 
equitable treatment of people, regardless of race, gender, or setting, 
and in turn, reduce their biases.

    Question 2. What has been the feedback from law enforcement about 
this approach?
    Answer. The Lab for Applied Social Science Research has worked with 
dozens of large, medium, and small police departments across the 
country. In addition to providing law enforcement with feedback, they 
provide us with feedback on the utility and feasibility of our program.
    Overwhelmingly, officers enjoy the experience and believe the 
training to be useful for improving objectivity and reducing bias. 
Additionally, officers report how realistic the virtual reality 
scenarios are and how much better our program is compared to their 
current technology-based trainings.

    Questions from Hon. Frederica S. Wilson to Rashawn Ray, Ph.D., 
Professor of Sociology, University of Maryland; Executive Director, Lab 
    for Applied Social Science Research, and Fellow, The Brookings 
                              Institution

    Question 3. Mr. Ray, in your testimony you highlighted the multiple 
variables that your lab studies that aim to help police departments 
address implicit bias, including race and environmental factors.
    How can your research be used to improve departmental hiring 
practices to employ the best talent to serve our communities?
    Answer. Representative Wilson, thank you for your questions. We 
believe that our virtual reality program can be used as part of the 
background checks, in addition to continuing education and in-service 
training. In fact, some high-ranking officers have recommended that our 
program be used for during the background process. First, our program 
can assess potential officers whose bias and social dominance scores 
suggests they will be more likely to use an extreme amount of force. 
Second, our program can assess which potential officers may need 
remedial training to reduce biases. Gaining this information on the 
frontend can weed out potential ``bad apples'' and give a police 
department a baseline about the competencies and decision making of its 
new recruits.

    Question 4. And has your technology been used by departments to 
help train new police officers before they hit the streets?
    Answer. Yes, our virtual reality program has been used with police 
cadets during their police academy training. Our program allows for 
early-career officers and cadets to practice the type of scenarios 
(traffic stops, domestic house calls, mental health calls, and store 
burglaries) they will encounter on the job. We find that experience 
improves objectivity and reduces bias so providing a program for early-
career officers to obtain more repetitions will reduce their stress and 
improve their decision making.

    Question 5. Adequately addressing transportation equity is a 
complex, intersectional process that requires long-term commitment from 
the government and stakeholders.
    Would you all support the establishment of an advisory committee 
within the Department of Transportation that would advise the Secretary 
on policies to promote transportation equity?
    Answer. Yes, I would support this advisory committee. It is 
important for policymakers to understand that infrastructure and 
transportation extends beyond roads and the vehicles on them. It is 
also about the people in the vehicle who are on the roads. 
Understanding these complex process as well as the social and 
intersectional processes at play is vital.


                                    [all]

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
